<html>
<title> - KEEPING AMERICA COMPETITIVE THROUGH INVESTMENTS IN R&D</title>
<body><pre>[Senate Hearing 112-561]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 112-561
 
         KEEPING AMERICA COMPETITIVE THROUGH INVESTMENTS IN R&D

=======================================================================



                                HEARING

                               before the

                   SUBCOMMITTEE ON SCIENCE AND SPACE

                                 of the

                         COMMITTEE ON COMMERCE,

                      SCIENCE, AND TRANSPORTATION

                          UNITED STATES SENATE

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 6, 2012

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation




                  U.S. GOVERNMENT PRINTING OFFICE
76-247                    WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001





       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

            JOHN D. ROCKEFELLER IV, West Virginia, Chairman
DANIEL K. INOUYE, Hawaii             KAY BAILEY HUTCHISON, Texas, 
JOHN F. KERRY, Massachusetts             Ranking
BARBARA BOXER, California            OLYMPIA J. SNOWE, Maine
BILL NELSON, Florida                 JIM DeMINT, South Carolina
MARIA CANTWELL, Washington           JOHN THUNE, South Dakota
FRANK R. LAUTENBERG, New Jersey      ROGER F. WICKER, Mississippi
MARK PRYOR, Arkansas                 JOHNNY ISAKSON, Georgia
CLAIRE McCASKILL, Missouri           ROY BLUNT, Missouri
AMY KLOBUCHAR, Minnesota             JOHN BOOZMAN, Arkansas
TOM UDALL, New Mexico                PATRICK J. TOOMEY, Pennsylvania
MARK WARNER, Virginia                MARCO RUBIO, Florida
MARK BEGICH, Alaska                  KELLY AYOTTE, New Hampshire
                                     DEAN HELLER, Nevada
                    Ellen L. Doneski, Staff Director
                   James Reid, Deputy Staff Director
                     John Williams, General Counsel
                Todd Bertoson, Republican Staff Director
           Jarrod Thompson, Republican Deputy Staff Director
   Rebecca Seidel, Republican General Counsel and Chief Investigator
                                 ------                                

                   SUBCOMMITTEE ON SCIENCE AND SPACE

BILL NELSON, Florida, Chairman       JOHN BOOZMAN, Arkansas, Ranking
DANIEL K. INOUYE, Hawaii             ROGER F. WICKER, Mississippi
JOHN F. KERRY, Massachusetts         MARCO RUBIO, Florida
MARIA CANTWELL, Washington           KELLY AYOTTE, New Hampshire
MARK PRYOR, Arkansas                 DEAN HELLER, Nevada
MARK WARNER, Virginia


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on March 6, 2012....................................     1
Statement of Senator Nelson......................................     1
Statement of Senator Boozman.....................................     1
Statement of Senator Rockefeller.................................    42
Statement of Senator Pryor.......................................    48

                               Witnesses

Dr. John P. Holdren, Director, Office of Science and Technology 
  Policy, Executive Office of the President of the United States.     4
    Prepared statement...........................................     5
Patrick D. Gallagher, Ph.D., Under Secretary of Commerce for 
  Standards and Technology, U.S. Department of Commerce..........    16
    Prepared statement...........................................    17
Dr. Subra Suresh, Director, National Science Foundation..........    25
    Prepared statement...........................................    26
Dr. Mason Peck, Chief Technologist, National Aeronautics and 
  Space Administration...........................................    32
    Prepared statement...........................................    34

                                Appendix

Response to written questions submitted to Dr. John P. Holdren 
  by:
    Hon. John D. Rockefeller IV..................................    59
    Hon. Bill Nelson.............................................    59
    Hon. Mark Pryor..............................................    60
Response to written questions submitted to Patrick D. Gallagher, 
  Ph.D. by:
    Hon Mark Pryor...............................................    61
    Hon. Olympia J. Snowe........................................    63
    Hon. John Boozman............................................    64
Response to written questions submitted to Dr. Subra Suresh by:
    Hon. John D. Rockefeller IV..................................    65
    Hon. John Boozman............................................    67
Response to written question submitted by Hon. Mark Pryor to Dr. 
  Mason Peck.....................................................    68


         KEEPING AMERICA COMPETITIVE THROUGH INVESTMENTS IN R&D

                              ----------                              


                         TUESDAY, MARCH 6, 2012

                               U.S. Senate,
                 Subcommittee on Science and Space,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 2:56 p.m. in 
Room SR-253, Russell Senate Office Building, Hon. Bill Nelson, 
Chairman of the Subcommittee, presiding.

            OPENING STATEMENT OF HON. BILL NELSON, 
                   U.S. SENATOR FROM FLORIDA

    Senator Nelson. Good afternoon. Thank you all for coming 
today. We're looking forward to this hearing. I want to turn to 
my colleague John, Senator Boozman, for his opening statement 
first.

                STATEMENT OF HON. JOHN BOOZMAN, 
                   U.S. SENATOR FROM ARKANSAS

    Senator Boozman. Thank you very much, Mr. Chairman, and 
thank all of you for being here today to help us examine the 
administration's research and development priorities. I know we 
have a lot to cover, so I'll try and keep this brief.
    Advances in science and engineering are essential to 
ensuring America's economic growth and global competitiveness, 
as well as addressing a host of other national priorities such 
as energy independence, cybersecurity, and health care. I join 
you today with a great sense of responsibility and concern 
about how Congress can strengthen our innovation-based economy 
and take economic growth to the next level.
    While prudent investments in research and development are 
necessary to further our nation's future economic growth, this 
growth can certainly be foiled by poor decisionmaking on the 
part of the government. It's our responsibility as policymakers 
and keepers of the American purse to ensure that we are 
spending America's hard-earned dollars efficiently and 
prudently, and I know that we all agree with that.
    We must prioritize our nation's precious and limited R&D 
dollars in a way that gives Americans what they deserve, the 
biggest bang for their taxpayer buck. But what are the 
necessary steps? How do we support America's spirit of 
innovation and entrepreneurship while being realistic that the 
Federal Government cannot sustain our current level of 
spending?
    First, to encourage entrepreneurial ventures in the 
scientific and technology community, we must begin bridging the 
gap in applied research by removing the regulatory and tax 
burdens that stifle startups here at home. The United States 
once led the way in developing pro-growth and pro-innovation 
policies with low tax and a limited regulatory burden. We were 
the first in the world to offer companies an R&D tax credit and 
the first to allow universities to patent products originating 
from Federal R&D grants, R&D funds. Other countries have now 
caught up and in some cases they have surpassed our effort. In 
fact, the U.S. R&D tax credit is only incremental. More 
aggressive countries have gone to a flat tax credit for all R&D 
expenditures.
    And while other nations have adopted and advanced our 
earlier strategies, we have taken a step backward. We haven't 
even made our R&D tax credit permanent. We also impose one of 
the steepest corporate tax rates in the world, 35 percent. Only 
Japan surpasses this, but Japan is now looking to lower their 
corporate tax rate, which would give Americans the dubious 
honor of having the highest tax rate in the world.
    Furthermore, there's no doubt that reducing regulatory 
burdens would speed commercialization of key technologies. For 
example, innovative nanotechnologies and new materials often 
undergo dual regulatory processes at the EPA and the Consumer 
Product Safety Commission. These regulatory processes are 
slowing down the speed of innovation and raising the cost of 
commercializing new technologies.
    Second, the model for NSF, NASA, and DARPA is excellent. 
The money is used to support students or scientists in either 
research or critical missions is especially effective for 
growth, because not only are you educating scientists; 
ultimately it is the scientists who are also doing the 
technology transfer. These students and scientists often end up 
working at research institutions like the University of 
Arkansas and then subsequently pursuing a career in the private 
sector at places like Apple, or at nanotechnology startups. The 
net result is an immense amount of technology transfer.
    It is no surprise that, with these investments in brain 
power, since 1976 more than 1,300 documented NASA technologies 
have been commercialized, benefiting American commerce, 
improving our quality of life, creating jobs for Americans.
    Meanwhile, there are other nations around the globe who are 
pouring money into their R&D systems with the hope of 
attracting our scientists. We simply cannot let that happen. We 
must stay focused on training scientists in fundamental 
research. Our record of success points to a key fact: we must 
continue to prioritize fundamental research and programs that 
train the next generation of scientists.
    Finally, I'd like to note that this type of success cannot 
be achieved through mandatory spending on manufacturing 
research, nor can it be achieved through changing the focus and 
mission of the NSF and NIST to advanced manufacturing research 
agencies. Having NIST, NSF, and NASA carry out our 
manufacturing research based on requests from the private 
sector is neither prudent investing nor a guarantee of 
entrepreneurial success.
    We must continue the U.S. tradition of investing in a 
diversity of research that could potentially benefit large 
swaths of the economy, including but not limited to 
manufacturing.
    In conclusion, we must continue to do what we do best: 
fundamental research that cannot be carried out by the private 
sector. This is the tried and true model of success and will 
ensure that all of our investments are the most efficient and 
effective use of the taxpayer dollar.
    I look forward to hearing from the witnesses about the 
President's plan for funding these priorities at these key 
scientific research agencies.
    Thank you again, Mr. Chairman.
    Senator Nelson. Thank you, Senator.
    We are here because innovation is the engine that drives 
and transforms our economy. You think back to 225 years ago an 
explorer named John Fitch built the world's first steamboat. 
Twenty years later, a man named Robert Fulton improved on 
Fitch's ideas and built a steamboat that was reliable and 
efficient enough to be used for commercial service. And then, 
within a few years Fulton was operating steamboats on six 
rivers and the Chesapeake Bay.
    The steamboat allowed people to transport materials and 
goods across the country. This helped bring about the 
Industrial Revolution and opened up the entire continent to 
exploration and settlement.
    So inventions here in this country like the steamboat have 
transformed the U.S. from a small, rugged, frontier nation into 
what we are today, a global superpower.
    In this economic environment, we're having to make tougher 
decisions about what we can afford, decisions that are going to 
affect the future and the direction of this country, and it's 
going to affect the competitiveness of this country in the 
global economy. Because the Federal resources are precious, 
we're going to scrutinize every tax dollar and hopefully it's 
going to be spent responsibly.
    There are global competitors that are giving us rising 
challenges, and some of them are really pushing the R&D and 
investing heavily in education of their next generation of 
scientists and engineers. We see American companies 
increasingly doing their research and development abroad to 
take advantage of that fact.
    I was at a high-tech defense and aerospace firm yesterday. 
They have 600 openings and they're having to scramble to find 
the talent to fill those openings.
    So if you look back at the historical impact of innovation 
on our nation's economy, the current fiscal environment and the 
rising challenges from the global competitors, it provides a 
backdrop for the hearing today. Of course, we are joined by 
four of the country's leading experts in research and 
development--from the Office of Science and Technology, the 
National Science Foundation, the National Institute of 
Standards and Technology, and NASA. These organizations are 
directly responsible for innovations that have improved our 
quality of life,enhanced our national competitiveness, and have 
addressed some of the most challenging problems of our time.
    So, Dr. Holdren, Dr. Gallagher, Dr. Suresh, and Dr. Peck, 
Senator Boozman and I look forward to your testimony. Of 
course, your written testimony will be entered in the record, 
so if you would give a summary of it in about five minutes 
each, we'll get into the questions after that. Dr. Holdren.

 STATEMENT OF DR. JOHN P. HOLDREN, DIRECTOR, OFFICE OF SCIENCE 
AND TECHNOLOGY POLICY, EXECUTIVE OFFICE OF THE PRESIDENT OF THE 
                         UNITED STATES

    Dr. Holdren. Thank you, Chairman Nelson, Ranking Member 
Boozman. I'm certainly happy to be here today and especially 
happy to be here with such a distinguished set of colleagues 
from NIST, NSF, and NASA, to talk about the state of Federal 
R&D in the context of the President's 2013 budget proposal, and 
of course the context of the America COMPETES Act and its 
reauthorization, in which this subcommittee and the parent 
committee played such an important role.
    The President called on us in his State of the Union speech 
to create or to help create an American economy that's built to 
last. He talked about a number of ingredients of that economy. 
He talked about leading the world in educating our people. He 
talked about attracting a new generation of high tech 
manufacturing. He talked about taking control of our own 
energy. In various ways, his 2013 budget proposal reflects 
those priorities.
    As you mentioned, Mr. Chairman, my written testimony covers 
the details, so I'm just going to very briefly hit a few 
highlights here, starting with the proposal for a total of 
$140.8 billion for Federal R&D, an increase of about 1.4 
percent over the enacted 2012 level. When inflation is taken 
into account, predicted to be about 1.7 percent, it's about 
flat with the 2012 enacted.
    But within that total, the budget proposes almost $65 
billion for non-defense R&D and that's actually an increase of 
5 percent in current dollars over the 2012 enacted. But of 
course, that R&D total does have to fit within an overall 
discretionary budget that would be flat at the 2011 enacted 
levels for the second year in a row, consistent with the Budget 
Control Act agreed to by the Congress and the President last 
August, and to get there we made, obviously, some very tough 
choices.
    And I'd like to say hi to Chairman Rockefeller. Great to be 
with you, sir, as well as with the other two distinguished 
gentlemen up there.
    The agencies that were marked for increases in this budget 
included, notably, the NSF, the National Institute of Standards 
and Technology laboratories, and the DOE's Office of Science. 
Those three agencies have been widely recognized, including in 
the COMPETES Act, for their essential contributions to basic 
research in science and engineering and the importance of that 
basic research, of course, as you both have commented in your 
opening remarks, Mr. Chairman and Mr. Ranking Member--essential 
to the future of economic innovation, as well as the future of 
our national and homeland security and our quality of life in 
other dimensions.
    Of course, other agencies that in better times would 
clearly have been found worthy of more money under this budget 
will endure decreases or be held flat. Among those are NASA, 
which we propose funding essentially at last year's level, down 
about half a percent, in a manner consistent with the 
bipartisan agreement that was reached between the Congress and 
the administration that balances the several crucial missions 
of that very important agency.
    Among the priorities of this committee reflected in the 
budget, of course, is science, technology, engineering, and 
math education, STEM education. That would be funded at $3 
billion, a 2.6 percent increase. And as part of the 
administration's efforts to make sure that money is spent 
wisely, and I appreciate your admonitions on that point, my 
office in December released the most comprehensive summary of 
an inventory of Federal STEM education efforts ever compiled. 
We will release later this spring a 5-year Federal STEM 
education strategic plan.
    Also in response to the work of this committee and 
particularly the COMPETES Act, OSTP recently released a 
comprehensive national strategic plan for 
advancedmanufacturing. Per that plan's recommendations, in 
December the White House created an Office of Manufacturing 
Policy, to be co-chaired by Commerce Secretary John Bryson and 
National Economic Council Director Gene Sperling, to drive 
interagency coordination in this very important advanced 
manufacturing domain.
    We're also working to help agencies take maximum advantage 
of Section 105 of COMPETES, which was championed by two members 
of this committee, Senators Pryor and Warner, which granted all 
Federal agencies broad authority to conduct prize competitions 
to solve tough problems and advance their core missions. Later 
this month, OSTP will submit to Congress a full progress report 
on how the COMPETES prize authority is being implemented across 
the government.
    Finally, reflecting another interest of this committee, 
OSTP recently conducted two public consultations on public 
access to the results of federally-sponsored research, and we 
anticipate delivering to Congress an update on that topic later 
this month.
    As those items I think indicate, this administration, 
through its proposed 2013 budget and its active implementation 
of the America COMPETES Act, is working hard to help ensure 
that America strengthens its position as a global leader in 
scientific research and technological innovation. I'm certainly 
looking forward, as I know my colleagues are, to working with 
this committee to maintain this momentum, and I'll be happy to 
try to answer any questions you have after our initial 
statements.
    Thank you.
    [The prepared statement of Dr. Holdren follows:]

Prepared Statement of Dr. John P. Holdren, Director, Office of Science 
and Technology Policy, Executive Office of the President of the United 
                                 States
    Chairman Nelson, Ranking Member Boozman, and Members of the 
Committee, it is my distinct privilege to be here with you today to 
discuss the current state of Federal research and development (R&D) in 
the context of the President's Fiscal Year (FY) 2013 Budget and the 
America COMPETES Reauthorization Act of 2010.
Administration Initiatives in Innovation, Education, and Infrastructure
    President Obama, in his most recent State of the Union address, 
called on all of us to help create an American economy that is built to 
last. He called on us to work toward an America that leads the world in 
educating its people. An America that attracts a new generation of 
high-tech manufacturing and high-paying jobs. An America in control of 
our own energy. He called on us all to do what this Nation does best--
investing in the creativity and imagination of the American people. In 
order to be globally competitive in the 21st century and create an 
American economy that is built to last, we must not only put this 
Nation on a sustainable fiscal path, but also create an environment 
where invention, innovation, and industry can flourish.
    The President's 2013 Budget aims to do exactly that. It includes 
continuing investment in science and engineering research that can turn 
ideas into realities. And it provides support for the creation of new 
technologies, products, businesses, and industries that, despite barely 
having been imagined a few years ago, promise to become essential and 
even iconic.
    The 2013 Budget recognizes today's difficult economic circumstances 
and makes tough choices, limiting spending in many areas that in other 
times would be deemed worthy of greater support. But the Budget also 
focuses on and shows confidence in the future. By building and fueling 
America's engines of discovery, it will expand the frontiers of human 
knowledge, promote sustainable economic growth based in part on a 
revitalized American manufacturing sector, cultivate an American clean-
energy future, improve health-care outcomes for more people at lower 
cost, address the challenge of global climate change, manage competing 
demands on environmental resources, and reinforce our national 
security. This Budget is designed to ensure that America will continue, 
in the President's words, to ``out-innovate, out-educate, and out-build 
the rest of the world.''
    As past budgets from this Administration did, the President's new 
2013 Budget proposes to invest intelligently in innovation, education, 
and infrastructure today to generate the industries, jobs, workforce, 
and environmental and national-security benefits of tomorrow. 
Obviously, we need the continued support of the Congress to get it 
done. I say ``continued support'' because much of the President's 
Federal research and education investment portfolio enjoyed bipartisan 
support during the first 3 years of the Administration. We hope to 
extend this partnership, with both the Senate and the House, across the 
entire science and technology portfolio represented in the President's 
budget.
    In the remainder of this testimony, I elaborate on the reasons the 
Administration is most hopeful you'll provide that support.
The Federal R&D Budget
    In his State of the Union address, the President outlined a vision 
of working together to create an economy built on American 
manufacturing, American energy, and skills for American workers. We can 
help spur innovation to accomplish these goals by investing in research 
and development. The President's Fiscal Year 2013 Budget proposes 
$140.8 billion for Federal research and development (R&D) to do just 
that--to build American innovation in manufacturing, to promote clean 
American energy, and to nurture a highly skilled American workforce for 
the future. To strengthen U.S. leadership in the 21st century's high-
tech, knowledge-based economy, the 2013 Budget proposes a substantial 
increase in non-defense R&D to $64.9 billion, an increase of 5.0 
percent over the 2012 enacted level.
    (My testimony discusses changes in current dollars, not adjusted 
for inflation. The latest economic projections show inflation of 1.7 
percent between 2012 and 2013 for the economy as a whole, using the GDP 
deflator.)
    This 5 percent increase notwithstanding, the Obama Administration's 
investments in innovation, education, and infrastructure fit within an 
overall discretionary budget that would be flat at 2011 enacted levels 
for the second year in a row, consistent with the Budget Control Act 
agreed to by Congress and the President last August. The Budget 
reflects strategic decisions to focus resources on those areas where 
the payoff for the American people is likely to be highest, while 
imposing hard-nosed fiscal discipline on areas lacking that kind of 
promise. For example, the $74.1 billion proposed for development in the 
2013 Budget represents a decline compared to the 2012 funding level. 
Across government, important programs will have to make do with less, 
as noted in several of the program descriptions below. And the 
Administration`s commitment to making tough choices is not limited to 
development funding. The total (defense and nondefense) R&D budget 
would be $140.8 billion, 1.4 percent above the 2012 enacted level but 
well below the $142.7 billion enacted total for Fiscal Year 2011.
Budgets of Science Agencies
    Three agencies have been identified as especially important to this 
Nation's continued economic leadership by the President's Plan for 
Science and Innovation, the America COMPETES Act of 2007, the 
Administration's Innovation Strategy, and the America COMPETES 
Reauthorization Act of 2010 enacted last January in large part due to 
the strong leadership of this Committee. Those three jewel-in-the-crown 
agencies are the National Science Foundation (NSF), a primary source of 
funding for basic curiosity-driven academic research which leads to 
discoveries, inventions, and job creation; the Department of Energy's 
(DOE's) Office of Science, which leads fundamental research relevant to 
energy and also builds and operates much of the major research 
infrastructure--advanced light sources, accelerators, supercomputers, 
and facilities for making nano-materials--on which our scientists 
depend for research breakthroughs; and the National Institute of 
Standards and Technology (NIST) laboratories, which support a wide 
range of technically and economically essential pursuits from 
accelerating standards development for health information technology to 
conducting measurement-science research to enable net-zero-energy 
buildings and advanced manufacturing processes.
    In recognition of the immense leverage these three agencies offer 
and their key role in maintaining America's preeminence in the global 
marketplace, Congress and this Administration have worked together to 
put total funding for these agencies on a doubling trajectory. Funding 
constraints and new funding levels set in the Budget Control Act of 
2011 mean delaying the original target completion date for doubling 
these budgets. But the 2013 Budget maintains the doubling commitment 
with a 4.3 percent increase between 2012 and 2013 for the three 
agencies' combined budgets, totaling $13.1 billion. I want to emphasize 
that the proposed increases for these agencies are part of a fiscally 
responsible budget focused on deficit reduction, meaning these 
increases are fully offset by cuts in other programs.
    I now turn to the budgets of individual agencies in a bit more 
detail. I will focus on the agencies under the jurisdiction of the 
Committee. Therefore, I will not provide details of the defense R&D 
portfolio (the Department of Defense and DOE's defense programs) or the 
budget of the National Institutes of Health (NIH).
National Science Foundation (NSF)
    The National Science Foundation (NSF) is the primary source of 
support for academic research for most non-biomedical disciplines, and 
it is the only Federal agency dedicated to the support of basic 
research and education across all fields of science and engineering. 
NSF has always operated under the belief that optimal use of Federal 
funds relies on two conditions: ensuring that its research is aimed--
and continuously re-aimed--at the frontiers of understanding; and 
certifying that every dollar goes to competitive, merit-reviewed, and 
time-limited awards with clear criteria for success. When these two 
conditions are met, the Nation gets the most intellectual and economic 
leverage from its research investments. In recognition of the time-
proven truth that today's NSF grants are tomorrow's job-creating 
companies, the 2013 Budget request for NSF is $7.4 billion, an increase 
of 4.8 percent above the 2012 funding level.
    NSF puts the greatest share of its resources into the Nation's 
colleges and universities. Universities are the largest performers of 
basic research in the United States, conducting over 50 percent of all 
basic research. Basic research funding such as that provided by NSF is 
important not only because it leads to new knowledge and applications 
but also because it trains the researchers and the technical workforce 
of the future, ensuring the Nation will benefit from a new generation 
of makers and doers. In order to maximize this dual benefit to society 
and NSF's special contribution, the 2013 Budget provides $243 million 
to sustain the number of new NSF Graduate Research Fellowships at 
2,000. The 2013 Budget also includes $64 million for the Advanced 
Technological Education (ATE) program to promote partnerships between 
higher-education institutions and employers to educate technicians for 
the high-technology fields that drive our Nation's economy.
    The 2013 Budget expands NSF's efforts in clean-energy research, 
advanced manufacturing, wireless communications, cyber-infrastructure, 
and other emerging technologies. NSF proposes to increase research 
funding to promote discoveries that can spark innovations for 
tomorrow's clean-energy technologies with a cross-disciplinary approach 
to sustainability science. The Science, Engineering, and Education for 
Sustainability (SEES) portfolio will increase to $203 million in the 
2013 Budget for integrated activities involving renewable energy 
technologies, green chemistry, and complex environmental and climate 
processes. NSF supports job creation in advanced manufacturing and 
emerging technologies with $257 million in Cyber-enabled Materials, 
Manufacturing, and Smart Systems (CEMMSS) for multidisciplinary 
research targeted at new materials, smart systems, advanced 
manufacturing technologies, and robotics technologies. To encourage 
interdisciplinary research for the bioeconomy of the future, the 2013 
Budget provides $30 million for research at the interface of biology, 
mathematical and statistical sciences, the physical sciences, and 
engineering in the BioMaPS program. The Cyber Infrastructure Framework 
for 21st Century (CIF21) portfolio will expand to $106 million in the 
2013 budget for accelerating research, workforce development, advanced 
computing infrastructure, and new functional capabilities in 
computational and data-enabled science and engineering. The Budget 
proposes $51 million for the NSF's Enhanced Access to the Radio 
Spectrum, or EARS, to support research into new and innovative ways to 
use the radio spectrum. NSF also proposes $110 million for Secure and 
Trustworthy Cyberspace (STC), a cybersecurity basic research 
initiative.
National Aeronautics and Space Administration (NASA)
    The 2013 NASA Budget reaffirms the Administration's commitment to a 
bold and ambitious future for NASA, consistent with the bipartisan 
agreement between Congress and the Administration regarding the 
importance of NASA and its many programs. These critical efforts not 
only advance grand and inspirational undertakings such as space 
exploration, scientific discovery, and aeronautical research, but also 
provide an indispensable platform from which to study and understand 
our planetary home. Moreover, NASA's programs drive new technology 
development and innovation and help advance new products, services, 
businesses, and jobs with great potential for economic growth. In 
keeping with such considerations and the provisions of the 2010 NASA 
Authorization Act (the Act), the 2013 Budget funds continued 
development of the Space Launch System (SLS) and Orion Multi-Purpose 
Crew Vehicle (MPCV) to enable human-exploration missions beyond Earth's 
orbit; the operation and enhanced use of the International Space 
Station (ISS), which has been extended through at least 2020; the 
development of private-sector systems to carry cargo and crew into low 
Earth orbit, thus re-establishing a U.S. human spaceflight capability 
and shortening the duration of our sole reliance on Russian launch 
vehicles for access to the ISS; a balanced portfolio of space and Earth 
science, including a continued commitment to new satellites and 
programs for Earth observation; a dynamic space-technology development 
program; and a strong aeronautics research effort.
    Within the context of a difficult budget environment and the Budget 
Control Act's spending caps freezing discretionary spending at 2011 
levels for the second year in a row, NASA's budget request for 2013 is 
$17.7 billion, a decrease of $58 million from the 2012 enacted level. 
This budget incorporates difficult choices that honor the priorities of 
the Act while providing a balanced program of science, research, 
technology development, safe spaceflight operations, and exploration. 
The budget for the James Webb Space Telescope (JWST) is $628 million in 
2013 in support of a scheduled 2018 launch, thus assuring NASA the 
opportunity to continue work on this transformative facility, which 
will expand and deepen our understanding of how the first stars and 
galaxies formed after the Big Bang, of planets around other stars, and 
of dark energy. The budget for Mars exploration reflects an integrated 
strategy that ensures the next steps for the robotic Mars Exploration 
Program that support science and long-term human exploration goals. The 
2013 Budget maintains Earth-science research funding levels consistent 
with the 2012 Budget. The Budget also provides $1.9 billion in Fiscal 
Year 2013 funding for the SLS and $1.0 billion for the Orion MPCV, 
advancing the continued development of these systems that will enable 
exploration to deep-space destinations beyond today's reach. In these 
activities NASA will build on the configuration and acquisition 
decisions that it has made over the last several months. Similarly, the 
Budget provides a solid foundation for the commercial crew and cargo 
transportation programs that are necessary to provide safe and cost-
effective U.S. access to low Earth orbit, and will allow us to stop 
paying Russia for astronaut transport to the ISS.
Department of Commerce National Institute of Standards and Technology 
        (NIST)
    The hugely complex web of technology that keeps this Nation's 
equipment and economy running smoothly depends on largely invisible but 
critical support in the fields of measurement science and standards. 
The National Institute of Standards and Technology (NIST) laboratories 
stand at the core of this Nation's unparalleled capacity in these 
areas, promoting U.S. innovation and industrial competitiveness by 
advancing measurement science, standards, and technology. Reflecting 
NIST's vital role in supporting the economy and infrastructure, the 
2013 Budget of $708 million for NIST's intramural laboratories and 
construction of research facilities amounts to a 13.8 percent increase 
over the 2012 enacted level. That increase will support high-
performance laboratory research and facilities for a diverse portfolio 
of investigations in areas germane to advanced manufacturing, 
nanotechnology, cybersecurity, and disaster resilience. For NIST's 
extramural programs, the Budget includes $128 million for the Hollings 
Manufacturing Extension Partnership and $21 million for the Advanced 
Manufacturing Technology Consortia program, a new public-private 
partnership that will develop road maps of long-term industrial 
research needs and will fund research at leading universities and 
government laboratories directed at meeting those needs. All of these 
NIST programs are important components of A National Strategy Strategic 
Plan for Advanced Manufacturing, a comprehensive strategic plan to 
guide Federal advanced manufacturing R&D investments that was released 
in February.
Department of Commerce National Oceanic and Atmospheric Administration 
        (NOAA)
    NOAA plays a vital role supporting research on the Earth's oceans, 
atmosphere, and marine habitats which directly and indirectly are 
enormous sources of economic activity. The NOAA budget of $5 billion 
allows NOAA to strengthen the scientific basis for environmental 
decisionmaking; improve critical weather and climate services that 
protect life and property; invest more heavily in restoring our oceans 
and coasts to ensure their ongoing ecological stability and commercial 
vigor; and ensure satellite continuity.
    The 2013 Budget provides $1.8 billion to continue the development 
and acquisition of NOAA's polar-orbiting and geostationary weather 
satellite systems, as well as satellite-borne measurements of sea level 
and potentially damaging solar storms. The Budget includes funding to 
continue work on the instruments and spacecraft for the Joint Polar 
Satellite System, or JPSS. NOAA will also conduct Arctic research 
(including bellwether studies of changing conditions), improve regional 
projections of climate change, and support research on coastal and 
marine resources and development of marine sensor technologies to 
address harmful algal blooms and ocean acidification.
Department of Energy (DOE)
    The Department of Energy (DOE) 2013 Budget positions the United 
States to lead in the clean-energy economy of the future with an R&D 
portfolio that totals $11.9 billion, an increase of $884 million or 8.0 
percent over the 2012 enacted level. (This does not include DOE's non-
R&D cleanup and energy-deployment programs.) The Administration's 
clean-energy R&D priorities focus on developing cutting-edge 
technologies with real-world applications to advance a clean-energy 
economy, increase energy efficiency in industry and manufacturing, 
reduce energy use in buildings, and reach the goal of having 1 million 
advanced technology vehicles on the road by 2015.
    The 2013 Budget invests in DOE's clean-energy programs to reduce 
dependence on oil and to move toward a clean-energy future, including 
$2.3 billion for Energy Efficiency and Renewable Energy (EERE). Within 
this total, the Budget provides $290 million to expand activities on 
innovative manufacturing processes and advanced materials to enable 
U.S. companies to cut manufacturing costs by using less energy. The 
Budget also moves closer to the goal of 1 million advanced technology 
vehicles on the road by investing $420 million within EERE to advance 
vehicle technologies and to make electric vehicles cost competitive, 
and by enhancing advanced vehicle tax incentives. The Budget also 
includes $12 million for DOE as part of a $45-million priority research 
and development initiative by the Department of Energy, the Department 
of the Interior's U.S. Geological Survey, and the Environmental 
Protection Agency to understand and minimize the potential 
environmental, health, and safety impacts of natural gas development 
through hydraulic fracturing (fracking).
    The 2013 Budget provides $350 million for the Advanced Research 
Projects Agency--Energy (ARPA-E) within DOE to support transformational 
discoveries and accelerate solutions in the development of clean energy 
technology. ARPA-E performs high-risk, high-reward energy research with 
real-world applications in areas ranging from grid technology and power 
electronics to batteries and energy storage. First funded as part of 
the American Recovery and Reinvestment Act (ARRA), ARPA-E is a 
signature component of the America COMPETES Act, and was reauthorized 
in the America COMPETES Reauthorization Act.
    The 2013 Budget also supports research through Energy Innovation 
Hubs funded in 2012 to solve specific energy challenges as part of 
DOE's overall research and development strategy. Each of the five 
Energy Innovation Hubs focuses top scientific and engineering talent on 
a specific problem: improving batteries and energy storage, reducing 
constraints from critical materials, developing fuels that can be 
produced directly from sunlight, improving energy-efficient building 
systems design, and using modeling and simulation for advanced-nuclear-
reactor operations. The Budget proposes $20 million to create a new 
Energy Innovation Hub on Electricity Systems to focus on grid systems, 
emphasizing the interface between transmission and distribution 
systems. Each of these Hubs will bring together a multidisciplinary 
team of researchers in an effort to speed research and shorten the path 
from scientific discovery to technological development and commercial 
deployment of highly promising energy-related technologies. 
Complementing the Hubs, the Department plans to continue coordination 
with the Office of Science's Energy Frontier Research Centers, which 
tackle the toughest scientific hurdles to building a new 21st century 
clean energy economy.
    The Department of Energy's Office of Science pursues fundamental 
discoveries and supports major scientific research facilities that 
provide the foundation for long-term progress in energy-related domains 
such as nanotechnology, the physical sciences, advanced materials, 
high-end computing, energy supply and end-use efficiency, and climate 
change. The Office stewards 10 DOE National Laboratories and supports 
the research of more than 25,000 Ph.D. scientists, graduate students, 
and postdoctoral associates at over 300 universities and national 
laboratories nationwide. About 26,500 researchers from academe, 
national laboratories, and industry make use of its advanced scientific 
user facilities each year, pursuing discoveries at the frontiers of 
science that enhance the Nation's energy security and strengthen our 
economic competitiveness. The 2013 Budget of $5.0 billion for the 
Office of Science, 2.4 percent above the 2012 enacted level, provides 
support for facilities and cutting-edge research.
Environmental Protection Agency (EPA)
    Environmental Protection Agency (EPA) R&D funding totals $576 
million in the 2013 Budget, $8 million more than the 2012 funding 
level. With this investment, EPA will focus on enhancing and 
strengthening the planning and delivery of science in its restructured 
research and science programs, making these efforts more integrated and 
cross-disciplinary. The 2013 Budget supports high-priority research of 
national importance in such areas as potential endocrine disrupting 
chemicals, innovative chemical design, green infrastructure, 
computational toxicology, drinking water, and STEM fellowships. The 
2013 Budget proposes a total of $14 million for EPA for the above-
mentioned collaboration with USGS and DOE on hydraulic fracturing.
United States Geological Survey (USGS)
    The total budget of the United States Geological Survey (USGS), 
Interior's lead science agency, is $1.1 billion, a $35 million increase 
from the 2012 enacted level. The 2013 Budget proposes $19 million for 
USGS for the above-mentioned collaboration with EPA and DOE on 
hydraulic fracturing. The Budget also sustains USGS funding for water 
and ecosystems science programs; research to mitigate natural hazards 
such as earthquakes, landslides, floods, and volcanoes; and climate 
change science.
Department of Homeland Security (DHS)
    Department of Homeland Security (DHS) R&D totals $729 million in 
the 2013 Budget, up 26.3 percent from the 2012 enacted level in order 
to partially restore steep cuts enacted in 2012 appropriations. The 
2013 Budget funds important R&D advances in cybersecurity, nuclear 
materials and explosives detection, and biological response systems. 
The Budget does not fund construction of the National Bio-and Agro-
Defense Facility (NBAF) in 2013; rather, DHS will conduct a 
comprehensive assessment of the requirements for a large animal foreign 
and emerging disease research and diagnostic laboratory facility in the 
United States.
Department of Transportation (DOT)
    The 2013 Budget provides $1.1 billion for Department of 
Transportation (DOT) R&D, a $132 million increase compared to the 2012 
funding level. The Budget request includes funding for several R&D 
activities in the Federal Aviation Administration's (FAA) Next 
Generation Air Transportation System, known as NextGen. The Joint 
Planning and Development Office coordinates this important interagency 
effort, which strives to reduce delays, expand capacity, and improve 
the safety and environmental impact of air transportation. The Federal 
Highway Administration (FHWA) also manages a comprehensive, nationally 
coordinated highway research and technology program, engaging and 
cooperating with other highway research stakeholders. FHWA performs 
research activities associated with safety, infrastructure preservation 
and improvements, and environmental mitigation and streamlining.
White House Office of Science and Technology Policy (OSTP)
    The 2013 Budget requests $5.85 million for White House Office of 
Science and Technology Policy (OSTP) operations, above the $4.50 
million 2012 enacted funding level but 12.0 percent below the $6.65 
million 2011 enacted funding level. OSTP works with the Office of 
Management and Budget (OMB) to set S&T priorities for all the Executive 
Branch departments and agencies with S&T and STEM-education missions. 
OSTP also provides science and technology advice and analysis in 
support of the activities of the other offices in the Executive Office 
of the President and supports me in my role as the Assistant to the 
President for Science and Technology, with the responsibility to 
provide the President with such information about science and 
technology issues as he may request in connection with the policy 
matters before him. In addition, OSTP coordinates a wide array of 
interagency research initiatives with significant economic implications 
through administration of the National Science and Technology Council 
(NSTC) and serves as the lead White House office in a range of 
bilateral and multilateral S&T activities internationally. This work is 
accomplished with approximately 27 full-time equivalent staff supported 
by the OSTP appropriation, which includes the OSTP Director, four 
Associate Directors (for Science, Technology, Environment, and National 
Security and International Affairs), additional technical experts, and 
a small administrative team. In addition, there are approximately 50 
scientific and technical experts detailed to OSTP from all across the 
Executive Branch along with approximately a dozen other experts brought 
in under the Intergovernmental Personnel Act or various fellowship 
arrangements. This mix of personnel allows OSTP to tap a wide range of 
expertise and leverage a multitude of high-value resources to ensure 
that the science and technology work of the Federal Government is 
appropriately supported, coordinated and amplified. The reduced 2012 
OSTP funding level required significant reductions in staffing and 
support levels; the 2013 Budget would return OSTP personnel and support 
funding closer to historical levels.
Science, Technology, Engineering, and Mathematics (STEM) Education
    In his remarks at the second White House Science Fair in early 
February, the President called for an ``all-hands-on-deck'' approach to 
science, technology, engineering, and mathematics (STEM) education. 
``Let's train more teachers. Let's get more kids studying these 
subjects. Let's make sure these fields get the respect and attention 
that they deserve,'' he said. To support this important effort, the 
2013 Budget invests $3.0 billion in programs across the Federal 
Government on STEM education, a 2.6 percent increase over the 2012 
enacted funding level. The 2013 Budget makes disciplined choices guided 
by drafts of the Federal STEM education strategic plan, cutting back on 
lower-priority programs to make room for targeted increases and 
reducing duplication and overlap. The Budget proposes elimination or 
consolidation of programs that would reduce the total number of Federal 
STEM education programs to 209 from 235 in Fiscal Year 2012.
    In his 2011 State of the Union address, the President called for a 
new effort to prepare 100,000 effective STEM teachers with strong 
teaching skills and deep content knowledge over the next decade. That 
call had roots in a groundbreaking analysis by the President's Council 
of Advisors on Science and Technology (PCAST) and remains a priority 
for this Administration in the coming year. As a crucial component of 
achieving this goal, the 2013 Budget proposes an investment of $135 
million through the Department of Education (ED) and NSF to provide 
effective teachers in every classroom across America who are well 
qualified in the STEM subjects they teach. This coordinated effort 
between NSF and ED will help prepare teachers with both strong teaching 
skills and deep content knowledge. The 2013 Budget in ED proposes 
setting aside $80 million from the Effective Teachers and Leaders State 
Grants program to support the expansion of promising and effective 
models of STEM teacher preparation, which will be an important step 
toward the President's goal. In NSF, $55 million is proposed for the 
Robert Noyce Scholarship Program, to encourage talented STEM majors and 
professionals to become K-12 mathematics and science teachers.
    In February, the President announced that the 2013 Budget will also 
establish undergraduate STEM education reform as a top priority, in 
part to fulfill PCAST's most recent report on undergraduate STEM 
education, released last month in conjunction with the second White 
House Science Fair, calling for the United States to establish a goal 
of training one million additional STEM graduates over the next decade. 
Federal agencies will contribute to this goal through programs designed 
to engage students and improve teaching and learning in STEM fields 
from early learning through K-12 and undergraduate levels. For example, 
the 2013 Budget proposes a significant boost in funding at NSF for 
undergraduate education, and improved coordination between 
undergraduate STEM education programs at NSF and ED. The Budget 
proposes $61 million for NSF's Transforming Undergraduate Education in 
STEM (TUES) program, which will provide research and development funds 
to design, test, and implement more effective educational materials, 
curriculum, and methods to improve undergraduate learning and 
completion rates in STEM for a diverse population. The Budget also 
proposes $60 million for a jointly administered NSF and ED mathematics 
education initiative that will allocate funds for early research, 
development, validation, and scale-up of effective practices. Similar 
to ED's Investing in Innovation (i3) program, this initiative will 
support collaborations between researchers and practitioners to develop 
and test promising approaches and support widespread adoption of 
practices found to be effective through rigorous evaluations.
    These efforts in the 2013 Budget are part of a broader 
Administration commitment to look carefully at the effectiveness of all 
STEM programs and find ways to improve them. To further this goal, last 
year I established a Committee on STEM Education under the NSTC as 
called for in Section 101 of the America COMPETES Reauthorization Act. 
In December, the Committee released the most comprehensive inventory of 
all Federal STEM efforts ever compiled. The work of this Committee is 
closely aligned with the vision for STEM education outlined by Congress 
in the America COMPETES Reauthorization Act and has focused on 
improving the coordination and effectiveness of all Federal STEM 
education programs. In this spirit, the Administration released a 
description of a 5-year Federal STEM education strategic plan and an 
update to the Federal STEM inventory along with the Budget, as called 
for in the COMPETES reauthorization. The final strategic plan, to be 
released this spring, will outline a path to increase coordination and 
collaboration among the 13 agencies that support STEM education and 
increase the efficiency and impact of the Federal portfolio of STEM 
education programs.
    OSTP looks forward to continuing to work with this Committee on our 
common vision of improving STEM education for all of America's students 
in order to build the skilled workforce the Nation needs.
Advanced Manufacturing, Innovation, Entrepreneurship, and Job Creation
    In June 2011, the President launched the Advanced Manufacturing 
Partnership (AMP), a national effort that brings together industry, 
universities, and the Federal Government to invest in emerging 
technologies that will create high-quality manufacturing jobs and 
enhance our global competitiveness. The partnership is a key 
recommendation of The Report to the President on Ensuring American 
Leadership in Advanced Manufacturing, released by the President's 
Council of Advisors on Science and Technology (PCAST) in June 2011. The 
2013 Budget builds on many of the PCAST report's recommendations and 
the priorities outlined by the President in his 2012 State of the Union 
address by proposing $2.2 billion for Federal advanced-manufacturing 
R&D at NSF, NIST, DOD, DOE, and other agencies. For example, the Budget 
provides DOE with $290 million to expand R&D on innovative 
manufacturing processes and advanced industrial materials that will 
enable U.S. companies to cut the costs of manufacturing by using less 
energy, while improving product quality and accelerating product 
development. Also, as part of the broader effort, the Budget invests in 
the National Robotics Initiative (NRI) to develop robots that work with 
or beside people to extend or augment human capabilities. Another 
important component of the broader Federal R&D agenda that contributes 
to advanced manufacturing is the Materials Genome Initiative: in the 
same way that the Human Genome Project accelerated a range of 
biological sciences by identifying and deciphering the human genetic 
code, this initiative will speed our understanding of the fundamentals 
of materials science, providing a wealth of practical information that 
American entrepreneurs and innovators will be able to use to develop 
new products and processes.
    Last year, in response to Section 102 of the America COMPETES 
Reauthorization Act, we created the NSTC interagency working group on 
Advanced Manufacturing. This group recently released A National 
Strategic Plan for Advanced Manufacturing, a comprehensive strategic 
plan to guide Federal advanced manufacturing R&D investments as called 
for by the COMPETES reauthorization. The plan documents the fundamental 
importance of advanced manufacturing to the economic strength and 
national security of the United States and sets forth five objectives 
for Federal policy: (1) accelerating investment in advanced 
manufacturing technology, especially by small-and medium-sized 
manufacturers; (2) making the education and training system more 
responsive to the demand for skills; (3) optimizing Federal advanced 
manufacturing R&D investments by taking a portfolio perspective; (4) 
increasing total public and private investments in advanced 
manufacturing R&D; and (5) fostering national and regional partnerships 
among all stakeholders in advanced manufacturing. In December, the 
White House created an Office of Manufacturing Policy to drive 
interagency coordination and announced that NIST will host an advanced 
manufacturing national program office. The duties of the NIST-hosted 
office will include carrying out a portfolio analysis of the Federal 
advanced manufacturing R&D investment, as called for by the strategic 
plan.
    Through these efforts in advanced manufacturing, I am confident 
that the United States will remain the world leader in bringing 
advanced technologies from initial conception to commercialization in 
our important manufacturing sector.
    In addition to the investments in R&D I have described, the 
President's 2013 Budget targets other strategic investments to spur 
innovation in the public and private sectors and to maximize the impact 
of the Federal R&D investment for innovation, with the goal of 
transforming the Nation's economy and improving the lives of all 
Americans.
    One way to spur innovation in the public and private sectors and to 
maximize the impact of the Federal R&D investment for innovation is to 
use prizes or challenges. Over the past 3 years, OSTP has been leading 
the Administration's efforts to make prizes a standard tool in every 
agency's toolbox.
    Section 105 of the America COMPETES Reauthorization Act granted all 
Federal agencies broad authority to conduct prize competitions to spur 
innovation, solve tough problems, and advance their core missions. By 
giving agencies a clear legal path, the legislation makes it easier for 
agencies to use prizes to supplement more traditional R&D funding 
mechanisms such as grants and contracts. By significantly expanding the 
authority of all Federal agencies to conduct prize competitions, the 
legislation is an important step forward that enables agencies to 
pursue more ambitious prizes with robust incentives.
    Over the past year, the Administration has laid the policy and 
legal groundwork to take maximum advantage of the new prize authority 
in the years to come. Policy and legal staff in OSTP and the Office of 
Management and Budget (OMB) jointly developed a Fact Sheet and 
Frequently Asked Questions memorandum issued in August 2011 to 
streamline implementation of the new, governmentwide authority. As 
required by the COMPETES reauthorization, GSA launched a new contract 
vehicle to allow agencies to more easily tap private-sector prize 
expertise, in addition to their continued promotion of Challenge.gov. 
In December 2011, the Administration launched a governmentwide Center 
of Excellence for Collaborative Innovation led by NASA to provide 
agencies guidance on all aspects of implementing prize competitions. 
Agencies, such as the Department of Health and Human Services (HHS), 
have begun to establish strategies and policies to further accelerate 
widespread use of the new prize authority granted to them through the 
COMPETES reauthorization.
    This month, OSTP will be submitting to Congress a full progress 
report on how the America COMPETES Reauthorization Act's prize 
authority is being implemented throughout the Federal Government and 
how this authority is boosting innovation.
    In addition, the Budget proposes a permanent extension of the 
research and experimentation (R&E) tax credit to spur private 
investment in R&D by providing certainty that the credit will be 
available for the duration of the R&D investment. The 2013 Budget 
proposes to expand and simplify the credit as part of making it 
permanent.
    The 2013 Budget also sustains the Administration's effort to 
promote regional innovation clusters as significant sources of 
entrepreneurship, innovation, and quality jobs. These efforts are 
taking place in several agencies working together, including the Small 
Business Administration (SBA), DOE, and especially the Economic 
Development Administration (EDA) within the Department of Commerce. EDA 
will be pursuing several programs in research parks, regional 
innovation clusters, and entrepreneurial innovation activities, as 
authorized in the America COMPETES Reauthorization Act. And as 
mentioned earlier, the 2013 Budget continues to support the Hollings 
Manufacturing Extension Partnership (MEP) in NIST to disseminate the 
latest advanced manufacturing techniques and innovative processes to 
small-and medium-sized manufacturers around the Nation. It also 
supports an expansion of NSF's Innovation Corps (I-Corps) program with 
$19 million to bring together technological, entrepreneurial, and 
business know-how to move research discoveries toward 
commercialization. Taken together, these investments will help ensure 
that Federal investments in innovation, education, and infrastructure 
translate into commercial activity, real products, and jobs.
    In addition to Federal investments, we are also working to build 
public-private partnerships in innovation and entrepreneurship. The 
Advanced Manufacturing Partnership (AMP) described above is one such 
partnership. Also, in late January, the Administration celebrated the 
1-year anniversary of Startup America (SUA), a campaign to inspire and 
accelerate high-growth entrepreneurship throughout the Nation. Earlier 
this month, SUA unveiled a number of Administration and private-sector 
actions geared toward expanding access to capital, cutting red tape, 
and accelerating innovation for small businesses and entrepreneurs. The 
private sector answered the President's call to action last year by 
forming the Startup America Partnership, a nonprofit alliance of 
successful business owners, major corporations, and service providers 
dedicated to making entrepreneurship more successful in this country. 
In just 1 year, the Partnership has mobilized over $1 billion in 
business resources to serve as many as 100,000 startups over the next 3 
years. In February, the Partnership launched nine new entrepreneur-led 
regional networks across the country--in the District of Columbia, 
Hawaii, Kansas, Michigan, Missouri, Nebraska, Rhode Island, Virginia, 
and Vermont--while previously launched Startup Regions celebrated SUA's 
anniversary in Florida, Iowa, Illinois, Massachusetts, and Tennessee.
Other America COMPETES Reauthorization Act Initiatives
    The Administration recognizes that improving access to the results 
of federally funded research can lead to more rapid dissemination of 
knowledge to the private sector and the taxpayers who supported that 
research and can boost innovation. OSTP has been active for some time 
on issues around access to the results of federally funded scientific 
research. Section 103 of the America COMPETES Reauthorization Act calls 
upon OSTP to coordinate agency policies on public access to and long-
term stewardship of the results of federally funded unclassified 
research. OSTP established two interagency policy groups under the 
NSTC--the Task Force on Public Access to Scholarly Publications and the 
Interagency Working Group on Digital Data--to identify the specific 
objectives and public interests that need to be addressed by any 
policies in these two areas. OSTP had previously conducted a public 
consultation about policy options for expanding public access to 
federally funded peer-reviewed scholarly articles in 2009-10. In 
response to the COMPETES reauthorization, OSTP conducted a second 
public consultation last November by issuing two Requests for 
Information (RFI)--one on Public Access to Peer-Reviewed Scholarly 
Publications Resulting From federally Funded Research and the other on 
Public Access to Digital Data Resulting From federally Funded 
Scientific Research.
    The public comments resulting from the RFI's are now available on 
the OSTP website. We had 375 comments on public access to peer-reviewed 
scholarly publications and 118 on the management of and access to 
digital data resulting from federally funded scientific research. We 
are now in the process of analyzing those comments. We expect to 
deliver a report updating Congress on the status of these efforts and 
comments in late March. The two NSTC interagency working groups are 
working to develop policy options in these two areas.
    OSTP recognizes that scientific collections are also a vital part 
of the common infrastructure for science in the United States, and is 
working with Federal agencies to implement the 2009 NSTC report 
Scientific Collections: Mission-Critical Infrastructure for Federal 
Science Agencies, which highlights the many ways collections contribute 
to improving health, enhancing national security, protecting commerce 
and trade, studying climate and ecosystems, and understanding our 
environment. In October 2010, I issued a Policy on Scientific 
Collections memorandum to Federal agencies, and in January 2011 Section 
104 of the America COMPETES Reauthorization Act reinforced the memo's 
call for a coordinated Federal Government policy toward scientific 
collections. In order to help Federal agencies realize the requirements 
listed in these documents--to properly assess and realistically project 
budgets for collections, to share best practices for maintaining 
collections, and to create an online clearinghouse of information about 
these collections--the NSTC interagency group on scientific collections 
has formed three working groups to focus on these tasks. These groups 
are making progress, and we hope to present the results of their work 
to Congress in the near future.
Interagency Initiatives
    A number of priority interagency S&T initiatives are highlighted in 
the President's 2013 Budget. These initiatives are coordinated through 
the NSTC, which as noted above is administered by OSTP.
Networking and Information Technology R&D
    The multi-agency Networking and Information Technology Research and 
Development (NITRD) provides strategic planning for and coordination of 
agency research efforts in cybersecurity, high-end computing systems, 
advanced networking, software development, high-confidence systems, 
information management, and other information technologies. The 2013 
Budget provides $3.8 billion for NITRD, an increase of $69 million over 
the 2012 funding level. This initiative celebrated its 20th anniversary 
last month.
    Networking and computing capabilities are more critical than ever 
for a range of national priorities, including supporting national and 
homeland security, reforming the healthcare system, understanding and 
responding to environmental stresses, increasing energy efficiency and 
developing renewable energy sources, strengthening the security of our 
critical infrastructures including cyberspace, and revitalizing our 
educational system for the jobs of tomorrow. The 2013 Budget includes a 
focus on research in an area of ever-growing importance: how best to 
derive value and scientific inferences from unprecedented quantities of 
data. It also continues to emphasize foundations for assured computing 
and secure hardware, software, and network design and engineering to 
address the goal of making Internet communications more secure and 
reliable.
National Nanotechnology Initiative
    The 2013 Budget provides $1.8 billion for the multi-agency National 
Nanotechnology Initiative (NNI), an increase of $70 million over the 
2012 funding level. Research and development in the NNI focuses on the 
development of materials, devices, and systems that exploit the 
fundamentally distinct properties of matter at the nanoscale--on the 
order of a billionth of a meter--and on environmental and health 
studies relating to nanomaterials. NNI-supported R&D is enabling 
breakthroughs in disease detection and treatment, manufacturing at or 
near the nanoscale, environmental monitoring and protection, energy 
conversion and storage, and the design of novel electronic devices. 
Participating agencies continue to support fundamental research for 
nanotechnology-based innovation, technology transfer, and 
nanomanufacturing through individual investigator awards; 
multidisciplinary centers of excellence; education and training; and 
infrastructure and standards development, including openly accessible 
user facilities and networks. Furthermore, agencies have identified and 
are pursuing Nanotechnology Signature Initiatives in the national 
priority areas of nanomanufacturing, solar energy, and nanoelectronics 
through close alignment of existing and planned research programs, 
public-private partnerships, and research roadmaps.
    The NNI agencies are guided by two strategic documents developed by 
the Nanoscale Science, Engineering, and Technology Subcommittee of the 
NSTC. The 2011 NNI Strategic Plan aligns nanoscale science and 
technology research with the NNI's four goals and includes specific, 
measurable objectives for each goal. The 2011 NNI Environmental, 
Health, and Safety Research Strategy delineates a research and 
implementation framework that will produce the information necessary to 
protect public health and the environment, foster product development 
and commercialization, and consider the ethical, legal, and societal 
issues associated with nanotechnology development.
U.S. Global Change Research Program
    The Budget includes an expanded commitment to global change 
research, with the understanding that insights derived today will pay 
off with interest in the years and decades ahead as our Nation works to 
limit and adapt to shifting environmental conditions. Investments in 
climate science over the past several decades have contributed 
enormously to our understanding of global climate. The trends in global 
climate are clear, as are their primary causes, and the investments in 
this research arena in the 2013 Budget are a critical part of the 
President's overall strategy to mitigate U.S. greenhouse-gas emissions 
and move toward a clean-energy economy even as we adapt to those 
changes that are inevitable. Specifically, the 2013 Budget provides 
$2.6 billion for the multi-agency U.S. Global Change Research Program 
(USGCRP)--an increase of 5.6 percent or $136 million over the 2012 
enacted level--to continue its important work of improving our ability 
to understand, predict, mitigate, and adapt to global change, including 
but not limited to climate change.
    The USGCRP was mandated by Congress in the Global Change Research 
Act of 1990 (P.L. 101-606) to improve understanding of uncertainties in 
climate science, expand global observing systems, develop science-based 
resources to support policymaking and resource management, and 
communicate findings broadly among scientific and stakeholder 
communities. Thirteen departments and agencies participate in the 
USGCRP. OSTP and the Office of Management and Budget (OMB) work closely 
with the USGCRP to establish research priorities and plans to maximize 
research-dollar efficiencies and ensure that the program is aligned 
with the Administration's priorities and reflects agency planning.
    The 2013 Budget supports the four objectives set forth in USGCRP's 
new decadal strategic plan, to be released shortly, which are to (1) 
Advance Science: advance scientific knowledge of the integrated natural 
and human components of the Earth system; (2) Inform Decisions: provide 
the scientific basis to inform and enable timely decisions on 
adaptation and mitigation; (3) Conduct Sustained Assessments: build 
sustained assessment capacity that improves the United States' ability 
to understand, anticipate, and respond to global change impacts and 
vulnerabilities; and (4) Communicate and Educate: advance 
communications and education to broaden public understanding of global 
change.
    Funding in the 2013 Budget will support an integrated and 
continuing National Climate Assessment of climate-change science, 
impacts, vulnerabilities, and response strategies, as mandated by 
Congress.
Conclusion
    This Administration's 2013 Budget reflects a clear understanding of 
the critical importance of science and technology, STEM education, and 
21st century infrastructure to the challenges the Nation faces. 
Recognizing the importance of responsibly reducing projected budget 
deficits and holding the line on government spending, the 
Administration has made disciplined choices in order to maintain and in 
some cases increase critical investments that will pay off by 
generating the American jobs and industries of the future--all in the 
context of a discretionary budget that stays flat for a second year in 
a row. Indeed, the science and technology investments in the 2013 
Budget are essential to keep this country on a path to revitalized 
economic growth, real energy security, intelligent environmental 
stewardship, better health outcomes for more Americans at lower costs, 
strengthened national and homeland security, and continuing leadership 
in space.
    As this Committee has long emphasized, and as the America COMPETES 
Reauthorization Act makes clear, the best environment for innovation in 
all technologies is a broad and balanced research program for all the 
sciences. Such a broad base of scientific research will provide the 
foundation for a cornucopia of multidisciplinary discoveries--some 
expected and planned, others entirely unexpected--with enormous 
benefits for our society. This country's overall prosperity in the last 
half century is due in great measure to America's ``innovation 
system''--a three-way partnership among academia, industry, and 
government--and that same partnership will allow us to maintain that 
prosperity in the decades to come.
    That is why the Obama Administration believes that leadership 
across the frontiers of scientific knowledge is not merely a cultural 
tradition of our nation, but is also an economic and national security 
imperative. This Administration wants to ensure that America remains at 
the epicenter of the global revolution in scientific research and 
technological innovation that promises to generate new knowledge, 
create new jobs, and build new industries.
    I look forward to working with this Committee to make the vision of 
the President's Fiscal Year 2013 Budget proposal a reality. I will be 
pleased to answer any questions the Members may have.

    Senator Nelson. Thank you.
    Dr. Gallagher.

           STATEMENT OF PATRICK D. GALLAGHER, Ph.D.,

           UNDER SECRETARY OF COMMERCE FOR STANDARDS

          AND TECHNOLOGY, U.S. DEPARTMENT OF COMMERCE

    Dr. Gallagher. Thank you, Chairman Nelson and Ranking 
Member Boozman and Chairman Rockefeller. It's a pleasure to be 
here today to summarize the NIST Fiscal Year 2013 request. This 
year's request for NIST can really be summarized in two words: 
``advanced manufacturing.'' The President's request reflects 
his very strong commitment to accelerate the pace of innovation 
and enable the transfer of technologies that help American 
manufacturers to compete around the world, as Secretary Bryson 
put it, to make products here and sell them everywhere.
    NIST is an agency whose mission, going back more than 100 
years and rooted in the U.S. Constitution, is specifically 
charged with supporting industrial innovation and 
competitiveness through leading edge measurements, through 
supporting robust standards development, and supporting tech 
transfer.
    This committee has played an enormous leadership role in 
positioning NIST to play this role. The America COMPETES 
Reauthorization Act of 2010 made a number of significant 
changes to NIST. It made us more efficient, flexible, and in 
particular engaged with industry, especially the manufacturing 
sector.
    Your support of our restructuring enabled us to work more 
collaboratively with each other and with industry. The COMPETES 
Act also established an Innovative Services Initiative within 
the Manufacturing Extension Partnership program. That has been 
implemented, and there are other examples where the Act has 
made us more effective in what we do and how we do it.
    This year's request builds upon our past successes and your 
support of our mission. Our overall discretionary request for 
2013 is $857 million. That's an increase of $106 million from 
the current year. And, to focus on the significance of the 
manufacturing part, that total represents over $156 million 
dedicated to areas of advanced manufacturing.
    Within the NIST budget there are three primary accounts at 
NIST. Let me briefly summarize them. The request for the NIST 
laboratory program, which is the largest program at the agency, 
is $648 million, an increase of $81 million. Over half of that 
proposed increase is specifically focused on supporting 
advanced manufacturing. The remaining proposed increases are 
targeted for research activities in advanced communications, 
forensics, disaster resilience, and the National Strategy for 
Trusted Identities in Cyberspace, as well as the establishment 
of Centers of Excellence where NIST works in collaboration with 
industry and academia.
    The request for our Industrial Technology Services account 
is $149 million. That's an increase of $20 million. Within that 
account is the full $128 million for the Hollings Manufacturing 
Extension Partnership program and $21 million for the Advanced 
Manufacturing Technology consortia, or AMTech program. AMTech 
will support R&D in advanced manufacturing and strengthen long-
term U.S. leadership in critical technologies. Our Construction 
account request is $60 million. This is an increase of almost 
$5 million. The Construction account funds construction, 
facility maintenance and operations activities at both of our 
campuses and specifically includes funds for the renovation of 
the 60-year-old Boulder Building 1, which is now reaching the 
end of its original design life and is completely inadequate 
for our scientific mission.
    Also, the request includes discussion of two mandatory 
accounts. The first would provide funding to address critical 
barriers in public safety networks. This program was included 
in the Middle Class Tax Relief and Job Creation Act of 2011, 
which was just signed into law.
    The second account would propose a National Network for 
Manufacturing Innovation. The President views this one-time 
investment of a billion dollars as crucial to revitalizing U.S. 
manufacturing. This program would be a direct collaboration 
between NIST, the National Science Foundation, the Department 
of Defense, and the Department of Energy. And since it will 
require separate legislation, we look forward to working with 
this committee on that endeavor.
    Mr. Chairman, NIST's mission to work with industry to 
benefit American competitiveness could not be more relevant in 
my view to today's economic challenges, and I look forward to 
any questions the Committee will have.
    [The prepared statement of Dr. Gallagher follows:]

 Prepared Statement of Patrick D. Gallagher, Ph.D., Under Secretary of 
   Commerce for Standards and Technology, U.S. Department of Commerce
    Chairman Nelson, Ranking Member Boozman, and members of the 
Subcommittee, thank you for the opportunity to appear before you today 
to present the President's Fiscal Year (FY) 2013 budget request for the 
National Institute of Standards and Technology (NIST). This budget 
reflects the important role that NIST plays as part of President 
Obama's ``Blueprint for an America Built to Last.'' As the President 
said recently in Annandale, Virginia, ``[An] economy built to last 
demands that we keep doing everything we can to . . . keep 
strengthening American manufacturing.'' Secretary of Commerce John 
Bryson amplifies that message when he tells us that in order to create 
good paying jobs, we need to help more American businesses ``build it 
here and sell it everywhere.'' The proposed Fiscal Year 2013 budget 
reflects NIST's critical role in the Administration's efforts to 
strengthen manufacturing through critical investments in key research 
and development areas.
    The NIST mission is to promote U.S. innovation and industrial 
competitiveness through measurement science, standards and technology. 
This mission is very well-aligned with the priority goals as 
articulated by the President. The Fiscal Year 2013 budget for NIST 
reflects that alignment.
    The NIST budget is comprised of three discretionary spending 
accounts and two new proposed mandatory spending accounts.
    Mr. Chairman, the President's discretionary funding request for 
NIST is $857 million (excluding transfers), an increase of $106.2 
million over Fiscal Year 2012. More than half of the proposed increased 
funding would be focused on advanced manufacturing research both at 
NIST laboratories and through a new industry-led consortia program. 
This budget was carefully crafted to address pressing needs for 
standards and measurement work in emerging technology areas and provide 
seed funding to encourage industry and academia to come together to 
address common technology problems too large for individual 
institutions to tackle. Moreover, this budget is consistent with the 
President's Plan for Science and Innovation and the goals of the 
America COMPETES Reauthorization Act of 2010, both of which call for 
significant increases in basic Federal R&D funding to make America more 
competitive.
    For the NIST Scientific Research and Technical Services (STRS) 
account, which funds our laboratory programs, the budget requests $648 
million to accelerate the development of standards, technology, and 
measurement science in areas as diverse as advanced manufacturing 
technologies, cybersecurity, forensics and interoperable 
communications. The request reflects a net increase of $81 million over 
the Fiscal Year 2012 level. The request will help ensure that NIST 
research laboratories, facilities and service programs continue to work 
at the cutting edge of science to ensure that U.S. industry, as well as 
the broader science and engineering communities, have the measurements, 
data and technologies they need to further innovation and industrial 
competitiveness.
    For the NIST Industrial Technology Services (ITS) account, the 
budget requests $149 million, an increase of $21 million over the FY12 
enacted level. The account includes NIST's external programs: the 
Hollings Manufacturing Extension Partnership (MEP) program; and the 
proposed Advanced Manufacturing Technology Consortia (AMTech) program.
    The request includes $128 million for the MEP program; a slight 
decrease from the Fiscal Year 2012 enacted level. The MEP is a Federal-
state-industry partnership that provides U.S. manufacturers with access 
to technologies, resources and industry experts. MEP's more than 1,400 
field staff works with small-and mid-sized U.S. manufacturers to help 
them create and retain jobs, save time and focus on the bottom line to 
help increase profits. The request also includes $21 million for the 
AMTech program. This new program will establish industry-led consortia 
to identify and prioritize research projects supporting long-term 
industrial research needs. AMTech creates the incentive for 
manufacturers to share financial and scientific resources with 
universities, state and local governments and non-profits. The proposed 
program is a critical component of the Administration's emphasis on 
advanced manufacturing as a way to accelerate innovation and create 
high-quality U.S. jobs.
    The budget requests $60 million for the Construction of Research 
Facilities (CRF) account; a $4 million increase over the Fiscal Year 
2012 enacted level. Within that request are two components: $48.2 
million for NIST's routine maintenance and repair budget; and $11.8 
million for the Boulder Laboratories Building 1 Wing 6 Renovation. 
Critically needed renovations to the 60-year-old Building 1 in Boulder 
began in Fiscal Year 2010. The building houses the majority of research 
and measurement laboratories on the NIST-Boulder campus, supporting 
discovery and development in a number of critical areas, including 
public safety communications and telecommunications, precision timing, 
hydrogen energy sources, electromagnetic interference testing, and 
quantum computing.
    The Administration's budget request for NIST also includes two 
mandatory funding initiatives. The first mandatory proposal is directed 
toward Public Safety Communications research and was included in the 
recently passed Middle Class Tax Relief and Job Creation Act of 2012 
(P.L. 112-96). This legislation makes funds available from the Public 
Safety Trust Fund to NIST to help research and develop cutting-edge, 
interoperable wireless technologies for public safety users--the need 
for which was clearly demonstrated on September 11, 2001, during the 
rescue efforts at the World Trade Center towers. I will discuss this 
program in further detail later in my testimony.
    Finally, as part of the Administration's efforts to revitalize 
manufacturing, the President's budget proposes a $1 billion mandatory 
account to establish a National Network for Manufacturing Innovation 
(NNMI), which aims to promote the development of manufacturing 
technologies with broad applications through collaboration between 
NIST, the Department of Defense, the Department of Energy, and the 
National Science Foundation.
    Mr. Chairman, also included in this request are scientific and 
programmatic initiatives that are tied to the overarching themes of 
this budget: Advanced Manufacturing, Cybersecurity, Advanced 
Communications, Forensic Science, Disaster Resilience and Technology 
Transfer. These themes directly relate to the President's Blueprint for 
an America Built to Last--a blueprint for an economy built on American 
manufacturing.
Advanced Manufacturing--Building Prosperity Through Innovation
    Manufacturing is critical to the U.S. economy. As President Obama 
said in his 2012 State of the Union address, ``We have a huge 
opportunity, at this moment, to bring manufacturing back. But we have 
to seize it.'' ``The blueprint for an economy built to last,'' he said, 
``begins with American manufacturing.'' By itself, if the U.S. 
manufacturing sector were a country, it would be the 9th largest 
economy in the world.\1\ Over 11 million Americans have manufacturing 
jobs.\2\ Many of these are high-quality jobs.\3\ Total hourly 
compensation in the manufacturing sector is, on average, 21 percent 
higher than that in the services sector.\4\ After ranking as the 
world's largest manufacturer for more than a century, the U.S. is 
facing some stiff competition and has lost ground to China on total 
volume of its manufacturing output. It has also slipped below Germany, 
Korea, and Japan in the rankings of research and development 
manufacturing intensity, a critical indicator of future job-creating 
innovation.\5\
---------------------------------------------------------------------------
    \1\ Bureau of Economic Analysis Manufacturing Industry Data Tables 
2010.
    \2\ Bureau of Labor Statistics, 2011 Employer Costs for Employee 
Compensation, Table 6.
    \3\ NSTC A National Strategic Plan for Advanced Manufacturing 
February 2012 pg 2.
    \4\ Bureau of Labor Statistics, 2011 Employer Costs for Employee 
Compensation, Table 6.
    \5\ NSTC A National Strategic Plan for Advanced Manufacturing 
February 2012 pg 5.
---------------------------------------------------------------------------
    However, during the past 2 years of the Obama Administration, we 
have begun to see positive signs in American manufacturing: the 
manufacturing sector adding more than 400,000 jobs since December 2009; 
and more companies ``in-sourcing''--bringing jobs back and making 
additional investments in the United States. We are seeing, for the 
first time since the late 1990s, an increase in manufacturing jobs.\6\
---------------------------------------------------------------------------
    \6\ http://www.bradenton.com/2012/02/17/3882196/manufacturing-
exporting-showing.html.
---------------------------------------------------------------------------
    Even so, today's challenges require stepping up efforts to enhance 
and strengthen the Nation's underlying technical infrastructure, which 
is integral to our innovation and advanced manufacturing capabilities. 
Thus, the NIST Fiscal Year 2013 budget lays out a robust set of 
initiatives that cover the range of the manufacturing lifecycle 
spectrum to reduce the gap between cutting-edge science and development 
and the deployment of advanced manufacturing technologies. Providing 
the measurement tools and other essential technical assistance that 
U.S. manufacturers need to invent, innovate, and produce--more rapidly 
and more efficiently than their competitors--is a top NIST priority.
    To reap the economic benefits of our ability to innovate, our 
Nation's manufacturing sector must be able to renew itself by adopting 
new technology and developing new markets. The Nation's manufacturers 
must respond quickly and effectively to an ever-changing mix of 
requirements, risks, and opportunities, from new regulations to rising 
energy costs to emerging technologies and markets. The revitalization 
of the U.S. manufacturing base is critical to driving innovation and 
job creation in the future, and will play a major role in building an 
economy that can help raise the standard of living for all 
Americans.\7\
---------------------------------------------------------------------------
    \7\ Overview to the National Science Board's Science and 
Engineering Indicators 2012; pp. 16-20.
---------------------------------------------------------------------------
    The recently released National Strategic Plan for Advanced 
Manufacturing, a robust interagency effort led by the Office of Science 
and Technology Policy in which NIST played a significant role, 
articulated a number of ways in which we as a Nation can accelerate 
innovation to benefit advanced manufacturing and bridge the gaps in the 
present U.S. innovation system, particularly the gap between research 
and development (R&D) activities and the deployment of technological 
innovations in domestic production of goods. The plan lays out a robust 
innovation policy that would help to close these gaps and address the 
full lifecycle of technology.
    The President's Fiscal Year 2013 budget contains several 
initiatives focused on overcoming manufacturing-related barriers to 
innovation. We work very closely with numerous other Federal agencies 
in these efforts, including the Department of Energy's Advanced 
Manufacturing Office, the National Science Foundation, Department of 
Defense, and others.
Measurement Science for Advanced Manufacturing
    The largest overarching NIST initiative is Measurement Science for 
Advanced Manufacturing. This $45 million dollar initiative would fund 
five specific focus areas and is part of a $135 million overall 
investment in manufacturing research at NIST. The focus under this 
initiative is under 5 specific areas.

  <bullet> Metrology Infrastructure and Standards to Support 
        Biomanufacturing--Under this $10 million initiative, working 
        closely with industry, the Food and Drug Administration, and 
        standards organizations, NIST will develop the measurement 
        infrastructure needed to gain detailed understanding of 
        biomanufacturing processes and design methods that yield 
        higher-quality therapeutic products. Continuous improvements 
        will enable manufacturing processes that are sufficiently 
        adaptable to accommodate manufacture of next-generation 
        treatments.

  <bullet> Measurement Science and Standards to Support 
        Nanomanufacturing--NIST will invest $10 million to develop 
        measurement methods to help companies overcome technical 
        barriers to cost effective, high-volume manufacturing of 
        materials, devices, and systems that exploit the exceptional 
        properties exhibited at the nanoscale. This initiative includes 
        $2 million for nanotechnology related environmental, health, 
        and safety research to address potential risks of 
        nanotechnology based products.

  <bullet> Measurement Science and Standards to Speed Development and 
        Industrial Applications of Advanced Materials--This $10 million 
        effort will accelerate NIST efforts in support of the national 
        Materials Genome Initiative, an interagency program with the 
        goal of significantly reducing the time from discovery to 
        commercial deployment of new materials. NIST will focus on 
        standard reference data bases, data assessment and validation, 
        standards development and implementation, and modeling and 
        simulation tools.

  <bullet> Measurement Science and Standards to Support Smart 
        Manufacturing--$10 million is slated to support smart 
        manufacturing to exploit advances in sensors, data analytics, 
        modeling, and simulation and integrate these technologies to 
        improve manufacturing performance at all levels, from equipment 
        to factory to supply chain. NIST will develop measurement 
        capabilities and standards for automated in-process quality 
        monitoring and control for factory-level production systems. 
        NIST will also build a testbed to help industry, university, 
        and government collaborators develop an open standards platform 
        for facilitating the simultaneous engineering of the physical 
        and virtual components of manufacturing systems.

  <bullet> NIST Manufacturing Fellowships Program--The Manufacturing 
        Fellowships program will be funded at $5 million to provide 
        opportunities for engineers and scientists to work with NIST 
        staff on the measurement and standards required to create 
        cutting-edge tools for manufacturers. Fellowships will be 
        available to qualified researchers from companies and non-
        profit organizations, as well as to recent recipients of 
        bachelor's or master's degrees in relevant fields.

    While the previous programs are supported under the STRS budget, 
the President's budget strongly supports manufacturing through the NIST 
Industrial Technology Services (ITS) programs as well, such as the 
Hollings Manufacturing Extension Partnership or MEP, and the Advanced 
Manufacturing Technology Consortia program, or AMTech.
Advanced Manufacturing Technology Consortia Program
    The proposed $21 million AMTech program will provide cost-shared 
funding to industry-led consortia that are focused on developing 
advanced technologies to address major technical problems that inhibit 
development and widespread adoption of advanced manufacturing 
capabilities in the United States. By convening key organizations 
across the entire innovation lifecycle, AMTech will help to create the 
infrastructure necessary for more efficient technology transfer. These 
consortia will identify and conduct precompetitive research to address 
long-range basic R&D relevant to manufacturing, currently a weak link 
in the U.S. innovation ecosystem. AMTech will support high-value-added, 
knowledge-intensive U.S.-made products that respond to new market 
opportunities and generate high-skilled manufacturing jobs, discover 
cost-effective methods for making new products that safely exploit 
nanoscale materials; and develop new types of manufacturing tools and 
processes that allow cost-effective small batch production and create 
new market opportunities for small and mid-sized manufacturers.
Hollings Manufacturing Extension Partnership (MEP)
    The MEP, a Federal-state partnership, has a national network of MEP 
Centers located in all 50 states and Puerto Rico. There are over 1,400 
technical experts associated with the Centers helping small-and medium-
sized manufacturers navigate economic and business challenges and 
connecting them to public and private resources essential for increased 
competitiveness and profitability.
    Focused on U.S. based manufacturers for the past 20 years, MEP 
continues to modify its suite of services to better serve America's 
manufacturing base. In support of the President's manufacturing 
strategy, MEP has recently developed a Supplier Scouting Program to 
support the current needs of the manufacturers they serve across the 
U.S. The Supplier Scouting Program is designed to help identify 
potential business opportunities for small U.S. manufacturers with 
specific capabilities and capacities that could be utilized by a larger 
domestic manufacturer. In response to the Buy America requirements of 
Federal agencies and the supplier requirements of the large 
manufacturers, MEP leverages its vast knowledge of local manufacturer 
capabilities to identify and pre-qualify supplier capabilities and 
capacities, and provide assistance to suppliers as needed. To further 
support this goal, MEP launched a new, searchable, web-based resource--
the National Innovation Marketplace--to assist manufacturers in using 
emerging technologies and finding market opportunities or to move ideas 
from research in the labs to products. The site will enable businesses 
and entrepreneurs across the country to easily identify and contact 
more than 2,000 public-private organizations and initiatives designed 
to assist them.
    In addition to focusing on manufacturing, the NIST Fiscal Year 2013 
budget request also outlines investments that: broaden NIST's 
collaborations in measurement science with the academia and industry; 
strengthen and expand programs focused on emerging challenges in secure 
identification, cybersecurity, and advanced communications 
technologies; address measurement challenges in forensic science; and 
provide the measurements and standards to strengthen America's Physical 
Infrastructure.
NIST Centers of Excellence
    The proposed $20 million will fund the NIST Centers of Excellence. 
The NIST Centers of Excellence support collaboration on the front end 
of the manufacturing spectrum that builds upon a legacy of successful 
consortia with universities. With the requested funding, NIST will 
provide grants to establish four competitively selected Centers of 
Excellence in measurement science areas defined by NIST. The grants to 
multi-or single-university centers are envisioned to be for multiple 
years, contingent upon available resources. Each Center of Excellence 
will provide an interdisciplinary environment where NIST, academic, and 
industry researchers would collaborate on basic and applied research 
focused on innovations in measurement science and new technology 
development.
    NIST's mission to use measurement science and services to support 
innovation and industrial competitiveness covers an incredible breadth 
of topics--from pharmaceuticals based on nanotechnology to standards 
and fire codes for skyscrapers to quantum computers that use individual 
atoms to store information. To accomplish this mission efficiently, 
NIST must continually scan the horizons for emerging technologies and 
maintain excellent ties with both the industry and academic community. 
Currently, NIST has collaborative research centers--JILA with the 
University of Colorado, and the Joint Quantum Institute, and the 
Institute for Bioscience and Biotechnology Research with the University 
of Maryland. These centers have demonstrated how participation by NIST 
experts at multiple venues can leverage Federal investments and enhance 
the value of public funding. Cutting-edge research requires detailed, 
one-to-one exchange of technical know-how and often familiarity with 
one-of-a-kind instrumentation. To ensure that NIST's work intersects 
with the Nation's most productive regional innovation centers, it needs 
``on the ground'' resources near or at those centers.
    In addition to making significant discretionary investments to 
strengthen U.S. manufacturing, the Budget proposes a new, major 
initiative to catalyze a National Network for Manufacturing Innovation 
that will support the development of manufacturing technologies with 
broad applications through one-time mandatory funding of $1 billion. 
The President views this one-time investment as crucial to revitalizing 
U.S. manufacturing. We look forward to working with the Congress on 
legislation to support this initiative.
Measurement Science and Standards in Support of Forensic Science
    NIST has a long history of collaboration in the area of Forensic 
Science. This $5 million proposed initiative will enable NIST to create 
a strategic program to broadly address the most critical issues in 
forensic science today, such as new reference methods and technologies 
for understanding crime scenes and identifying criminals, including the 
uncertainty and standards associated with those techniques. A major 
outcome of this initiative will be to strengthen the utility and 
reliability of forensic evidence in the courtroom. This work also has 
the potential for significant cost savings for the U.S. justice system 
by reducing the number of mistrials or retrials related to questions 
about forensic analysis. One economic analysis of cost savings from 
forensic DNA testing alone estimated a cost savings of $35 for every 
dollar invested.
    Public trust in the justice system relies on the validity and 
certainty of evidence presented to the courts. Increasingly that 
evidence is gathered and analyzed with innovative forensic 
technologies. Working with the National Institute of Justice and other 
agencies, NIST has measurement science research under way in chemical, 
biological, radiological, and nuclear detection and analysis; fire and 
explosives analysis; gunshot residue, latent fingerprints, and many 
other areas. NIST's work in DNA profiling and testing, for example, 
helped establish the methods now used by all crime laboratories to 
match individuals to evidence samples. NIST technical expertise would 
be brought to bear in other areas of forensic science to the benefit of 
all.
Measurement and Standards for Disaster Resilience and Natural Hazards 
        Risk Reduction
    A $5 million initiative will support the measurement and standards 
for disaster resilience and reduce the risk from natural hazards. With 
a large percentage of the Nation's buildings and infrastructure 
clustered in disaster-prone regions, U.S. communities can and do suffer 
catastrophic losses from extreme events such as hurricanes, tornadoes, 
wildfires, earthquakes, and flooding. Despite significant progress in 
disaster related science and technology, natural and technological 
disasters in the United States are responsible for an estimated $55 
billion in costs in 2011 terms of lives lost, disruption of commercial 
and financial networks, properties destroyed, as well as the cost of 
mobilizing emergency response personnel and equipment.\8\ In 2011, 
three major incidents: the Joplin, Missouri, tornado; Hurricane Irene; 
and the Texas wildfires alone resulted in over 200 deaths and well over 
$10 billion in damages. Critically needed metrics, tools, and standards 
to ensure community-level resilience currently do not exist. These are 
needed to enable communities to minimize the impact of such disasters 
and to recover rapidly from them.
---------------------------------------------------------------------------
    \8\ http://www.ncdc.noaa.gov/oa/reports/billionz.html.
---------------------------------------------------------------------------
    NIST has significant statutory responsibilities in this area, 
including the National Earthquake Hazards Reduction Program 
Reauthorization Act of 2004 (P.L. 108-360); the National Construction 
Safety Team Act (P.L. 107-231); the National Windstorm Impact Reduction 
Act of 2004 (P.L. 108-360); and the Federal Fire Prevention and Control 
Act of 1974 (P.L. 93-498).
    The requested initiative will fund the development of a public-
private partnership program strategy that will work with stakeholder 
interests in all hazard areas to develop and adopt a national 
resilience framework and associated resilience models, standards, and 
policies. Additionally, the funding will help address the R&D gaps to 
realize the full potential of national resilience. This initiative is 
focused directly on finding solutions to the six Grand Challenges 
identified by the President's National Science and Technology Council 
in June 2005.
Measurement Science to Support Advanced Communications Networks
    This $10 million initiative will support the technological 
infrastructure, including standards, underpinning broadband 
communications networks, which have become as essential to today's 
economy as the electrical power grid was to the Industrial Revolution. 
To compete effectively in this global business environment, communities 
and companies will need reliable, secure access to huge amounts of 
data, available anytime, anywhere. However, the U.S. currently lacks 
the technology to ensure adequate capacity to achieve a large-scale 
network capable of this vision. There has been a 5,000 percent growth 
in demand for wireless Internet data in the last 3 years. Currently, 3 
percent of wireless smart-phone customers use up to 40 percent of the 
total available cell-phone bandwidth causing large bottlenecks in 
mobile broadband access. Services are striving to address the rapid 
increase in demand, but new technologies and approaches are needed. 
Incremental advances in broadband technology or network capacity will 
not be sufficient to meet the future needs of a hyper-connected world.
    This initiative will help support continued operations of the 700 
MHz Public Safety Broadband Demonstration (PSBD) Network and to make 
modifications to allow additional use as a platform for addressing 
interoperability and performance questions on non-PS next generation 
communications technologies. It will address three key areas to enable 
significant innovation in communications in both the commercial and 
public safety sectors. Benefits expected from funding of the advanced 
communications initiative include the development of a U.S. broadband 
network with greatly expanded capacity that requires only a marginal 
increase in capital and operating expenditures. In addition, it is 
expected to establish a testbed and build collaboration with the 
telecommunications industry to help lay the groundwork for an 
interoperable public safety communications network that seamlessly 
delivers voice, data, and video to first responders and other emergency 
personnel through whatever communication avenues are available.
Public Safety Communications Research and Development
    In addition to the Advanced Communications initiative, the Middle 
Class Tax Relief and Job Creation Act of 2012 (P.L. 112-96) created a 
mandatory account to help research and develop cutting-edge 
technologies for public safety users. The September 11 attacks on the 
World Trade Center highlighted the inadequacies of our communications 
networks, more than 10 years after September 11, the United States 
still lacks a wireless interoperable network capable of linking public 
safety organizations and workers. First responders and other emergency 
personnel nationwide currently use a patchwork of incompatible 
technologies and frequency bands. NIST will use the funds to work with 
industry and public safety organizations on research and development of 
new standards, technologies, and applications that advance public 
safety communications. This initiative will establish a competitive 
grants program designed to support research, development, and 
demonstration projects. The overriding objective is to build a 
broadband system to allow first responders and other public safety 
personnel anywhere in the Nation to send and receive data, voice, and 
other communications to work together effectively in response to 
crises.
National Strategy for Trusted Identities in Cyberspace
    The Budget provides an increase of $8 million to the National 
Strategy for Trusted Identities in Cyberspace (NSTIC) which builds upon 
Fiscal Year 2012 funding of $16.5 million. The initiative envisions an 
online environment--the ``Identity Ecosystem''--that improves on the 
use of passwords and usernames, and allows individuals and 
organizations to better trust one another, with minimized disclosure of 
personal information. The Identity Ecosystem is a user-centric online 
environment, a set of technologies, policies, and agreed upon 
standards, that securely support transactions ranging from anonymous to 
fully authenticated and from low to high value. It would include a 
vibrant marketplace that allows people to choose among multiple 
identity providers--both private and public--that would issue trusted 
credentials that prove identity. Key attributes of the Identity 
Ecosystem include privacy, convenience, efficiency, ease-of-use, 
security, confidence, innovation, and choice. Creating this Identity 
Ecosystem will require input from the private sector, advocacy groups, 
public sector agencies and others. The request continues and expands 
existing efforts to coordinate Federal activities needed to implement 
NSTIC.
    Specifically, the Fiscal Year 2013 request funds competitively 
selected pilot project grants that will enable the private sector to 
work with state, local, and regional governments to improve acceptance 
of Identity Ecosystem components. The selected NSTIC pilot programs 
will demonstrate innovative frameworks that can provide a foundation 
for more trusted online transactions and tackle barriers that have, to 
date, impeded the Identity Ecosystem from being fully realized. This 
initiative is expected to lead to the emergence of privacy-enhancing, 
trusted authentication solutions that lead to better protections 
against cybercrime; improved privacy and protection of data; improved 
security and interoperability of credentials; improve the resilience of 
data breach recovery; and a self-sustaining, private-sector-led 
Identity Ecosystem (by 2015) and its Steering Group that brings 
together all stakeholders--the private sector, advocacy groups, and 
public-sector agencies--to address authentication challenges and allow 
continued expansion of the Nation's online economy.
Boulder Laboratories Building 1 Renovation
    NIST is requesting $11.8 million in Fiscal Year 2013 for the 
Construction of Research Facilities account for the renovation of the 
Boulder (CO) labs--Building 1. This initiative is part of a 
comprehensive, multi-year plan for the phased construction of new space 
and renovation of Building 1. As you may know, Building 1 is nearly 60 
years old and houses the majority of NIST research and measurement 
programs on the agency's Boulder site. However, the aging building is 
simply inadequate for the kind of high-precision measurement work 
conducted there.
    The poor condition of Building 1 causes an estimated loss in 
productivity of at least 20 percent due to the need to repeat 
experiments to produce quality research results and compensate for poor 
controls in other ways. Even with the completion of Boulder's Precision 
Measurement Laboratory later this year, many NIST research projects 
requiring tight environmental controls will need to continue in 
Building 1. Renovation of Wing 6, the portion of Building 1 addressed 
with this initiative, includes a number of laboratories engaged in 
essential research and technical services such as calibrations used for 
radio, microwave, and optical frequency equipment in the 
telecommunications, medical, and scientific fields.
    Beyond large research inefficiencies, current laboratory conditions 
in yet to be renovated wings of Building 1 also pose safety concerns. 
Ventilation systems do not supply adequate fresh air for modern 
laboratory work, electrical systems contain asbestos and do not meet 
current codes, lighting is poor, and most of the building is not 
protected by a fire sprinkler system contributing to potential life and 
occupational safety hazards. The current Facility Condition Index for 
Building 1 is ``poor.'' Extensive upgrades are essential to ensure that 
the Institute can perform the exacting, precision measurements required 
to meet its mission.
Summary
    The Fiscal Year 2013 NIST budget request reflects the 
Administration's recognition of the important role that NIST plays in 
innovation, as well as the impact that the research and services NIST 
provides can have on moving the Nation forward by laying the foundation 
for long-term job creation and prosperity.
    More than half of the proposed increased funding in the NIST budget 
is focused on advanced manufacturing research at NIST laboratories and 
through new industry-led consortia programs. NIST will continue its 
mission to work with the private sector to ensure U.S. manufacturers 
have the research support they need to make the best products in the 
world and remain globally competitive. The NIST laboratory programs, 
along with its outreach efforts and standards development work, are 
dedicated to providing U.S. industry with the tools needed to innovate, 
compete and flourish in today's fierce global economy.
    I look forward to working with you, Mr. Chairman and members of the 
Committee, and would be happy to answer any questions.
Dr. Patrick D. Gallagher, Director
    Dr. Patrick Gallagher was confirmed as the 14th Director of the 
U.S. Department of Commerce's National Institute of Standards and 
Technology (NIST) on Nov. 5, 2009. He also serves as Under Secretary of 
Commerce for Standards and Technology, a new position created in the 
America COMPETES Reauthorization Act of 2010, signed by President Obama 
on Jan. 4, 2011.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Gallagher provides high-level oversight and direction for NIST. The 
agency promotes U.S. innovation and industrial competitiveness by 
advancing measurement science, standards, and technology. NIST's Fiscal 
Year 2012 resources total $750.8 million from the Consolidated and 
Further Continuing Appropriations Act of 2012 (P.L. 112-55), with an 
estimated additional annual income of $62.7 million in service fees, 
and $128.9 million from other agencies. The agency employs about 2,900 
scientists, engineers, technicians, support staff, and administrative 
personnel at two main locations in Gaithersburg, Md., and Boulder, 
Colo.
    Gallagher had served as Deputy Director since 2008. Prior to that, 
he served for 4 years as Director of the NIST Center for Neutron 
Research (NCNR), a national user facility for neutron scattering on the 
NIST Gaithersburg campus. The NCNR provides a broad range of neutron 
diffraction and spectroscopy capability with thermal and cold neutron 
beams and is presently the Nation's most used facility of this type. 
Gallagher received his Ph.D. in Physics at the University of Pittsburgh 
in 1991. His research interests include neutron and X-ray 
instrumentation and studies of soft condensed matter systems such as 
liquids, polymers, and gels. In 2000, Gallagher was a NIST agency 
representative at the National Science and Technology Council (NSTC). 
He has been active in the area of U.S. policy for scientific user 
facilities and was chair of the Interagency Working Group on neutron 
and light source facilities under the Office of Science and Technology 
Policy. Currently, he serves as co-chair of the Standards Subcommittee 
under the White House National Science and Technology Council.

    Senator Nelson. Thank you.
    Dr. Suresh.

           STATEMENT OF DR. SUBRA SURESH, DIRECTOR, 
                  NATIONAL SCIENCE FOUNDATION

    Dr. Suresh. Chairman Nelson, Ranking Member Boozman, 
Chairman Rockefeller, good to see you. It's my privilege to be 
here to discuss the National Science Foundation's Fiscal Year 
2013 budget request.
    Today science and technology are the new frontiers of 
American prosperity. Our nation's well-being and global 
competitiveness depend more than ever before on the steady 
stream of new ideas and the highly skilled science, technology, 
engineering, and mathematics talent that the National Science 
Foundation supports, and especially the young researchers that 
NSF so skillfully nurtures.
    NSF supports the full breadth of science and engineering 
research and education. We seek emerging ideas with the 
potential to transform the world, establish new paradigms, and 
foster new industries. NSF has helped to make the U.S. an 
undisputed leader, world leader, in science, technology, and 
innovation. Our universities rank among the best in the world. 
Our scientists and engineershave led the world in discovery and 
innovation. Our transformative discoveries have created a 
vibrant private sector and great jobs.
    Worldwide, as the Ranking Member mentioned in his opening 
remarks, frontier research and technological innovation, driven 
by a creative and skilled science and engineering workforce, 
are the new engines of economic growth. Science and technology 
are improving the prospects for economic prosperity and a 
rising standard of living around the globe.
    It's a measure of our success that other nations are 
emulating the NSF model. The U.S. can be both a partner and a 
leader in this global enterprise. Just in the last few months, 
three very different countries, as different as Nigeria, 
Indonesia, and India, have established or are in the process of 
establishing science funding agencies modeled after the 
National Science Foundation.
    The NSF budget request moves America forward by connecting 
the science and engineering enterprise with benefits for 
Americans in areas critical to job creation, a growing economy, 
and a higher standard of living.
    The administration and Congress have conveyed their clear 
determination to build on the nation's history of success in 
leading edge discovery and innovation. That is the unmistakable 
message of the President's 2013 budget request for NSF of 
$7.373 billion, an increase of 4.8 percent. Bipartisan 
Congressional support for the 2.5 percent increase in our 2012 
budget reinforces that message.
    NSF has identified critical funding priorities that will 
provide long-term benefits for the nation. As good stewards of 
the public trust, we have also reduced or eliminated lower 
priority programs, identified opportunities to leverage 
resources for maximum impact, and held the line on NSF's 
operating budgets and expenses.
    This budget request presents a well-targeted portfolio of 
innovative investments that provides increased support for 
fundamental research in all fields of science and engineering. 
This core research, which constitutes the largest share of NSF 
expenditures, lays the foundation for progress in science and 
technology and enhances our ability to address emerging 
challenges.
    NSF investments in advanced manufacturing, clean energy 
technologies, cybersecurity, and STEM education will support 
the administration's governmentwide priorities in these 
critical areas. In 2013, NSF will support cross-agency advanced 
manufacturing, national robotics, and materials genome 
initiatives by investing in research that makes manufacturing 
faster, cheaper, and smarter.
    Working in concert with other Federal agencies, NSF will 
advance research to ensure that the nation's computer and 
networking infrastructure are secure and reliable, and to 
support a cybersecurity workforce. NSF will support clean 
energy research as a component of an initiative to address 
national challenges to environmental sustainability.
    The administration's new K through 16 mathematics education 
initiative combines NSF's expertise in mathematics education 
research with the Department of Education's ability to scale up 
successful programs at state and local levels. NSF's larger 
suite of educational investments builds on the recognition that 
science and engineering talent is the foundation of America's 
future. Areas of educational investments span early learning to 
college completion. NSF brings its strength in supporting 
fundamental research in education to each of these broad areas 
of collaboration.
    Mr. Chairman, members of the Subcommittee: I hope my 
testimony conveys the Foundation's vital role in ensuring that 
America remains at the epicenter of research, innovation, and 
learning that's driving 21st century economies. I'll be pleased 
to answer any questions you may have.
    [The prepared statement of Dr. Suresh follows:]

           Prepared Statement of Dr. Subra Suresh, Director, 
                      National Science Foundation
    Chairman Nelson, Ranking Member Boozman, and Members of the 
Subcommittee, it is my privilege to be here with you today to discuss 
the National Science Foundation's fiscal year (FY) 2013 Budget Request. 
My name is Subra Suresh, and I am the Director of the National Science 
Foundation.
    I hope to make a clear and compelling case for the continuing vital 
role NSF's support for science and engineering research and education 
plays in innovation and economic growth, especially during these times 
of constrained budgets.
    The President's FY 2013 Budget Request reflects wise stewardship of 
federal funding through innovative, targeted investments. The Request 
totals $7.373 billion, an increase of $340.0 million (4.8 percent) over 
the FY 2012 Enacted level. The FY 2013 Request provides increased 
support for core programs in fundamental research and education in all 
fields of science and engineering. This investment moves our nation 
forward by connecting the science and engineering enterprise with 
potential economic, societal, and educational benefits in areas 
critical to creating high-quality jobs, growing the economy, and 
ensuring national security. This follows bipartisan support in the FY 
2012 budget for a 2.5-percent increase over the 2011 Enacted level.
    NSF is the only federal agency with a mandate to support research 
and education in every discipline. The results of frontier research 
have a long record of improving lives and meeting national needs. They 
are the very bedrock of economic growth; the path to sustainability in 
energy, agricultural, and environmental domains; the seeds of the next 
technology revolution; and the foundation for advances in medicine. 
Sustained momentum in NSF's core programs is essential for progress in 
science and engineering. NSF's broad scope uniquely positions us to 
integrate the natural sciences and engineering with social, behavioral, 
and economic sciences to address the complex societal challenges of 
today. For all these reasons, the FY 2013 Budget Request provides 
increased support for the core fundamental research programs across 
NSF.
NSF: Building a Foundation for Success
    NSF has played a significant role in U.S. prosperity, and in the 
education and development of the nation's science and engineering 
workforce. For decades, NSF has supported scientists and engineers in 
their pursuit of world-changing discoveries and innovation that, in 
turn, created opportunities for private sector growth and for Americans 
to have good jobs.
    Since 1952, the first year that NSF awarded research grants, 196 
Nobel Prize recipients have received NSF funding at some point in their 
careers for their work in physics, chemistry, medicine, and economics. 
Today, their transformative work addresses society's grand challenges 
in the areas of energy, environment, and health, as well as national 
and economic security.
    The United States has a long history of investment in and 
deployment of technological advances derived from advances in basic 
research facilitated by NSF. For example, research funded by NSF at the 
National Center for Atmospheric Research and universities was 
instrumental in the development of Doppler radar, which benefits most 
Americans regularly through improved weather forecasting. NSF-supported 
fundamental research in physics, mathematics, and high-flux magnets led 
to the development of today's magnetic resonance imaging (MRI), 
employed ubiquitously throughout medicine.
    Furthermore, NSF provides a much-needed bridge between research and 
discovery that would otherwise be neglected and remain untapped by the 
commercial marketplace. In the 1970s, research on solid modeling by 
NSF-funded scientists at Carnegie Mellon University led to widespread 
use of Computer-Aided Design and Computer-Aided Manufacturing, which 
together have revolutionized much of the U.S. manufacturing industry. 
NSF was willing to encourage investigations into design problems that 
neither private firms nor federal mission agencies were willing to 
address.
    While discovery and innovation underpin our global leadership in 
science and engineering, and consistently provide pathways for 
entrepreneurs, these activities are also first and foremost human 
endeavors. Thus, they demand the development of a highly skilled 
science, technology, engineering, and mathematics (STEM) workforce. NSF 
strives to ensure that students from diverse backgrounds, including 
women, underrepresented minorities, and persons with disabilities, have 
sufficient opportunities to engage in empowering learning experiences 
and inspiring research, no matter their economic circumstances. 
Sustaining such a world-class workforce is critical.
    Federal investments in fundamental science and engineering and STEM 
training are increasingly important to help establish U.S. leadership 
in next-generation technologies, especially as other nations intensify 
their support of research, development, and education. It is crucial 
that we continue to lead in the face of this unprecedented global 
competition for the world-class talent who generate innovative 
scientific ideas and comprise the technical workforce.
    These federal investment priorities in fundamental science and STEM 
training align with the America COMPETES Reauthorization Act of 2010, 
which paved the way for increased national attention on STEM research 
and education. NSF appreciates the Committee's support of this 
important national policy. The provisions of the COMPETES 
Reauthorization Act cover a wide range of NSF activities. The Act has 
underpinned NSF's development of new partnerships with other agencies 
(e.g., U.S. Agency for International Development-Partnerships for 
Enhanced Engagement in Research program, K-16 Math Education effort 
with the Department of Education).
    The COMPETES Reauthorization Act also calls for the enhancement of 
undergraduate research as tools that promote careers in STEM fields. 
The NSF FY 2013 Budget Request has several new programs tailored to 
this national need. In particular, we thank the members of the 
Committee and particularly Chairman Rockefeller for their support of 
the January 19-20, 2012, EPSCoR 2030 Workshop, and we look forward to 
the strategic priorities and the recommendations that result from the 
effort. NSF continues to value the EPSCoR program.
    Other NSF priorities in the FY 2013 budget are designed to develop 
a robust innovation ecosystem in line with the Committee's interest in 
encouraging technology transfer and commercialization. For example, the 
Innovation Corps (I-Corps) program, described in more detail later, has 
the potential to leverage public-private partnerships, through 
professional mentoring, for technology transfer of fundamental research 
into useful, commercial technological innovation. At present, the first 
21 projects are off to a great start. In fact, four of the awardees 
have graduated to the SBIR (Small Business Innovation Research) track.
    The COMPETES Reauthorization Act also directed NSF to implement a 
policy making the Broader Impacts Review Criterion, one of NSF's two 
merit review criteria, more clearly understood by reviewers and 
potential grant recipients. Meanwhile, in May of 2010, the National 
Science Board (NSB) had initiated a review of NSF's review criteria and 
developed a Task Force on Merit Review. The task force produced a 
report (National Science Foundation's Merit Review Criteria: Review and 
Revisions, Jan. 10, 2012) that more clearly defined the two merit 
review criteria and how they relate to one another. NSF is in full 
agreement with the recommendations of the task force report. Changes to 
the descriptions of the criteria and the added principles component are 
intended to enhance and clarify their function. The agency is currently 
implementing these changes.
    Additionally, the NSB evaluated the needs for mid-scale research 
instrumentation across all disciplines, in accordance with the Act. As 
the Board noted in its recent report to Congress (NSB Report to 
Congress on Mid-Scale Instrumentation at the NSF, Dec. 14, 2011), NSF's 
current balance of small, medium, and large instrumentation is sound, 
and the variety of mechanisms by which NSF prioritizes, solicits, 
evaluates, and supports mid-scale instrumentation--directly and 
indirectly through large centers and facilities--provides flexibility 
and vigor to NSF efforts.
    NSF will continue its role as the nation's innovation engine as 
mandated in the Act. The fuel for that engine is fundamental research. 
Scientific research, with its long-term perspective, strong emphasis on 
disciplinary excellence, and multi-disciplinary interactions, is a 
critical foundation for both transformational science and economic 
competitiveness. For all these reasons, the FY 2013 Budget Request 
provides increased support for the core fundamental research programs 
across NSF.
The NSF FY 2013 Budget Request
Budget Rationale
    The NSF FY 2013 Budget Request presents a carefully-targeted 
portfolio of innovative investments that provides increased support for 
fundamental research in all fields of science and engineering. This 
core research, which constitutes the largest share of NSF expenditures, 
lays the foundation for progress in science and technology and enhances 
our ability to address emerging challenges in areas such as advanced 
manufacturing, clean energy technologies, cybersecurity, and STEM 
education.
One NSF Framework
    A major emphasis in FY 2013 is the OneNSF Framework, which aims to 
enable seamless operations across organizational and disciplinary 
boundaries. OneNSF empowers the Foundation to respond to new challenges 
in a changing global environment, leverages resources and opportunities 
for maximum impact, and provides leadership to establish innovative 
practices, programs, and paradigms that advance scientific knowledge 
and science, technology, engineering, and mathematics (STEM) education. 
The OneNSF Framework encompasses a set of investments that create new 
knowledge, stimulate discovery, address complex societal problems, and 
promote national prosperity. The OneNSF Framework includes the 
following investments:
    Cyber-Enabled Materials, Manufacturing, and Smart Systems (CEMMSS) 
is a $257.42-million investment that will transform static systems, 
processes, and edifices into adaptive, pervasive ``smart'' systems with 
embedded computational intelligence that can sense, adapt to, and react 
to changes in the environment. The smart systems of tomorrow, created 
through CEMMSS, will vastly exceed those of today in terms of 
adaptability, autonomy, functionality, efficiency, reliability, safety, 
and usability. CEMMSS brings together researchers and educators from 
the areas of advanced manufacturing, materials science, cyber-physical 
systems, and robotics to build an integrated community of interest and 
stimulate new directions in research.
    In the FY 2013 Budget Request, CEMMSS research includes $148.90 
million for advanced manufacturing, which includes NSF participation in 
areas of national importance such as cyber-physical systems and 
advanced robotics research; materials processing and manufacturing; and 
advanced semiconductor and optical device design. Advanced 
manufacturing research invests in emerging technologies that promise to 
create high quality manufacturing jobs and enhance our global 
competitiveness. NSF is an agency partner in the President's Advanced 
Manufacturing Partnership.
    NSF has a long history of investments in cyberinfrastructure. 
Cyberinfrastructure Framework for 21st Century Science and Engineering 
(CIF21) aims to more deeply address a highly science-driven integration 
of cyberinfrastructure (CI), supporting development of new statistical, 
mathematical, and computational methods, algorithms, and tools, as well 
as the cultivation of the next generation of computational and data-
enabled researchers who prototype, develop, and use CI in all 
disciplines. In FY 2013, NSF will invest $106.08 million in this 
program.
    The NSF Innovation Corps (I-Corps) is a public-private partnership 
to accelerate the movement of research results from the lab to the 
marketplace by establishing opportunities to assess the readiness of 
emerging technology concepts for transitioning into valuable new 
products. I-Corps will bring together technological, entrepreneurial, 
and business expertise and mentoring to move discoveries toward 
commercialization, thus facilitating the downstream development of 
technologies and processes from NSF-sponsored fundamental discoveries. 
Initially launched in FY 2011, NSF will invest $18.85 million in FY 
2013.
    Integrated NSF Support Promoting Interdisciplinary Research and 
Education (INSPIRE) integrates NSF's existing interdisciplinary efforts 
with a suite of new Foundation wide activities. INSPIRE encourages 
research that involves multiple disciplines, connects disciplines, or 
creates new disciplines. It aims to widen the pool of prospective 
discoveries that may be overlooked by traditional mechanisms. The NSF 
Request for INSPIRE in FY 2013 is $63.0 million.
    Cybersecurity vulnerabilities in our government and critical 
infrastructure are a risk to national security, public safety, and 
economic prosperity. Secure and Trustworthy Cyberspace (SaTC) is a 
$110.25 million investment that aligns NSF's cybersecurity investments 
with the four thrusts outlined in the December 2011 national 
cybersecurity R&D strategy, Trustworthy Cyberspace: Strategic Plan for 
the Federal Cybersecurity Research and Development Program. SaTC 
directly addresses the critical Administration priority of 
cybersecurity issues by supporting research and education that seeks to 
protect the nation's critical information technology infrastructure, 
including the Internet, from a wide range of threats to its security, 
reliability, availability, and overall trustworthiness. SaTC also 
addresses the social, behavioral and economic aspects of cybersecurity.
    In FY 2013, NSF will invest $355.38 million in Clean Energy. NSF's 
clean energy investments include research related to sustainability 
science and engineering, such as the conversion, storage, and 
distribution of diverse power sources (including smart grids), and the 
science and engineering of energy materials, energy use, and energy 
efficiency. Some of NSF's investments in clean energy are supported 
through the FY 2013 NSF investment of $202.50 million in Science, 
Engineering, and Education for Sustainability (SEES). SEES focuses on 
targeted programs that promote innovative interdisciplinary research to 
address pressing societal issues of clean energy and sustainability. 
Specifically, SEES will address a wide range of highly complex 
challenges including sustainable energy pathways; agricultural and 
environmental sustainability; sustainable chemistry, engineering, and 
materials; water scarcity; ocean acidification; natural disaster 
prediction and response, and sustainable coastal and Arctic systems.
The Intersection of Research and Education
    Efforts to maintain national science and technology preeminence in 
a fiercely competitive global environment rest upon a highly educated 
workforce. The NSF FY 2013 Budget Request continues NSF's long history 
of support for the next generation of leaders in science, technology, 
and innovation. The suite of educational investments builds on the 
recognition that science and engineering talent is the foundation of 
America's future. Areas of educational investments run the spectrum 
from early learning to college completion.
    K-16 Math Education: As part of the nation's strategic plan in STEM 
education, NSF is partnering with the Department of Education (ED) to 
launch an evidence-based effort to improve K-16 mathematics education 
and knowledge building. This new endeavor will support researchers and 
educators who have the greatest potential to improve mathematics 
learning. In FY 2013, NSF's Directorate for Education and Human 
Resources (EHR) and ED will each contribute $30.0 million. EHR's 
contributions will be through support for the Discovery Research K-12 
(DR K-12) and Transforming Undergraduate Education in STEM (TUES) 
programs.
    Transforming Undergraduate Education in STEM (TUES) aims to improve 
the quality of undergraduate STEM education. TUES research will help 
undergraduate teaching keep pace with advances in disciplinary 
knowledge, and underpin the creation of new learning materials, 
teaching strategies, faculty development, and evaluation to directly 
impact education in practice. In FY 2013, NSF will invest $61.46 
million in TUES.
    Expeditions in Education (E<SUP>2</SUP>) is a new $49.0 million 
interdisciplinary effort that establishes a partnership between the 
Directorate for Education and Human Resources (EHR) and other research 
directorates and offices. E\2\ aims to ensure that all of NSF's 
education and workforce investments are drawing on the latest STEM 
educational theory, research, and evidence. By incorporating cutting-
edge science and engineering education, E\2\ will improve learning in 
science and engineering disciplines and enhance the preparation of a 
world-class scientific workforce.
    The Widening Implementation and Demonstration of Evidence-Based 
Reforms (WIDER) program, funded at $20.0 million in FY 2013, is an 
education research and development program that will modernize the way 
undergraduate students, including non-STEM majors, are taught and learn 
general science and mathematics. WIDER will explore how to achieve 
widespread sustainable implementation of evidence-based undergraduate 
instructional practices to improve student outcomes.
    In FY 2013, NSF will invest $25.0 million to continue to support 
the Federal Cyber Service: Scholarship for Service (SFS) program to 
increase the number of qualified students entering the fields of 
information assurance and computer security. SFS will increase the 
capacity of the United States higher education enterprise to continue 
to produce professionals in these fields to meet the needs of our 
increasingly technological society. SFS directly addresses the Nation's 
increasing need for innovative solutions to cybersecurity concerns.
    The Advanced Technological Education program focuses on education 
for high-technology fields, with an emphasis on two-year colleges to 
produce well-qualified technicians for existing and emerging high-
technology fields. For FY 2013, the NSF Request is $64.0 million.
Continued Investment in American Innovation and Entrepreneurship
    The Faculty Early Career Development program (CAREER) develops the 
future scientific and technical workforce through support of young 
faculty who are dedicated to integrating research with teaching and 
learning. In FY 2013, NSF will invest $216.49 million to support 
approximately 40 more CAREER awards than in FY 2012, for a total of 440 
new awards. The CAREER portfolio includes projects that range across 
all fields of science and engineering supported by the Foundation, 
including high priority fields such as clean energy, climate change, 
STEM education, and cybersecurity.
    The Graduate Research Fellowship program (GRF), funded at $242.98 
million in FY 2013, supports the development of students and early-
career researchers in order to cultivate the next generation of STEM 
professionals. In FY 2013, 2,000 new fellowships will be awarded, 
maintaining the doubling of new fellowship awards achieved in FY 2010. 
To address inflationary pressures on the long-stagnant GRF stipend 
level, the FY 2013 Request increases the stipend to $32,000.
    Science and Technology Centers (STCs) are funded in FY 2013 at 
$74.39 million. In FY 2013, a new cohort of STCs will be initiated 
(totaling $25.0 million) that will continue the tradition of conducting 
world-class research through partnerships among academic institutions, 
national laboratories, industrial organizations, and/or other public/
private entities, and via international collaborations. STCs provide an 
innovative way for researchers to conduct investigations at the 
interfaces of disciplines and to invest in high-risk, potentially 
transformative science.
    Experimental Program to Stimulate Competitive Research (EPSCoR) 
assists NSF in its mandate to promote scientific progress nationwide. 
EPSCoR effects lasting improvements in the research capacity of 
institutions in participating jurisdictions to promote broader 
engagement at the frontiers of discovery and innovation in science and 
engineering. The FY 2013 investment for EPSCoR is $158.19 million.
    Enhancing Access to the Radio Spectrum (EARS), begun in FY 2012, 
continues to partner the Directorates for Engineering; Computer and 
Information Science and Engineering; Mathematical and Physical 
Sciences; and Social, Behavioral and Economic Sciences in supporting 
the basic research that funds research and development of spectrum-
sharing technologies. NSF proposes an investment of $50.50 million for 
FY 2013.
World Class Scientific Infrastructure
    The world-class equipment and facilities that NSF supports are 
essential to the task of discovery. All of the projects in the Major 
Research Equipment and Facilities Construction account undergo major 
cost and schedule reviews, as required by NSF guidelines. In FY 2013, 
NSF will continue support for the construction of the following four 
projects.
    Advanced Laser Interferometer Gravitational-Wave Observatory 
(AdvLIGO). A planned upgrade of the existing Laser Interferometer 
Gravitational-Wave Observatory (LIGO), AdvLIGO will be ten times more 
sensitive, powerful enough to approach the ground-based limit of 
gravitational-wave detection. The FY 2013 investment is $15.17 million.
    Advanced Technology Solar Telescope (ATST). ATST will enable study 
of the sun's magnetic fields, which is crucial to our understanding of 
the types of solar variability and activity that affect Earth's civil 
life and may impact its climate. The FY 2013 investment is $25.0 
million.
    National Ecological Observatory Network (NEON). NEON will consist 
of geographically distributed field and lab infrastructure networked 
via cybertechnology into an integrated research platform for regional 
to continental scale ecological research. The FY 2013 investment is 
$91.0 million.
    Ocean Observatories Initiatives (OOI). OOI will enable continuous, 
interactive access to the ocean via multiple types of sensors linked by 
cutting-edge cyberinfrastructure, which will produce never-before-seen 
views of the ocean's depths. The FY 2013 investment is $65.0 million.
Excellence in Operations
    NSF emphasizes the agency's desired outcome of attaining excellence 
in all aspects of its operations. Thus, performing as a model 
organization, one of NSF's three strategic goals, underpins NSF 
programmatic activities and encompasses all the agency's management 
activities. The Model Organization goal also includes support for the 
activities of the Office of Inspector General (OIG) and the National 
Science Board (NSB), which are provided in separate appropriations.
    Workforce Development. The FY 2013 budget request includes $209.47 
million, or $6.56 million over the FY 2012 Estimate, for funding NSF's 
federal workforce. The Request will support 1,352 full-time equivalents 
(FTE), an increase of 25 over the FY 2012 Estimate allocation of 1,327 
FTE.
    iTrak. FY 2013 is the first year of iTRAK implementation. iTRAK 
will transition NSF from its legacy financial and property management 
systems to a fully integrated financial management solution. In FY 
2013, the total Request for iTRAK is $11.70 million.
Efficient Management
    NSF's FY 2013 Request follows a thorough examination of programs 
and investments across NSF to determine where the potential exists for 
more innovative investments. As good stewards of the public trust, we 
have reduced or eliminated lower priority programs, identified 
opportunities to leverage resources for maximum impact, and held the 
line on NSF's operating expenses.
    This Request includes several recommended cuts and consolidations.
    Computer and Information Science and Engineering Research Programs: 
Three programs within the Directorate for Computer and Information 
Science and Engineering (CISE) are eliminated since they have reached 
their planned endpoints and have achieved their original goals. These 
programs are: Network Science and Engineering (NetSE); Social-
Computational Systems; and the Interface between Computer Science and 
Economic & Social Sciences (ICES). Support for these research areas 
will be absorbed into CISE core programs.
    Cyber-Enabled Discovery and Innovation (CDI): NSF eliminates 
funding for the agency-wide CDI program, as the program has reached its 
planned conclusion and has achieved many of its original goals. Funding 
in FY 2013 will be redirected to support new efforts in two NSF cross-
agency investments (CEMMSS and CIF21) that will build on the 
accomplishments made in the CDI program.
    Mathematical and Physical Sciences Research Programs: Four programs 
within the Directorate for Mathematical and Physical Sciences (MPS) are 
eliminated because they overlap with larger core disciplinary programs 
or they have achieved their original goals. Two programs are eliminated 
as they are no longer needed as stand-alone programs: Mathematical 
Physics and Grid Computing. Research conducted under the third program, 
Cultural Heritage Science, will be funded through regular MPS 
disciplinary programs. Lastly, the CHE-DMR-DMS Solar Energy Initiative 
(SOLAR) will be subsumed within the broader framework of NSF's SEES 
investment through the Sustainable Energy Pathways solicitation.
    Nanoscale Science & Engineering Centers (NSECs): NSF reduces 
support for the NSEC program because the state of the research in this 
area has matured significantly and the research should advance more 
rapidly in a different, more use-inspired research center program. 
Several NSEC grants may transition to the Nanosystems Engineering 
Research Centers (NERCs) as the nano-devices and processes created at 
graduating NSECs move to the systems level and potential 
commercialization. NSF will continue to support eleven continuing NSECs 
in FY 2013 including the Nanomanufacturing ERC.
    Public Outreach terminations: NSF eliminates two small stand-alone 
public outreach programs because they lack rigorous evaluation and are 
duplicative of the larger, well-established peer-reviewed Advanced 
Informal STEM Learning program (formerly, the Informal Science 
Education program). The eliminated programs are: Communicating Science 
Broadly and Connecting Researchers with Public Audiences.
Conclusion
    With intense global competition for knowledge and talent, we must 
focus our attention on finding the sophisticated solutions that will 
ensure a prosperous, secure, and healthy future for the nation and the 
world. Robust NSF investments in fundamental science and engineering 
research and education have returned exceptional dividends to the 
American people, expanding knowledge, improving lives, and ensuring our 
security. To keep those benefits flowing, we need to constantly 
replenish the wellspring of new ideas and train new talent while 
serving as good stewards of the public trust. That is the fundamental 
and continuing mission of NSF.
    Mr. Chairman and members of the Subcommittee, I hope my testimony 
explains how the Foundation plays a vital role in ensuring that America 
remains at the epicenter of the ongoing revolution in research, 
innovation, and learning that is driving 21st century economies. More 
than ever, the future prosperity and well-being of Americans depend on 
sustained investments in our science and technology. NSF has been and 
continues to be central to this endeavor. The FY 2013 Budget Request 
for NSF clearly acknowledges NSF's pivotal role in ensuring America's 
future STEM leadership and economic wellbeing.
    This concludes my testimony. I thank you for your leadership, and I 
will be pleased to answer any questions you may have.

    Senator Nelson. Thank you.
    Dr. Peck.

       STATEMENT OF DR. MASON PECK, CHIEF TECHNOLOGIST. 
         NATIONAL AERONAUTICS AND SPACE ADMINISTRATION

    Dr. Peck. Chairman Nelson, Ranking Member Boozman, and 
members of the Committee: Thanks for the opportunity to appear 
today to discuss NASA's research and development activities, 
with a focus on the agency's efforts in space technology. I 
look forward to working with each of you and the Committee on 
enactment of the President's Fiscal Year 2013 budget request 
for NASA and specifically in advancing technology and 
innovation at NASA.
    With the help of the Committee's leadership, NASA and the 
nation are embarking on an ambitious program of space 
exploration that builds on new technologies as well as proven 
capabilities as we expand humanity's reach into the solar 
system.
    Now, you'd agree NASA is part of the basic and applied 
research investments being made by the Federal Government 
across the nation as recognized by Congress in section 201 of 
the America COMPETES Reauthorization Act--I'll read it here for 
context: ``A renewed emphasis on technology development would 
enhance current mission capabilities and enable future 
missions, while encouraging NASA, private industry, and 
academia to spur innovation.''
    So focus on innovation and technology is essential, both to 
enable efficient and low-risk approaches to NASA's current 
missions, but also to allow the agency to pursue entirely new 
missions. NASA established the Office of Chief Technologist to 
reenergize NASA's technology development engine to ensure that 
the advanced technologies required for NASA's future missions 
will be in place by the time they're needed.
    The National Research Council, the NRC, emphasized the 
importance of a stable technology enterprise at the agency. 
They reviewed NASA's draft space technology roadmaps just this 
past year. The NRC wrote in their February 2012report that 
``Success in executing future NASA space missions will depend 
on advanced technology developments that should already be 
under way.'' The space technology program addresses this 
technology deficit.
    If NASA and the nation are to reach the goals set for us by 
this Congress, we must drive to innovate and we must elevate 
innovation to a high priority.
    My office works with all the NASA mission directorates and 
centers to ensure that NASA makes available agency-developed 
technologies, processes, discoveries, and knowledge to the 
private sector. Following up on Senator Boozman's comments, we 
are doing what we can to eliminate those roadblocks. The 
technology transfer and commercialization is conducted through 
a variety of means. That includes releasing licenses, forming 
partnerships, and through other cooperative activities.
    These transferred technologies are used to create products, 
services, cascading innovations, those that build on one 
another, and other discoveries to fuel the Nation's economic 
engine, creating jobs right here on Earth and improving our 
quality of life. For example, solar and wind-generated energy, 
the cameras found in many of today's cellphones, improved 
biomedical applications, including advanced medical imaging, 
just to name a very few, they've all benefited from our 
nation's investment in aerospace technology.
    The Office of the Chief Technologist is responsible for 
coordinating and monitoring and evaluating all the agency's 
prizes and design challenges that we conduct across the mission 
directorates. The agency has realized the value of prizes and 
challenges and we're one of the early adopters of this idea 
across the many research and technology domains that we're 
involved with. We engage the nation's citizen-inventors through 
our prize-based Centennial Challenges program in areas like 
satellite launch systems, advanced robotics, energy storage, 
greenaviation, advanced materials, wireless power generation, 
and the list goes on.
    The Office of the Chief Technologist also coordinates the 
agency's technology programs and manages specifically the space 
technology program. The good news here is that the program is 
up and running. We're putting Americans to work conceiving and 
testing the technology that will guarantee our future in space.
    The broadly relevant technologies that NASA pursues within 
the space technology program span a range of discipline areas 
and technology readiness levels, what we call TRL, from concept 
study all the way to flight demonstration, including technology 
demonstrations that are conducted on the International Space 
Station. Space technology development takes place using NASA 
centers, academia, and industry, and through partnerships with 
other government agencies, which we engage whenever we can, and 
also international partners. In all, the space technology 
program has funded roughly a thousand technology projects since 
its recent inception--that was 2011--and many of these projects 
have already got hardware to test and fly in 2013. So we're 
making real progress.
    In closing, let me just leave you with a couple of quick 
final thoughts. As a professor at Cornell University, I've had 
the honor of working with verytalented faculty and students 
over the years who share my passion for space. For most of the 
past decade, though, very few of us who have wanted to 
contribute to the Nation's civil space program have had the 
opportunity to do so through an academic environment. But since 
the Office of the Chief Technologist was established, NASA's 
been able to tap into the enormous enthusiasm for the agency's 
mission that we see from academia, industry, and the public.
    The desire to engage with NASA is really overwhelming, and 
we see this in the fact that NASA receives thousands more 
proposals to our space technology solicitations than it can 
possibly afford to fund.
    Our nation's future economic success is tied to our ability 
to out-innovate the rest of the world. NASA is an important 
part of this future. America expects boldness from NASA and 
we're now returning to our innovation roots, taking the long-
term view of technological advancement that's essential for 
accomplishing our missions. The space program is just the kind 
of pursuit that inspires Americans to innovate.
    Mr. Chairman, thank you for your support and that of this 
committee. I'd be glad to respond to any questions you and the 
other members may have.
    [The prepared statement of Dr. Peck follows:]

       Prepared Statement of Dr. Mason Peck, Chief Technologist, 
             National Aeronautics and Space Administration
    Mr. Chairman and Members of the Committee, thank you for the 
opportunity to testify on NASA's research and development efforts. 
Under the President's leadership, NASA and the Nation are embarking on 
an ambitious program of space exploration that builds on new 
technologies as well as proven capabilities as we expand humanity's 
reach into the solar system. While reaching for new heights in space, 
NASA is creating new jobs right here on Earth--especially for the next 
generation of American scientists and engineers--by supporting cutting 
edge aeronautics and space technology innovations, research and 
development that will help fuel the Nation's economy for years to come.
    Despite tough economic times, the Fiscal Year 2013 budget continues 
to implement the space science and exploration program agreed to by the 
President and a bipartisan majority in Congress, laying the foundation 
for remarkable discoveries here on Earth and in deep space, including 
new destinations such as an asteroid and Mars. We have made tough, but 
sustainable, choices to provide stability and continuity to existing 
priority programs and set the pace for opening the next great chapter 
in exploration.
    On a personal note, I am honored to be at NASA serving as its Chief 
Technologist. As the NASA Administrator's top advisor on technology, I 
am responsible for guiding strategic Agency investments in technology; 
facilitating technology transfer, partnerships and commercialization 
activities across the Agency; advocating externally on behalf of NASA's 
R&D programs; demonstrating and communicating societal impacts of NASA 
technology investments; as well as, the management and budget of the 
Space Technology Program. I come from Cornell University, where I also 
served on the faculty in the School of Mechanical and Aerospace 
Engineering and teach in Cornell's Systems Engineering Program. My 
background in aerospace technology, with nearly 20 years in both 
industry and academia, will help me to ensure NASA's technology 
portfolio addresses the near-term, mission-driven and the long-range, 
transformative technologies required to meet our Nation's far-reaching 
exploration goals.
    As requested, I am going to speak about NASA's prize programs and 
technology efforts and the activities of the Space Technology Program, 
in which I play a direct role, as well as technology activities 
throughout NASA in which I have an advisory role. Administrator Bolden 
will be discussing details of the Fiscal Year 2013 Budget request for 
NASA in his testimony to this committee tomorrow.
    NASA provides America with unique capabilities simply because of 
how we ask questions about our universe. By taking humans to 
inhospitable places we learn a little bit more about how Earth sustains 
us, because we have to recreate that environment for our astronauts to 
survive. NASA solves difficult technical problems and thereby inspires 
Americans to invent technologies that make life better right here on 
Earth.
    As recognized by Congress in Section 201 of the America COMPETES 
Reauthorization Act of 2010 (P.L. 111-358), ``a renewed emphasis on 
technology development would enhance current mission capabilities and 
enable future missions, while encouraging NASA, private industry, and 
academia to spur innovation.'' A focus on innovation and technology is 
essential, both to enable fresh approaches to NASA's current missions 
and to allow the Agency to pursue entirely new missions. NASA is fully 
engaged in support of the National Science and Technology Council and 
the Office of Science and Technology Policy to implement the 
crosscutting requirements of the Act. NASA has completed one of three 
NASA-specific reporting requirements and is on track to complete the 
remaining requirements in the June timeframe.
    Developing technological solutions stimulates the growth of the 
innovation economy. The safety, security, and convenience provided by 
weather and navigational spacecraft, efficiency improvements in both 
ground and air transportation, super computers, solar-and wind-
generated energy, the cameras found in many of today's cell phones, 
improved biomedical applications including advanced medical imaging and 
even more nutritious infant formula, as well as the protective gear 
that keeps our military, firefighters and police safe, have all 
benefited from our Nation's investments in aerospace technology.
    Those benefits are hard to quantify, but we know they are real. We 
see this with companies like GreenField Solar who developed PhotoVolt 
solar cells through cooperation with NASA's Glenn Research Center. When 
paired with StarGen solar concentrator which tracks and captures the 
sun's rays throughout the day, this system can concentrate sunlight up 
to 900 times its normal intensity. GreenField solar is now generating 
grid-scale solar power at a lower cost per kilowatt-hour than most 
existing photovoltaic systems. Bernard Sater, the GreenField Solar 
founder and former scientist at the NASA Glenn Research Center in Ohio, 
retired early from NASA in 1994 to develop this solar cell. He 
continued research in the lab at NASA Glenn, collaborating with experts 
through the development and testing phases of the process. The 
resulting technology has led to several Ohio demonstration projects, 
including the Rockefeller Park Greenhouse in Cleveland. U.S. job 
opportunities will increase as GreenField ramps up its 
commercialization efforts. NASA discoveries benefit every aspect of our 
lives. We see this in our smartphones, our cars, our airports, and even 
in my children's toothpaste. Thanks to this Administration and the 
Congress working together, the Agency will continue to ask the bold 
questions that lead to these technology benefits, or ``spinoffs'' as we 
call them at NASA.
    Investments in space and aeronautics technology stimulate the 
economy and contribute to the Nation's global competitiveness through 
the creation of new products and services, new business and industries, 
and high quality, sustainable jobs. According to the 2011 Aerospace 
Industries Association Year End Review, the U.S. aerospace industry 
experienced its eighth consecutive year of growth and maintained the 
largest trade surplus of any manufacturing industry. A technology-
driven NASA will maintain the Nation's aerospace community as a global 
technological leader for many years to come. NASA innovation also 
serves as an inspiration for young people to pursue science, 
technology, engineering, and mathematics (STEM) education and career 
paths.
    Each NASA mission takes years of planning and development to ensure 
its success. And every NASA mission has been made possible by pushing 
the technology envelope. NASA established the Office of the Chief 
Technologist to re-energize NASA's technology development engine to 
ensure the advanced technologies exist for NASA's future missions. The 
National Research Council (NRC) emphasized the importance of a stable 
technology enterprise at the Agency in its review of NASA's Space 
Technology Roadmaps. The NRC wrote in their February 2012 report, ``The 
productivity and the effectiveness of technology development programs 
are diminished when the direction, content, and/or funding of those 
programs abruptly change from year to year.'' If NASA and this Nation 
are to reach the goals set for us by this Congress, we must drive to 
innovate. The NRC made a stark observation, ``Success in executing 
future NASA space missions will depend on advanced technology 
developments that should already be underway.'' The Space Technology 
Program addresses this technology deficit. It reaches beyond today's 
missions to develop and demonstrate technology for infusion into future 
missions. In doing so, it also benefits the aerospace industry and 
other government agencies. At the same time, NASA's Mission 
Directorates continue to develop ``pull'' technologies, which are those 
solutions that target specific, near-term missions. With this balanced 
approach of near and farther-term investments, NASA is now able to meet 
the needs of today's missions while investing in the revolutionary 
advancements that will enable even more amazing achievements in our 
future.
    The space technology roadmapping effort that the NRC just finished 
reviewing aids NASA in formulating a balanced, cross-agency, technology 
investment perspective by identifying technology needs and overlaps, 
which will better ensure infusion of technologies into future missions 
conducted by NASA, industry or other Government users. The NRC engaged 
broad and crosscutting segments of our external stakeholders and the 
report's findings and recommendations represent a true consensus of the 
aerospace community. The NRC's final report provides guidance for 
future competitive and guided technology investments. NASA is 
investing, at some level, in all 16 of the high-priority research 
technologies referenced in the report. In 2012, OCT will lead an 
Agency-wide analysis and coordination effort to inform NASA's future 
technology investments on the basis of the NRC report. In addition, OCT 
will continue to work with NASA Mission Directorates and cross-Agency 
working groups to identify broadly applicable technology needs.
Space Technology
    The Office of the Chief Technologist (OCT) coordinates the Agency's 
technology programs, one of which is the Space Technology Program. The 
Fiscal Year 2013 budget requests $699 million for the Space Technology 
Theme. This request is driven by the needs of existing projects as 
teams across the Nation ready hardware to fly and test in Fiscal Year 
2013. OCT identifies development needs, prioritizes those needs 
according to stakeholder input, and reduces duplication to ensure that 
the Agency's resources are used wisely. By coordinating technology 
programs across NASA, OCT facilitates infusion of available and new 
technology into operational systems that ultimately advance specific 
human-exploration missions, science missions, and aeronautics 
capabilities.
    Within the Partnership Development and Strategic Integration 
account within Space Technology, OCT engages the larger aerospace 
community, including other Government agencies to develop partnerships 
and leverage shared resources and expertise, efficiently developing 
breakthrough capabilities. The Fiscal Year 2013 budget request includes 
$29.5 million to develop these partnerships, lead the Agency strategic 
roadmapping efforts as described above, and to manage NASA's technology 
transfer and commercialization. OCT works with all NASA Mission 
Directorates and Centers to ensure NASA makes available Agency-
developed technologies, processes, discoveries, and knowledge to the 
private sector. Technology transfer and commercialization is conducted 
through various means including releasing licenses, forming 
partnerships, and through cooperative activities. These transferred 
technologies are used to create products, services, cascading 
innovations, and other discoveries to fuel the Nation's economic engine 
and improve our quality of life.
    OCT is also responsible for coordinating, monitoring and evaluating 
all Agency prizes and design challenges conducted by NASA mission 
directorates using the authority seen in the America COMPETES 
Reauthorization Act of 2010. Since enacted, the Agency has realized the 
value of prizes and challenges across many of NASA's research and 
technology domains. For example, public innovators have improved our 
abilities to determine the shape of galaxies; identified algorithms to 
better process remote sensing data; and developed algorithms to aid 
NASA in quickly identifying and detecting impact craters within large 
volumes of data.
    OCT engages the Nation's ``citizen inventors'' through prize-based 
challenges in areas such as satellite launch systems, advanced 
robotics, energy storage, green aviation, advanced materials, and 
wireless power transmission. Prize authority from Section 304 of the 
Space Act facilitates the highly successful Centennial Challenge 
program. In 2011, the Green Flight Centennial Challenge drove 
advancement in aerodynamics, aircraft configuration design, power 
plants, and flight path planning leading to dramatic increases in the 
State of the Art for fuel efficiency and noise. Current Centennial 
Challenges include: Sample Return Robot, Night Rover and Nano-Satellite 
Launch.
    By offering prize awards NASA is acquiring technology and fostering 
innovation for the agency, dramatically increasing the number and 
diversity of minds tackling tough problems, and engaging a broad non-
traditional community of innovators ranging from professionals and 
small companies to backyard garage inventors.
    In managing the Space Technology Program (STP) this Committee 
authorized, OCT employs a portfolio approach, investing in both 
crosscutting and human exploration specific technology needs for the 
Agency. The broadly relevant technologies being pursued within STP span 
a range of discipline areas and technology readiness levels (TRL) from 
concept study to flight demonstration, including technology 
demonstrations conducted on the ISS. Space Technology development takes 
place using NASA centers, academia and industry, and through 
partnerships with other Government agencies and international partners. 
NASA also participates in national technology-development initiatives 
such as the National Robotics Initiative and the Advanced Manufacturing 
Partnership to increase opportunities for collaborative technology 
development. Investments include both competitively awarded and 
strategically guided activities to address long-term Agency technology 
priorities and technology gaps identified within the previously 
discussed Agency's space technology roadmaps.
    The development, testing, and evolution of an array of space 
technologies for human missions beyond low Earth-orbit (LEO), include 
propulsion, logistics and resupply, life sciences and human systems, 
communications, and many other areas, to safely extend human presence 
to multiple destinations throughout the solar system robustly, 
sustainably and affordably. Space Technology funds these technology 
efforts through Exploration Technology Development for which the budget 
request includes $202 million. Using these funds, NASA is working 
toward a Fiscal Year 2016 flight demonstration to test long-term 
storage and transfer capabilities for cryogenic fluids. Improved 
capabilities in this area, in combination with the Space Launch System 
heavy-lift vehicle, will bring deep-space exploration closer to 
reality. In addition, Boeing and a team of engineers from four NASA 
centers are working together to develop two large-scale, lightweight 
composite cryogenic propellant tanks for validation testing in Fiscal 
Year 2013 that promise to achieve weight and cost savings as compared 
to traditional aluminum lithium tanks and may be used on future heavy-
lift launch vehicles. The NASA Glenn Research Center is accelerating 
work on in-space propulsion, space power generation, and storage 
ground-based technology development efforts required to reduce risk for 
a future planned solar electric propulsion demonstration. These 
capabilities will enable efficient deep-space transportation that is 
required for deep-space human and scientific exploration.
    In addition, Space Technology invests in crosscutting technologies 
that could benefit human exploration, and also change the way science 
missions are conducted. These activities are funded through this 
theme's Crosscutting Space Technology Development account for which the 
request is $293.8 million.
    Crosscutting technology work in development includes several high 
priority efforts including the following activities:

  <bullet> at the Goddard Space Flight Center (GSFC) in Maryland, a 
        team is developing a laser-based, deep space communications 
        system that will revolutionize the way we send and receive 
        data, video and other information, using lasers to encode and 
        transmit data at rates 10 to 100 times faster than today's 
        systems, which will be needed for future human and robotic 
        space missions.

  <bullet> at the Jet Propulsion Laboratory (JPL) in California, a team 
        is developing a Deep Space Atomic Clock, which utilizes a key 
        component from the Johns Hopkins Applied Physics Laboratory. 
        When fully developed, this technology will dramatically improve 
        navigation and guidance in future deep-space missions and may 
        lead to an improved Global Positioning System (GPS) for use on 
        Earth.In partnership with the Human Exploration and Operations 
        Mission Directorate, a team at GSFC is pioneering the 
        technologies required for satellite servicing. When matured, 
        this technology will allow robotic spacecraft to repair, 
        refuel, relocate and service existing orbiting spacecraft; and

  <bullet> Space Technology is working with a L'Garde Inc. in Tustin, 
        CA to develop the largest solar sail ever flown. Once 
        developed, this propellant-free propulsion system will enable 
        the next generation space weather monitoring system.

    Space Technology is working closely with the Science and Human 
Exploration and Operations Mission Directorates on an integrated 
strategy for Mars exploration that will support science as well as 
human exploration goals. Entry, descent and landing (EDL) technology is 
one opportunity where collaborative development can enable future 
scientific and human planetary missions. Dramatic improvements must be 
made with EDL technologies to enable delivery of large science payloads 
to the polar regions of Mars, or to deliver critical infrastructure 
needed for extended human missions. Currently, at JPL and the Langley 
Research Center in Virginia, engineers are working to develop 
lightweight planetary entry systems that will enable large mass, high 
elevation and pinpoint landing capabilities required for Mars and other 
planetary destinations. These advanced technologies will be tested 
through balloon and rocket flights managed by the Wallops Flight 
Facility in Virginia. Also in Fiscal Year 2013, the Space Technology 
EDL teams will be analyzing the data returned from the instrumentation 
package installed in the heatshield of the Mars Science Laboratory 
entry vehicle after making its flight through the Martian atmosphere 
this August.
    The Space Technology theme also includes $173.7 million for the 
Small Business Innovative Research (SBIR) and Small Business Technology 
Transfer (STTR), which encourage small business owners to provide 
technical innovations. SBIR and STTR continue to support early stage 
research and development performed by small businesses through 
competitively awarded contracts. These programs produce innovations for 
both Government and commercial applications. SBIR and STTR provide the 
high-technology small business sector with an opportunity to develop 
technology for NASA, and commercialize that technology in order to 
provide goods and services that address other national needs based on 
the products of NASA innovation.
    In all, the Space Technology Program has funded roughly 1,000 
technology projects and engaged thousands of engineers and 
technologists since its inception in 2011. Many of these projects have 
hardware ready to test and fly in Fiscal Year 2013 as they mature their 
technology for infusion into a future mission or capability.
International Space Station
    The International Space Station is fully complete. Many consider it 
to be one of humanity's greatest technological achievements. Its state-
of-the-art research facilities support a wide variety of research 
disciplines. Examples include high-energy particle physics, Earth 
remote sensing and geophysics experiments, protein crystallization 
experiments, human physiology research (including bone and muscle 
research), radiation research, plant and cultivation experiments, 
combustion research, fluid research, materials science experiments, and 
biological investigations. The three major science laboratories aboard 
the ISS--the U.S. Destiny, European Columbus, and Japanese Kibo 
facilities, along with external test beds--enable astronauts to conduct 
experiments in the unique, microgravity and ultra-vacuum environment of 
LEO, experiments that simply cannot be conducted on Earth. The range of 
research disciplines that ISS supports means that R&D conducted aboard 
Station promises new discoveries not only in areas directly related to 
NASA's exploration efforts, but in fields that have terrestrial 
applications, as well. The ISS will provide these opportunities to 
scientists, technologists and engineers through at least 2020. For 
example, a Space Technology team at the Johnson Space Center in Texas 
is working to build on the Robonaut 2 demonstration on ISS and further 
the Agency's development of next-generation tele-robotics systems. In 
addition, Space Technology is using the SPHERES satellites on ISS to 
demonstrate autonomous rendezvous and docking techniques and liquid 
slosh dynamics which serves to validate mission design for both 
spacecraft and launch vehicles.
    In the NASA Authorization Act of 2010 (P.L. 111-267), Congress 
directed that the Agency enter into a cooperative agreement with a not-
for-profit organization to manage the activities of the ISS National 
Laboratory. Last fall, NASA finalized an agreement with the Center for 
the Advancement of Science in Space (CASIS) to manage the portion of 
the ISS that operates as a U.S. National Laboratory. CASIS will be 
located in the Space Life Sciences Laboratory at the NASA Kennedy Space 
Center. This independent, nonprofit, research-management organization 
will help ensure the Station's unique capabilities are available to the 
broadest possible cross-section of U.S. scientific, technological and 
industrial communities.
    CASIS will develop and manage a varied R&D portfolio based on U.S. 
national needs for basic and applied research, establish a marketplace 
to facilitate matching research pathways with qualified funding 
sources, and stimulate future interest in using this national lab for 
research and technology demonstrations and as a platform for science, 
technology, engineering and mathematics education. The goal is to 
support, promote and accelerate innovations and new discoveries in 
science, engineering and technology that will improve life on Earth.
    In addition to the direct research benefits to be gained by the ISS 
as a National Laboratory, this innovative arrangement also supports 
NASA's effort to promote the development of a LEO space economy. 
National Lab partners can use the unique microgravity environment of 
space and the advanced research facilities aboard Station to enable 
investigations that may give them the edge in the global competition to 
develop valuable, high technology products and services. Furthermore, 
the demand for access to the ISS will support the providers of 
commercial crew and cargo systems. Both of these aspects of the ISS as 
a National Laboratory will help establish and demonstrate the market 
for research in LEO beyond the requirements of NASA.
Technology in Human Exploration
    Consistent with NASA's technology roadmaps, the Advanced 
Exploration Systems (AES) Program within the Agency's Human Exploration 
and Operations Mission Directorate (HEOMD) is pioneering new approaches 
for rapidly developing prototype systems, demonstrating key 
capabilities, and validating operational concepts for future human 
missions beyond Earth orbit. AES activities are uniquely related to 
crew safety and mission operations in deep space, and are strongly 
coupled to vehicle development in the immediate future. While the Space 
Technology programs are focused on demonstrating particular 
technologies, AES focuses on early integration and testing of prototype 
systems. Both Space Technology and AES activities seek to reduce risk 
and improve affordability of exploration mission elements. The 
prototype systems developed in the AES program will be demonstrated in 
ground-based test beds, field tests, underwater tests, and flight 
experiments on the ISS. Successful prototypes will evolve into larger 
integrated systems and mission elements that will be tested on ISS 
before we venture beyond Earth orbit.
    In addition to developing building blocks for future missions, the 
AES and Space Technology programs are exploring innovative ways to 
drive a rapid pace of progress, streamline project management, and use 
NASA's resources workforce more effectively. By using small, focused 
projects to rapidly develop and test prototype systems in house, NASA 
expects to greatly reduce lifecycle costs and minimize the risk of 
incorporating new technologies into system designs.
    The AES and the Space Technology Programs work closely together to 
incorporate and integrate new technologies and innovations as they are 
matured to the point of infusion. The AES Program is also working 
closely with NASA's Science Mission Directorate to pursue a joint 
program of robotic precursor activities that will acquire critical data 
on potential destinations for future human missions such as the Moon 
and Mars and its moons. This program builds upon the successful 
collaboration between science and exploration on the Lunar 
Reconnaissance Orbiter mission.
NASA Aeronautics Technology
    NASA continues to lay the foundation for the future of flight by 
exploring new ways to manage air traffic, build more fuel-efficient and 
environmentally friendly airplanes, and ensure aviation's outstanding 
safety record. Through the research we conduct and sponsor with 
universities and industry, we help to develop the technology that 
enables continuous innovation in aviation.
    Aviation is an integral part of our daily lives, a critical part of 
the foundation of our economy, and a source of strength in the global 
market. Technological superiority has been a key enabler for the U.S. 
aerospace manufacturing industry to be the world leader in the aviation 
sector. In this time of continuing economic challenge, the aviation 
industry provides high-tech, highly rewarding, and high-paying jobs 
that Americans are proud to have.
    U.S. companies currently enjoy strong positions in the global 
commercial aerospace market, including manufacturers of large civil 
aircraft, engines, business jets and helicopters, as well as 
structures, components and electronics. NASA-developed technologies are 
in the DNA of many of the civil and military aircraft the U.S. industry 
has developed and marketed to date. Boeing, General Electric and Pratt 
& Whitney have all introduced highly competitive products in the last 2 
years. With the introduction of these new products, the U.S. 
manufacturers appear to be well positioned in the large commercial 
transport market for some time to come. However, this is not a 
guarantee and careful attention to aeronautics investment is required 
to maintain U.S. leadership in this area.
    We continue to invest in aeronautics Research and Development, 
recognizing its potential to address emerging challenges and enable 
innovative capabilities in the next generation of products. These new 
capabilities could result in substantially more energy-efficient, 
significantly less polluting, and considerably quieter subsonic 
transport through completely new designs.
    NASA is investing in cutting edge research to accelerate 
implementation and enhance the capabilities of the Nation's Next 
Generation Air Transportation System (NextGen) in partnership with the 
FAA and other Joint Planning and Development Office partners. With our 
partners, we are investing in critical areas of research such as new 
air traffic management concepts for new fuel-efficient arrival 
procedures. And we are leading the country with a vision and 
revolutionary capabilities for the Nation's future air transportation 
system, researching concepts and technologies that may provide the 
foundation for future commercial products and services brought to the 
market.
    We transfer the results of fundamental and systems-level 
aeronautics research to the aerospace community through dissemination 
of research results, concepts, and design methods. In some instances, 
companies may build on specific technologies and capabilities developed 
through NASA research, investing their own research and development 
dollars to take those last steps to become a commercialized product. In 
other instances, NASA provides design methods and understanding used by 
companies in developing new products. By maturing new technologies and 
validating design methods, NASA research can decrease the risk of 
incorporating new technologies and systems in aircraft, shortening the 
path through safety certification in the Federal Aviation 
Administration and speeding the transition of new technologies into the 
fleet.
    U.S. companies are well positioned to build on discoveries and 
knowledge resulting from NASA research, turning them into commercial 
products, benefiting the quality of life for our citizens, providing 
new high-quality engineering and manufacturing job opportunities, and 
enabling the United States to remain competitive in the global economy. 
Concept simulations and field trials in real flight environments of 
NASA developed technologies have demonstrated the potential for 
significant monetary savings to airspace users through reduction in 
flight delays and fuel usage.
Technology Research & Development to Enable Scientific Discovery
    NASA's Science Mission Directorate (SMD) develops and operates 
innovative space missions that push out the frontiers of scientific 
knowledge of the Earth, the Sun, our solar system, and the universe 
beyond. In Earth Science, the challenge is to be able to detect a small 
but influential signal of change against a background of much larger 
short-term variability. Through technological advances we have been 
able to measure millimeter changes in global ocean surface height, and 
distinguish the influence of solar variability from other factors 
driving atmospheric warming. In Heliophysics, we have been able to do 
what your mother told you never to do--stare at the Sun--to observe the 
connections between coronal mass ejections and aurorae over Earth's 
poles. In Planetary Science, development of Advanced Stirling 
Radioisotope Generators promise to power spacecraft operating in deep 
space with one-sixth the amount of plutonium-238 as conventional 
radioisotope power systems. In Astrophysics where the challenge is to 
peer ever deeper into the universe and farther back in time, large 
segmented mirrors, sensitive optics that operate at 40 Kelvin, and a 
host of other technologies are enabling us to build the James Webb 
Space Telescope. These missions require technologies that in many cases 
would not be developed otherwise--some of which find applications not 
imagined by their inventors.
    The technologies SMD develops and employs span the full range of 
the process of scientific discovery, from theory and mission design to 
science data processing and distribution. They include spacecraft 
components and systems, scientific instruments, and advanced 
information technologies. Spacecraft technology has advanced 
sufficiently that we can acquire standard spacecraft buses for many 
Earth observing missions from industry, and our technology focus here 
is on areas such as on-board data processing, formation flying, and 
autonomous operations that enhance scientific productivity and 
operational utility. For planetary exploration and astrophysics, 
however, spacecraft and instruments are much more integrated and more 
specialized, requiring technology advances in power, propulsion, 
stability, deployment, communications, and radiation protection, among 
others. For all SMD science areas, science instruments are ``the pointy 
end of the spear'' of space missions, and technology advances are 
continually required on all fronts. This is the largest area of SMD 
technology investment. To enable instrument technology development, SMD 
uses suborbital research platforms (sounding rockets, aircraft, and 
balloons) to test instruments as prototypes of those that will 
eventually fly in space. Advanced information technologies include 
high-end computing (where software must be written to make effective 
use of industry's leading supercomputers), and data mining capabilities 
to enable knowledge to be efficiently derived from enormous data sets.
    SMD develops technologies for its science missions largely through 
open, competitive solicitations to garner the best ideas from industry, 
academia, and other government laboratories. SMD's annual Research 
Opportunities in Space and Earth Sciences (ROSES) solicitation includes 
specific, scheduled calls for technology development proposals in 
defined areas of need. In addition, targeted technology investments are 
made in such areas as Advanced Stirling Radioisotope Generators (ASRGs) 
when specific partnerships are required. Generally, SMD develops 
technologies outside of mission projects, and mission projects are not 
confirmed to proceed to development until required technologies are 
sufficiently mature. In addition, SMD uses the attached payload 
accommodations on ISS to provide the environment and resources for 
science experiments making specific atmospheric, Sun-Earth interaction, 
and astrophysics observations compatible with ISS's orbital inclination 
and altitude. Technology is the great enabler of NASA science missions, 
and thus of discovery in the Earth and space sciences and NASA's impact 
on our Nation's economy, environment, and education goals.
Conclusion
    America is beginning an exciting revolutionary new chapter in human 
space exploration and scientific discovery. This chapter centers on 
full use of the International Space Station, maturation of multiple 
American vehicles for delivering astronauts and cargo to low-Earth 
orbit, and development of a crew vehicle and an evolvable heavy-lift 
rocket--two essential building blocks for our Nation's future in deep-
space exploration. NASA is moving forward with the James Webb telescope 
and will be exploring Mars later this year with the highly capable 
Curiosity rover. The rapid development and infusion of new in-space 
technologies is critical to advancing our future in space. They will 
enable explorers to safely venture into deep space for the first time.
    Pushing the boundaries of aeroscience and taking informed-risks, 
NASA and our Nation remain at the cutting-edge. By making steady 
investments in technology, we will enable future human and robotic 
exploration of near-Earth asteroids, the Moon, and Mars just as current 
and past mission successes were supported by decades of vital 
technology investments.
    Investments in research and development enable new missions, 
stimulate the economy, contribute to the Nation's global 
competitiveness and inspire the Nations' next generation of scientists, 
engineers and explorers. As a professor at Cornell University, I have 
had the honor of working with talented faculty and students who share 
my passion for space. For most of the past decade, very few of us who 
have wanted to contribute to the Nation's civil space program have had 
the opportunity to do so. Since OCT was established, NASA is tapping 
into the enormous enthusiasm for the Agency's mission we see from 
academia, industry, and the public. The desire to engage with NASA is 
overwhelming. We see this in the fact that OCT receives thousands more 
proposals to its solicitations than it can afford to fund. And I have 
seen it personally, in the hundreds of students who have worked with me 
on two university-built satellite projects.
    NASA must continue to cast a wide net to bring in the best ideas, 
wherever they may be found. A NASA focused on advancing technology 
helps ensure that high-tech jobs will be available for these young 
people when they complete their studies. And in sponsoring this sort of 
research and development, it will do its part to encourage the next 
generation of aerospace engineers, ensuring that our Nation retains the 
critical capabilities in advanced technology that will ensure its 
economic competitiveness.
    Two weeks ago the Nation celebrated the 50th anniversary of Senator 
John Glenn's historic orbital flight. Only a few months before the 
historic flight of Friendship 7, President Kennedy gave the Nation a 
grand challenge to land a human on the Moon and return them safely back 
to Earth. It was a bold goal that would provide the ultimate challenge 
to our Nation, and forced us to ``organize and measure the best of our 
energies and skills.'' It required NASA to tackle enormous 
technological unknowns by utilizing American ingenuity and innovation. 
In accomplishing the goal, a whole generation of engineers and 
scientists introduced the term ``rocket science'' into American popular 
culture and made a lasting imprint on the economic, national security 
and geopolitical landscape.
    America can do the same today. Our Nation's future economic success 
is tied to our ability to out-innovate the rest of the world. NASA is 
an important part of this future. America expects boldness from NASA. 
We are now returning to our innovation roots, taking the long-term view 
of technological advancement that is essential for accomplishing our 
missions. America expects no less.
    Mr. Chairman, thank you for your support and that of this 
Committee. I would be pleased to respond to any questions you or the 
other Members of the Committee may have.

    Senator Nelson. Thank you all.
    Mr. Chairman, your questions, please.

           STATEMENT OF HON. JOHN D. ROCKEFELLER IV, 
                U.S. SENATOR FROM WEST VIRGINIA

    Senator Rockefeller. Am I allowed to ask them or should I 
just hand them to you?
    Let me say first of all that the reason I'm actually not 
here because I'm somewhere else, but I couldn't not be here 
with the four of you here. I mean, starting with this guy right 
over here, John Holdren, just all the way through--absolutely 
the top of all of our science and technology and innovation 
agencies, probably leaving one or two out. But I just had to be 
here for that.
    Having said that and having agreed that America COMPETES as 
an Act had three kind of goals and one was the doubling of 
Federal R&D investments in science and education, and second 
strengthening STEM education, and developing a research and 
innovation infrastructure--so that in my short time here, Dr. 
Suresh, makes me want to ask you a question. That's about 
cybersecurity. Cybersecurity is very interesting. Olympia Snowe 
and I came out with our bill, not alone, 3 years ago, and it's 
still being--that and other bills, common sense, et cetera, are 
still being talked about.
    The point is we haven't done anything. I think it's always 
pretty easy to look at Congress as a reason that nothing's 
gotten done, because we've been in something of a turmoil 
recently.
    But I want to make sure that the National Science 
Foundation is involved, and I am interested in what you think 
that you can do to help tackle cybersecurity. And then I have a 
follow up question for that.
    Dr. Suresh. I'm very happy to answer, Chairman Rockefeller. 
In the 2013 budget request, we have a program that is a broad 
umbrella, STC, ``Secure and Trustworthy Cyberspace'' that 
invests about $110 million and involves several directorates 
within NSF: the Computer and Information, Science and 
Engineering directorate, the Social, Behavioral, and Economic 
Sciences directorate, the Engineering directorate, the Office 
of Cyber Infrastructure, and several others. It funds basic 
research that keeps the enormous amount of activity that we 
have in cyberspace secure.
    That, coupled with CNCI, the Comprehensive National 
Cybersecurity Initiative, which is funded to the tune of about 
$57 million in partnership with other agencies, including the 
Department of Homeland Security, provides an opportunity for us 
to look at how we can make the cyberspace secure with the kinds 
of things that NSF does.
    So these investments are on the research frontiers, 
creating new knowledge, new mechanisms, so that we can always 
stay a step ahead of those who want to make the cyberspace less 
secure. In addition to that, NSF for the last decade has been 
funding a program called Scholarship for Service. This is a 
program which two years ago was funded at a level of $15 
million per year. The objective of this program is to train 
people who will go into professional service for the Federal 
Government, who can be participants in--who can be our 
champions--for cybersecurity.
    Since 2001, about 1,200 students have graduated from this 
program, and I'm told that more than 90 percent of them have 
joined Federal service. In 2013, our request is for $25 million 
to support this program.
    So those are examples of activities that we have. 
Cyberinfrastructure Framework for the 21st Century is one of 
the flagship programs at NSF, which started in Fiscal Year 
2012, and we are placing a significant emphasis on it for 
Fiscal Year 2013.
    Dr. Holdren. Could I add something to Dr. Suresh's answer?
    Senator Rockefeller. Please, Dr. Holdren.
    Dr. Holdren. The networking and information technology R&D 
program is a program under the National Science and Technology 
Council that actually links the work of 15 Federal agencies in 
the cyber domain. The cybersecurity part of that effort, which 
includes some of what Dr. Suresh was talking about, is actually 
up in the President's 2013 request to $667 million from $590 
million in Fiscal Year 2012. That increase involves increases 
at NSF for the programs that Dr. Suresh was talking about, a 
$12 million increase at DOD, a $24 million increase at DARPA, 
$18 million at Department of Homeland Security.
    We're really putting effort into this. We released in 
December of last year, December 2011, a Federal strategic R&D 
plan for cybersecurity and information assurance, called 
``Trustworthy Cyberspace: Strategic Plan for the Federal 
Cybersecurity R&D Program,'' which really lays out a roadmap 
for what we need to do, again including but far from limited to 
what Dr. Suresh was talking about.
    There really is a lot going on in this domain. Of course, 
we are grateful for your having introduced, with some others, 
some cyber legislation. We're very eager to work with you on 
advancing legislation that will help us move this whole agenda 
forward.
    Senator Rockefeller. Thank you. Thank you very much, Dr. 
Holdren.
    Nevertheless, with what you say about what NSF is doing, it 
is specifically not included in something that interests me, 
which I don't know enough about, in the President's budget 
request related to, quote, ``science of security and the 
science of cybersecurity'' for the networking and information 
technology R&D program.
    Now, I want you to explain to me why this is, if you feel 
that way, not helpful. I believe that NSF should be using its 
resources to push advances in both science of security and 
science of cybersecurity. So what's your read on that?
    Dr. Suresh. My understanding, Chairman, is that the 
definitions for ``science of security'' in that particular 
chapter that you are referring to arose because of semantic 
differences. So NSF is doing a lot of work--in fact, I'm told 
that in a later section NSF's activities are indeed included. 
So I'll be happy to get back to you with more detail on that.
    Senator Rockefeller. I may be worrying about nothing?
    Dr. Suresh. If not, we'll make sure we'll fix it.
    Senator Rockefeller. Good, because I have the word ``not'' 
circled in black and red.
    Dr. Suresh. My understanding is that a lot of this hinges 
on semantics issues. So I'll be able to get back to you with a 
specific answer.
    Senator Rockefeller. Good, good. I'm very grateful for 
that.
    [The information submitted by NSF follows:]

    NSF plays an important role in Science of Security R&D, and its 
areas of research are included under the Cross-Cutting Foundations 
subheading under Science of Security (see page 19, NITRD Supplement to 
the President's FY 2013 Budget). NSF's FY 2013 Budget Request to 
Congress also outlines these cybersecurity investments within its 
Secure and Trustworthy Cyberspace activities (see page NSF-Wide 
Investments--38).
    We appreciate that the structure of the presentation in the NITRD 
Supplement to the President's FY 2013 Budget (pages 18-19) does appear 
to understate NSF's role under the Science of Security subheading. The 
first section under this subheading lists only those agencies that have 
specific programs with ``Science of . . .'' in the titles of the 
programs; those listed are ``Science for Cybersecurity,'' ``Science of 
Security,'' and ``Science of Information Assurance.'' Within the same 
section, however, under the Cross-cutting Foundations subheading, NSF's 
role in advancing the scientific foundations of cryptography, models, 
and foundations of trust research is mentioned, and these research 
areas are considered to be part of the Science of Cybersecurity. As 
noted above, these areas also provide the framework for the proposed FY 
2013 activities under NSF's Secure and Trustworthy Cyberspace 
investment.

    Senator Rockefeller. I have lots of questions I'd like to 
ask.
    Senator Nelson. Please.
    Senator Rockefeller. No, no.
    Senator Nelson. Go ahead.
    Senator Rockefeller. No, no. I've basked in the glory of 
these four wonderful people and the subject.
    Senator Nelson. Well, please stay because your questions 
are excellent.
    By the way, Senator Rockefeller and I have the privilege of 
being on the Intelligence Committee and cybersecurity is an 
enormous concern. The amounts that you mentioned, Dr. Holdren, 
seem paltry by virtue of what we have to do. Now, basically our 
national security computers are secure, but tomorrow at that 
witness table, I will be asking General Bolden about intrusions 
into NASA's computer systems, and it's happened in other 
agencies as well. But it happened in NASA about 6 years ago as 
well, including the theft of rocket designs.
    This isn't even getting to the private sector. You get to 
the private sector, the banking system, the electrical systems, 
the water systems, whatever it is. And of course, it's not just 
state actors out there that are the threats. It's also these 
rogue people that are quite good at cyber intrusion.
    So this is a real problem and, Mr. Chairman, thank you for 
raising it.
    Senator Boozman.
    Senator Boozman. Thank you, Mr. Chairman.
    I have a question for you, Secretary Suresh, that I have 
mentioned to our full chairman, Chairman Rockefeller. As you 
know, Arkansas in conjunction with many other States such as 
West Virginia benefits tremendously from the EPSCoR program. 
The program allows research institutions in my State and other 
smaller States to have a fair chance at competitive research 
grants from the NSF and NASA.
    Will this program continue to be a priority, and what 
benefits to NSF's research mission has EPSCoR provided?
    Dr. Suresh. The EPSCoR program, I personally believe, and 
this is one of the aspects of the EPSCoR program, is that good 
ideas happen everywhere and we want to make sure that good 
ideas are captured and nurtured and supported. This is the 
spirit behind NSF's program.
    Currently we have 29 EPSCoR territories, 27 states, the 
U.S. Virgin Islands, and Puerto Rico, which are supported by 
this. In fact, under Chairman Rockefeller's leadership 
recently, we held a visioning exercise called EPSCoR 2030. As 
part of this effort, we've been looking at how to make the 
EPSCoR program really strong. There are a number of responses 
that I can give you. Let me just give a few examples. Many of 
these EPSCoR states also have activities, including community 
colleges, that reside in areas where underrepresented groups 
come from. We want to make sure, given the future need for 
scientific workforce in the country, that we make enough 
opportunities available to these groups. So the EPSCoR program 
is a very important part of NSF's activities and we look 
forward to the report from the EPSCoR 2030 symposium that was 
just held. Dr. Holdren and I participated in that symposium 
just about a month or so ago, and we want to make sure that the 
recommendations that emerge are looked at, and within NSF we'll 
try to integrate them into many of our activities.
    Senator Boozman. Good. I think the comment that you alluded 
to, that good ideas come from everyplace, is certainly true.
    Secretary Gallagher, as I mentioned in my opening 
statement, I am concerned regarding the mandatory spending in 
NIST budget. In particular, there's $1 billion being spent for 
the national network for manufacturing innovation. The details, 
though, regarding as to how the program would work are sketchy. 
So I'd like for you to elaborate on that a little bit.
    Then also, could you provide more detail as to why the 
program was proposed as a mandatory funding mechanism?
    Dr. Gallagher. Thank you. I'm going to try to answer your 
question, but I'm going to confess I may not fully satisfy your 
curiosity.
    The mandatory program for a National Network of 
Manufacturing Innovation is proposed as a mandatory because I 
believe it is a one-time investment, rather than an ongoing 
appropriation. The focal point of that effort is really to try 
to catalyze private sector investment in R&D-intensive 
industry. So the details, the reason they are sparse is because 
the program hasn't been fully announced, and we're expecting 
that to be done very shortly. So what I will promise to do is 
get right back with you with those details as soon as that 
comes out.
    Senator Boozman. Let me ask you also, from your agency's 
viewpoint, what is the greatest challenge to maintaining the 
NIST labs' technical preeminence--and it is preeminent--in 
standard-setting?
    Dr. Gallagher. The preeminence at NIST really comes from 
two things, I think. One is a commitment to doing forefront 
measurement science, and I think our mission really gives us 
the mandate to operate in that environment. So that has the 
advantage of being very attractive to the top scientists in the 
world who want to come work with us.
    But the other ingredient that we have is the relevance. 
It's actually--it sounds corny--but it's the public service. 
It's the application of that science to make a difference. We 
find over and over again that even in areas where we are not 
competitive with salary structures or other incentives that are 
being given to these scientists, that they still choose to come 
to NIST and in many cases stay at NIST. Our three Nobel Prize 
winners, I find not only was that a remarkable achievement for 
three Federal employees to win Nobel Prizes, but they all 
elected to stay at NIST after those Nobel Prizes, in spite of 
very aggressive efforts to recruit then elsewhere--and I 
believe when I talked to them it was because of the importance 
of the work and the support they received to do it. So I think 
that's been the most essential aspect of our ability to operate 
effectively.
    Senator Boozman. Thank you, Mr. Chairman.
    Senator Nelson. Mr. Chairman, you had another question.
    Senator Rockefeller. Actually, I do.
    I think you said that 90 percent--and now you have to tell 
me of what group--stayed in public service, because I want to 
explore that with you. I'm so happy about that.
    Dr. Suresh. It is a program that's offered through our EHR 
directorate at NSF, called Scholarship for Service. The program 
in 2011 was a $15 million program. In 2012 it was increased to 
$45 million. In 2013 we have requested $25 million, for a 
variety of strategic reasons, which I'll be able to give you if 
you're interested.
    This program has been in existence for about ten years. If 
my memory about numbers serves me correctly, we've had about 
1,200 graduates of this program, and I'm told that the vast 
majority of them--again, I don't know the exact number--
something on the order of 90 percent or so, chose to go into 
Federal service. This is part of the mission of the program 
itself.
    Senator Rockefeller. You see, I think that it is so 
interesting and so important to put that on the record. I was 
in a Finance Committee meeting this morning because we were 
discussing tax loopholes and this kind of thing. What came out, 
to my surprise, is that people need jobs and there are so many 
jobs that can be filled.
    Now, if there are people who have your skills then it's 
much more elite. You get much more loyalty and you get much 
more reward for it, even in the public. It's kind of an 
``honored by the Nation'' type of thing.
    But I was surprised when they told me that--we were 
discussing tax credits for bringing companies, encouraging them 
to train their workers, like Toyota does. They have a very big 
plant in my state that keeps expanding. Once they discovered 
West Virginia was not still a part of Virginia and they built a 
plant there--that took years--it's never stopped expanding.
    These are people who don't have--they're not your folks. 
They're just hard-working people that are young enough, in 
their 20s and 30s, maybe early 40s, to be taught. They bring 
with them the computer skills, but not the beyond-that skills 
to make a Lexus engine, which they do there. I mean, that's a 
very advanced type of work.
    And they tend to be very loyal. On the other hand, Toyota 
makes sure of that because they really invest in on-the-job 
training. They want it to be done the Toyota way, which is fine 
with me since that's the name of the company, and they take 
people for a month, a month and a half, two weeks, over to 
Japan and run them through their training programs over there 
which they've set up for American workers.
    But this ferocious desire to see people get trained on the 
job, it really pays off for Toyota. They don't lose people. 
That's one reason they keep expanding, because they can count 
on that workforce.
    On the other hand, if you take that across the American 
business enterprise world, they told me that, you know, the 
average job, the turnover would come somewhere after 6 years, 
which surprised me because I would think that people would want 
to hold onto jobs. And then they said that really, they didn't 
really do worker training, upgrading their skills, because they 
didn't think they were going to hold onto the workers long 
enough to make it worth their while, which is--you talk about 
two totally different philosophies. There's that and there's 
what you're talking about.
    Dr. Holdren, I just think that's a wonderful problem to be 
solved by OSTP. I don't know how it's done, but in a job-poor 
country, but a job opportunity-rich country, increasingly so, 
people should be hungry for this. They go into your fields, 
they bring with them the confidence and the high standards of 
magnificent training and brains and all of those things which 
are part of your esprit de corps.
    But it's just the comparison. I'm not really asking for an 
answer. But have you ever thought about that, Dr. Holdren? It 
just bothers me enormously. The assumption by corporate America 
that their people aren't going to stay fulfills itself because 
of things that they decline to do.
    Dr. Holdren. Well, Chairman Rockefeller, we are actually 
working on that. We're aware of it. We're troubled by it, as 
you are, and we're working with the leadership of a lot of 
American corporations, who actually are recognizing their 
workforce problem. I mean, they understand now that they have 
difficulty recruiting the technical talent and the technically 
skilled workforce that they need to manufacture their products, 
and they are taking an introspective look at why that is.
    And we're working with them, including on getting them 
together with community colleges to develop community college 
curricula that are matched to the needs of the employers in the 
region, which we think will increase retention very 
substantially.
    Senator Rockefeller. OK, that's good.
    It was interesting also--and I apologize, Mr. Chairman--I 
think one-half of all of the companies that put to use the 
research and development tax credit, which I would like to see 
front-loaded, but the economists tell me that would not be 
productive, I'm not persuaded by that yet--but they just said 
that they couldn't get them interested. It's a little bit like, 
it's the major kind of internal problem facing working 
Americans, just as the cybersecurity threat is the major 
problem facing living Americans everywhere and the rest of the 
world.
    We recognize it, we're working on it, but we haven't done 
anything about it. And I hope that all comes to a halt soon. 
And again, thank heavens for all of you.
    Dr. Holdren. May I offer an addition on the cybersecurity, 
because I want to make clear that the $667 million I mentioned 
is for unclassified research and development in cybersecurity. 
The classified R&D number is not published. The total amount of 
activity in operations and deployment of cybersecurity defenses 
is also not published. We don't know what that, what thattotal 
is.
    But I didn't want to leave the misimpression that $667 
million is the total that the United States is spending on 
cybersecurity. It's not. That's just the unclassified R&D.
    Senator Rockefeller. Duly noted.
    Dr. Holdren. And we are looking very carefully on the 
classified side at the adequacy of what we're doing and whether 
there are breakthrough ideas that could be brought to bear that 
would improve the situation, because we very much share the 
concern of the Committee that this is a very big threat.
    Senator Rockefeller. That's the cyber side, but on the 
other side, manufacturing is so much of what the America 
COMPETES Act is about. And there you have a record which is not 
as good. It's a little bit like--and I really promise to leave 
after this sentence--like the movie ``Too Big to Fail'' or the 
book, that we gave these nine banks $125 billion--I voted for 
it--through TARP, and the idea was they were going to help with 
mortgages. That was the idea, that's what they'd spend it on.
    And there were just all these conniptions back and forth 
passing that. It just barely, barely got through. The House 
voted it down, then voted it up 3 days later. And at the end of 
the day, these nine big banks receiving $125 billion--they 
didn't need cash. They had that. They didn't need assets. But 
the point was for them to sort of shield smaller banks so that 
the financial system as a whole would not collapse.
    They succeeded in the second, but they spent not a dime on 
housing mortgage problems. It all went into compensation. And 
that's what's so discouraging, I think, and I think that's so 
much the opposite of what kind of people and habits that you 
all are talking about.
    So, with that Confucian thought, I depart.
    Senator Nelson. Thank you, Senator Rockefeller.
    Senator Pryor.

                 STATEMENT OF HON. MARK PRYOR, 
                   U.S. SENATOR FROM ARKANSAS

    Senator Pryor. Thank you, Mr. Chairman, and thank all three 
of you for your leadership on these issues. It's very 
important.
    If I may, I'd like to start with Dr. Holdren, and I want to 
thank you for your little shout-out in your opening statement 
about prizes and the prize authority, and I appreciate that. 
Can you give the Subcommittee here some examples or at least 
one example of how the prize authority is being used today, and 
also if you have any suggested changes to improve the program?
    Dr. Holdren. Well, thank you very much, Senator Pryor. 
Again, I think thanks are due to you and to Senator Warner 
particularly for being so instrumental in providing prize 
authority, expanded prize authority across theagencies.
    We actually have made a lot of progress. Although this 
COMPETES prize authority is only a year old, a lot has already 
happened. The most ambitious project launched by any agency 
under that prize authority is the Health and Human Services 
Investing in Innovation Initiative, which is a $5 million 
program to spur innovation in health information technology.
    Senator Pryor. Is that one $5 million prize or is it a 
series of prizes?
    Dr. Holdren. I believe that it's divided into a number of 
prizes. I'd have to get back to you on the details.
    The Veterans Administration has been very active in that, 
in that domain. There have been some extremely interesting 
actual results of prize competitions. The Air Force Research 
Laboratory had a design competition to stop fleeing vehicles, 
which has been a vexing problem for a very long time, and a 66-
year-old retired mechanical engineer in Lima, Peru, came up 
with the winning idea, which is a remarkable device that 
accelerates from zero to well over 100 miles an hour within 3 
seconds, positions itself under a fleeing car, and inflates a 
giant air bag to lift it off the ground and then bring it to a 
stop.
    NASA has been--I really should let Dr. Peck talk about 
this, but NASA has been very energetic and successful with 
prize competitions. They had a prize competition to demonstrate 
a super-fuel efficient full-scale aircraft. Two winning teams 
exceeded the performance requirements by a factor of two, both 
flying more than 200 miles on the energy equivalent of half a 
gallon of gasoline, averaging 100 miles an hour and carrying 
two people.
    The potential in this prize domain is enormous. It reaches 
a much greater reservoir of creativity than our traditional 
approaches to funding. It brings interdisciplinary teams into 
being that compete for these things. You pay only for results, 
and in a number of these competitions--there was an efficient 
vehicle competition that was completed a year ago with the 
Department of Energy in which basically for $10 million in 
prizes $100 million was invested by the competing teams. 
Numerous entries approached or exceeded the goal of 200 miles 
per gallon equivalent.
    So I think this whole prize domain is enormously fruitful.
    Senator Pryor. Well, good. Thank you.
    Mr. Gallagher, let me ask you, if I may, you mentioned in 
your opening statement or maybe in an answer to one of the 
questions that the national network of advanced manufacturing 
centers will need Congressional legislation. What specifically 
legislation do you need and why?
    Dr. Gallagher. Thank you. My understanding is that a 
mandatory program like that requires, since it's outside of the 
appropriations process, requires a separate specific piece of 
legislation to authorize the program. But we also anticipate 
that that would presumably be where any special authorities 
that are required to execute this multiagency approach would 
also be incorporated.
    Senator Pryor. I look forward to working with you on that.
    Dr. Gallagher. Thank you.
    Senator Pryor. As you are working on that, I'd love to 
consider being part of that.
    Also, Mr. Gallagher, if I may, if you don't know about it, 
Senator Wicker and I have co-sponsored legislation called S. 
1948. I don't know if you've heard of it, but it's called the 
Win Jobs Act. Basically what it does is--we had this 
legislation before the State of the Union, but the President 
mentioned trying to connect job skills with jobs. In Arkansas 
we've done a very good job of using our two-year colleges, and 
our 4-year colleges, but primarily the 2-year colleges, to 
connect people with jobs and to do a lot of job training and 
really tailor those programs for manufacturers, et cetera, in 
the area.
    I was wondering if you've had a chance or if you even know 
about the Win Jobs Act, and also what role you think 
apprenticeship programs and other of those type skill level 
programs will play in our economy in the future?
    Dr. Gallagher. I was aware of the Act, but I will confess 
to not being fully aware of all the details in there. I would 
very much like to work with you on this, because I think this 
issue of skills, the skills gap, this jobs gap that we keep 
hearing about, is occurring with every manufacturing company I 
talk to.
    I think what's happened is the nature of these jobs has 
shifted and we haven't moved along with it to provide the 
infrastructure to give people those opportunities to pick up 
the skills. So I think there are a couple of opportunities. One 
thing that's happening right now is within the NIST MEP program 
we actually are working with the National Association of 
Manufacturers so that on the skills side, manufacturers can 
identify skill sets through a certified list process. That will 
create the demand for two-year training, community colleges and 
other institutions provide that type of training opportunity to 
provide those skill sets.
    I think that's an appealing process because that can scale 
then right away. That becomes independent of a case-by-case 
basis.
    The other opportunity that's happening right now that's 
under way is under Dr. Holdren's leadership when PCAST released 
their report last summer on advanced manufacturing, the 
President asked for an advanced manufacturing partnership, 
where all of these, both academic organizations and industry 
leaders, came together to work alongside with us to lay out a 
set of priorities.
    Well, this workforce issue has risen to the top. It's one 
of the key workstreams. And they're in the process of 
finalizing a set of recommendations. So that provides yet 
another basis for us to work closely with you on some of the 
policy options that are coming from our industry and university 
participants in that area.
    Senator Pryor. Great.
    Mr. Chairman, thank you. One last thing. On the Win Jobs 
Act, one of the ways we do it in Arkansas is just--it is, like 
he said, more of a case-by-case basis, where an industry will 
want to come to our state or want to expand and they tell us, 
they tell the local Chamber of Commerce, the Governor, the two-
year college, whatever it is, however they're working, and 
they'll say look, this is what we want to do, but this is what 
we need.
    So we've been very successful in having the two-year 
college--usually it's a two-year college--go in there and 
tailor-make a training program specifically for them. It's just 
paid huge dividends for us. I think the state of Arkansas is 
one of the few that actually added manufacturing jobs during 
the recession.
    So we're doing some things right there. It takes a lot of 
attention and focus and leadership to do it. But thank you for 
your interest in it and I'd love for you to look at that bill, 
would love to get your comments on it.
    Thank you, Mr. Chairman.
    Senator Nelson. Thank you, Senator Pryor.
    Gentlemen, Dr. Holdren, I noticed there's a 25 percent cut 
in the President's request on NASA's education budget. Why is 
that?
    Dr. Holdren. Well, as I mentioned, Chairman Nelson, we did 
an inventory of all the STEM education programs across the 
agencies. We found upwards of 200. And we looked, together with 
the agencies, at the opportunities for consolidation, the 
opportunities for improving efficiency. Of course, within NASA, 
as I know Dr. Peck would attest, there were a lot of tough 
choices made overall, but NASA did a particularly good and 
energetic job of looking at their education programs and 
figuring out how they could get greater bang for the buck, and 
I believe they're going to do that.
    Senator Nelson. Isn't it the mesmerizing possibility of 
space travel that excites kids so much to want to get into math 
and science and technology? And we're making NASA clamp down on 
their educational efforts?
    Dr. Holdren. I don't think we're making NASA clamp down. I 
completely agree with you that the excitement of space is 
important. It excited me and was a major factor in what pushed 
me into science and technology. So I'm all in favor of it.
    But I think what NASA has done with its own intensive 
internal review of its programs is figured out how to do 
better. And some of the efforts that are being devoted to STEM 
education across the government, including in the Education 
Department and in NSF, are focused at figuring out how to make 
programs more effective going forward. Some of the benefits of 
that research, which is spread across a number of different 
agencies, are ultimately going to be felt in NASA as well.
    I think what you're going to see is when the strategic plan 
for STEM education comes out a little later this spring it will 
be clearer how all this fits together. But you should not look 
at it as a retreat. We continue to be excited about the 
potential of space, cosmology, astronomy, exploration, Earth 
observation from space, to excite young people and get them 
into these fields.
    Senator Nelson. Well, Dr. Peck, what say you? If you're 
going to whack 25 percent of the education budget, how are you 
going to inspire all of this next generation of scientists and 
engineers?
    Dr. Peck. Senator, you're absolutely right that this is 
just the sort of thing that inspires the next generation of 
scientists and engineers. It's true, all the way from K through 
16 and even at the graduate level. NASA's education, as Dr. 
Holdren explained, is working closely with other government 
agencies and with the OSTP-led Committee on STEM Education, 
COSTEM, to ensure that we have a coordinated and effective 
student and teacher set of opportunities.
    It is one of the tough choices that NASA had to make in the 
current austere economic environment. But we remain committed 
to STEM education. The thing is that across the agency there is 
support for the academic community through other forms of 
sponsorship. So there is a silver lining here. Within the 
Office of Chief Technologist particularly, we have a number of 
programs that are not STEM specifically, but support the 
academic community through sponsoring graduate students and 
faculty and university researchers to conduct technology 
research that supports NASA's mission. And there's a trickle-
down effect where--and I can tell you as a former faculty 
member myself that having a vibrant program in technology and 
space does a lot to inspire students to take on this kind of 
activity.
    Senator Nelson. Give me an example of one of those 
programs.
    Dr. Peck. One of them is the NASA Space Technology Research 
Fellowships program, NSTRF. We just started that program last 
year. We inducted its inaugural class of 80 graduate students 
across the nation. Those students will be conducting research 
with faculty sponsors and with NASA mentors that directly 
benefits NASA's technology agenda.
    So I would say it's indirectly about education. It's not an 
education program per se, but it does directly benefit the 
academic community.
    Senator Nelson. Dr. Holdren, would you like to have the R&D 
tax credit permanent?
    Dr. Holdren. Yes, I would, sir.
    Senator Nelson. How much of an increase in R&D spending 
would you expect from that?
    Dr. Holdren. Well, I think it depends on the details, sir. 
The President's budget has a specific proposal for simplifying 
it, increasing it, and making it permanent. But obviously there 
is going to be a discussion with the Congress about that, and I 
would hesitate to make a specific prediction without knowing 
where we're going to end up in the details.
    But we are all aware, I think, that today nearly 70 percent 
of the funding for all R&D in the country comes from the 
private sector, less than 30 percent comes from the Federal 
Government. And there is no way we are going to get the total 
R&D portfolio increasing as we need it to be if we don't 
provide, I think, additional incentives for the private sector 
to continue to step up.
    Senator Nelson. Do you think that we ought to target R&D 
tax credits to certain areas that would make us more 
competitive in the global marketplace?
    Dr. Holdren. Well, we are targeting, of course, a lot of 
our Federal applied R&D investment in that way. We've talked 
about the advanced manufacturing. The total budget proposal for 
advanced manufacturing in the 2013 President's budget is $2.2 
billion. One of the reasons for that obviously is our sense of 
the high leverage that that provides in global competitiveness.
    We are increasing the budgets of the basic research 
agencies because we understand that basic research is the 
foundation of all applied research and development that 
follows, and we think, while you can't predict where the next 
big breakthrough that has a large economic impact is going to 
come, we have to seed that field in order to get it.
    But I think as far as the tax credit is concerned, to 
answer your question directly, I personally would not recommend 
a lot of fine-tuning trying to pick winners. What we have found 
historically is that picking winners is a dicey business, the 
private sector is better at doing that than the government is, 
and the complexities added by having arguments about where the 
greatest promise is in terms of constructing a tax credit I 
think would be difficult to overcome.
    Senator Nelson. Dr. Suresh, give me some examples of 
technology transfer where Federal research has led to a 
successful commercial venture?
    Dr. Suresh. I can give a number of examples, Mr. Chairman. 
Let me start with manufacturing. In the 1970s NSF funded 
research in the area of mathematical and process modeling that 
at that time was seen as a purely academic and theoretical 
exercise both by industry and even some mission agencies. That 
directly contributed to something calledrapid prototyping, a 
technology that played a huge role in our manufacturing 
prowess, if you will, in the late 1970s, 1980s, and 1990s.
    That's one example. In partnership with the Department of 
Defense, in the 1960s onward, we funded a lot of research for 
GPS, mathematics, physics, and engineering research. Who would 
have thought in the 1960s that you and I will be using GPS in 
our mobile devices today, and how many industries it has led 
to?
    In the 1990s we funded two young graduate students on the 
West Coast to do purely mathematical research. Their names are 
Sergey Brin and Larry Page. NSF cannot take complete credit for 
Google, but we played some catalytic role in the creation of 
that.
    More recently, when President Clinton announced the 
National Nanotechnology Initiative at Cal Tech in 1999, NSF was 
one of the first agencies to fund basic research in nanoscience 
and nanoengineering centers. Since 1999 NSF funded nanoscience 
and nanoengineering centers alone, purely for scientific 
research. They were not funded for commercialization of 
technology. These centers have resulted in 180 startups that 
involved 1,200 corporations.
    NSF was the first Federal agency to start Small Business 
Innovation Research, the SBIR program. Now there are 11 Federal 
agencies. There are hundreds and hundreds of success stories. 
Qualcomm is a wonderful success story. The two founders of 
Qualcomm, Dr. Irwin Jacobs and Andy Viterbi, both received 
funding from NSF at a time when they could not get funding from 
anywhere else, and I don't need to say any more about how 
successful Qualcomm is.
    So these are examples, in very different areas, of the role 
that basic science at NSF has played in creating innovation, 
technology, jobs, and economic impact.
    Senator Nelson. Senator Boozman.
    Senator Boozman. Well, thank you, Mr. Chairman.
    I guess just one further question, Director Suresh. A lot 
of the scientific research today is interdisciplinary, with new 
innovations and ideas coming from those types of 
collaborations. I guess I'd like to know if you agree with that 
trend and specifically how does the proposed NSF budget reflect 
the trend?
    Dr. Suresh. It's a very important question, Senator. It's 
something that we've been paying a lot of attention to. We 
believe at NSF that increasingly we have greater and greater 
interdisciplinary research, which creates new ideas and new 
opportunities for discoveries at the intersections of 
traditional disciplines. But we also feel that disciplinary 
excellence in basic areas like mathematics, physics, chemistry, 
and astronomy is necessary for interdisciplinary excellence. So 
we try to balance that very, very carefully.
    With respect to your question, we have a number of 
activities that are in place. Two of our flagship programs cut 
through every corner of NSF. Science, Engineering, and 
Education for Sustainability is an activity that's highly 
interdisciplinary in nature. One of the focal areas is to 
prepare the research community and the education community for 
both natural and human-made disasters. It's sustainability in 
the broadest sense of the word, from rising sea levels to ocean 
acidification, a variety of activities, climate change, global 
change, et cetera.
    So that's one part of it. Another area of interdisciplinary 
research is Cyberinfrastructure Framework for 21st Century 
Science and Engineering. This is an area again that is highly 
interdisciplinary. A specific program started in Fiscal Year 
2012, called INSPIRE. It's an interdisciplinary effort to make 
sure that, given the organizational structure of NSF, the 
universities, and the research communities, we don't miss 
transformative new ideas that may fall outside conventional 
wisdom.
    So we have unconstrained mechanisms to foster new ideas and 
support them, and that's the goal of INSPIRE. We launched it in 
2012 with about $20 million, and in 2013 our budget is $63 
million.
    Senator Boozman. Very good.
    Thank you all for being here. That's really all the 
questions I have. I do want to thank you, and I appreciate your 
hard work. And you've got such an important job. I think one of 
the keys to America's success is research and you play such an 
important role with that. I know I can speak for both sides of 
the Committee in saying that we want to help you any way we 
can. So we do appreciate your hard work and look forward to 
working with you in the future.
    Thank you.
    Senator Nelson. You are certainly speaking for both of us, 
and thank you for that, Senator Boozman.
    Dr. Peck, the NRC recently released their evaluation of 
NASA's technology roadmaps. There are no new starts in the 
President's budget, just a continuation of existing projects. 
So how are you going to address the gaps that the NRC found in 
your technology portfolio?
    Dr. Peck. Senator, you're correct that there are no new 
starts in our 2013 budget. The request is $699 million to cover 
existing programs and to cover the phased sequence of 
activities associated with the technology demonstration 
missions that we're taking on, as well as SBIR or STTR.
    The basis of much of our program in space technology is in 
fact a competitive one. We have competitive solicitations. New 
solicitations appear each year. Also, across the agency as 
Chief Technologist I have the responsibility of coordinating 
the agency's technology portfolio. So in combination here, 
first with the competitive solicitations that we offer and 
through coordinating across the agency, we believe that we can 
use the 2013 budget and then what we expect for 2014 to respond 
to the NRC's prioritization.
    That assessment was very valuable for us. It provides us, 
first, a ratification of our technology approach, which is to 
say a technology program that is based first in competitive 
solicitations and also one that looks at cross-cutting 
technologies of relevance to multiple missions. They ratified 
our approach to building the program and they also offered a 
prioritization of technologies. Among those are 16 highest of 
the high priorities, and I'm glad to report to you that we are 
in fact investing in all 16 already. Now, the balance among 
those 16 is something we'll adjust in 2013 and going forward.
    Senator Nelson. Dr. Gallagher, a year ago we talked about 
the disconnect between the standards-setting process for 
electronic medical records and the fact that many hospitals 
were already using some form of that technology. I had asked 
for a timetable for when those standards would be ready, which 
you provided for this hearing. Why don't you give us an update 
on this standards-setting process, and the Networking and 
Information Technology Research and Development program, which 
has a new health IT senior steering group. Are they taking the 
leadership role, and what activities are planned for the 
future?
    Dr. Gallagher. Thank you. The health information technology 
area and standard-setting has been very active. The High-Tech 
Act, which laid out the approach to take, actually took the 
unusual step of putting the standards in the framework of 
performance of the system. So rather than a set of technical 
specifications on file formats and interoperability and 
security, it was instead cast as what would the system do if it 
was put into use? And we call that the meaningful use approach, 
and it was actually, working with HHS, laid out in three 
phases.
    Stage one is complete and under way. Those standards are 
out there. Systems are being certified to those standards now. 
I was talking with the national coordinator yesterday and 
apparently there's been billions of dollars of direct 
reimbursement to physicians and practices for those certified 
systems already. So that's well under way.
    There's a notice for proposed rulemaking that covers stage 
two, which goes into yet higher level functionality, and then a 
stage three is envisioned.
    The interesting part about that approach, very popular now 
in industry, where you take use case-based design, is that the 
technology now is underneath it and it comes in, naturally, so, 
how does it support a doctor being able to meaningfully manage 
its patients caseload? It requires the medical records to be 
able to be exchanged securely and satisfy HIPPA requirements 
and have various search functionalities and capabilities.
    So the NIST role has been to develop the test suites so 
that we can support the certification and third party test 
infrastructure. It's very active, it remains very active. You 
mentioned the NITR-D effort as well. That's really the 
mechanism, this 20-year-old interagency process where we set 
priorities on the R&D side. And like any domain area using 
information technology today, there are key questions about how 
do we secure and meet privacy requirements and secure the 
system.
    So I'm very pleased that we have this parallel effort 
that's laying out the R&D agenda. It's really a longer range 
agenda, so it doesn't replace the standard-setting. It really 
helps provide some of the gaps in our current understanding, so 
that the standards processes, which frankly I never envision 
stopping--I mean, they have to keep moving with the 
technology--are also supported by the coordinated R&D agenda.
    Senator Nelson. Dr. Suresh, you started an Innovation 
Corps, and its purpose is to develop commercially viable 
technology and scientific ideas. So tell us about its progress.
    Dr. Suresh. The Innovation Corps is based on the notion 
that basic science and engineering research is a necessary 
precursor for technological innovation. So we support that 
basic research through about $6 billion a year of research 
funding at NSF. In 2013 we expect to support 285,000 
individuals. All the activities that we support with respect to 
research pretty much lead to wonderful publications in 
journals. Many of them lead to patents.
    So we wanted to ask the question, what more can we do so 
that we can milk the most use or output out of NSF-funded 
activities even beyond what we already do in a fairly 
successful manner, and what are the impediments to doing that 
within the NSF context? NSF has always funded activities in 
innovation. I mentioned SBIR; that goes back more than 30 
years. In the mid-1980s we started a program called Engineering 
Research Centers. Also, in the late 1980s, we started Science 
and Technology Centers.
    More recently, we have programs such as Industry-University 
Collaborative Research Centers, IUCRCs, Partnerships for 
Innovation, Accelerating Innovation Research, et cetera.
    But one of the key components that we found that was 
missing was the following. We fund 1,900 institutions in the 
country, but the vast majority of them, with the exception of a 
few institutions on either coast of the country or a few 
institutions in the middle of the country, may not have the 
fully developed ecosystem to tap into the national innovation 
enterprise.
    So what do I mean by that? A technology licensing office in 
a university campus; mentorship which is extraordinarily 
critical; access to a small amount of money for a short period 
of time right after a scientific discovery.
    So we asked the question: What is it that NSF can do, 
without taking precious research dollars out of basic research, 
but using our reach and stature on a national scale and with 
the wealth of experience that we bring to this as a 61-year-old 
agency to foster innovation so that we can get the biggest bang 
for the buck? That's essentially the goal of Innovation Corps, 
or I-Corps, which we launched last year, with Dr. Holdren 
participating in the launch.
    I'll give you the key ingredients of I-Corps. We want to 
start small, so by design the first year funding is only about 
$7 million, on top of a $6 billion research budget. So it's 
really a drop in the bucket, one-thousandth of our research 
expenditure.
    But our goal is to create a national virtual infrastructure 
that provides opportunities for mentorship, training in 
entrepreneurship, because university professors may not have 
the background to take a successful scientific discovery and 
convert it to an idea that will succeed in the marketplace. How 
do we do this? There is a wealth of experience at a number of 
universities. So mentorship is key. The educational part is 
key.
    Creating national nodes is an activity that we are looking 
into. So our goal for the first year is 100 programs. Our goal 
for the second year is to scale it up to 300. It's a public-
private partnership, so we have two nonprofit foundations that 
have a lot of experience in this space who are partnering with 
NSF to offer their expertise and experience.
    So this is something that I'm pleased to say appears to 
have been off to a very good start, and we are monitoring it 
very carefully to see how we can take it to the next level, to 
a steady-state level.
    Senator Nelson. Are you finding that the new patent bill is 
helping you as you try to take a scientific discovery to an 
idea? To get it to market, you need that patent process working 
in order to protect the inventor. Do you have any comment on 
that?
    Dr. Suresh. Well, it's too early for us to say how much 
it's helping. But on the other hand, anything that makes the 
patent process more efficient would definitely help the 
innovation ecosystem for us.
    We are even talking about before the patent process, how do 
we help our NSF-funded scientists identify, first of all, what 
is patentable, what is worth pursuing beyond publication. Some 
of the PIs are very good at this, their institutions are very 
good at this, but not uniformly across the country. This is one 
of the goals of the I-Corps program.
    Senator Nelson. Dr. Gallagher, do you want to tell us about 
your proposed centers of excellence?
    Dr. Gallagher. Yes, Senator. The Centers of Excellence 
would be an expansion of something NIST has been doing for 
about 50 years. These would basically be collaborations between 
NIST and other academic or nonprofit organizations. The idea is 
to create through a partnership an expansion of our capability.
    As you know, NIST is quite hybridized. About half the 
technical workforce that are on our campuses are non-NIST 
employees, so they have a large presence on our site. But we've 
learned through things like the JILA partnership at the 
University of Colorado or the Joint Quantum Institute, 
University of Maryland, and through some similar interactions, 
that for certain carefully posed areas combining sort of the 
best of academic organizations with the NIST mission creates 
some unique opportunities. This program is specifically 
designed to provide a funding vehicle for us to pursue those 
because, frankly, the demand to enter into these kinds of 
arrangements far exceeds any capacity we have to do that.
    Senator Nelson. And you think the universities will have 
the demand to host these new centers?
    Dr. Gallagher. Yes, sir. I know for a fact that in any 
given particular technology area where we've been reaching out 
and talking to the universities--so for example in advanced 
biotechnology--there's probably at least a dozen universities 
who are routinely calling to see whether we could establish 
some type of joint institute. Of course, that would be 
appealing for me if I could do that because that's an area 
where NIST does not have a long track record or a very large-
scale internal capacity itself. But through a partnership with 
leading academic organizations, we could then actually have 
access to some of the strongest researchers in that particular 
area and yet also have right alongside it work focused on the 
NIST mission of advancing measurement in that area.
    So it's a recipe that's very appealing, not just to us, but 
also to many of these organizations. We have a long list of 
topic areas where those kinds of discussions have been under 
way.
    Senator Nelson. Senator, do you have further questions?
    Senator Boozman. No, thank you, Mr. Chairman. I don't.
    Again, thank you all for being here. We'll have a couple 
more that we'd like to submit to the record, with your 
permission. Don't worry, we've asked the hard ones. These are 
the easy ones.
    Again, thank you, Mr. Chairman.
    Senator Nelson. Thank you all for what you do. It's 
important to the future of this country. And thank everybody 
for participating and to the staff that has prepped for this 
hearing, thank you very much.
    The meeting is adjourned.
    [Whereupon, at 4:32 p.m., the hearing was adjourned.]
                            A P P E N D I X

Response to Written Questions Submitted by Hon. John D. Rockefeller IV 
                         to Dr. John P. Holdren
    Question 1. This proposed Federal investment to revitalize 
manufacturing is spread over multiple agencies and targets different 
stages in the process of bringing successful research ideas to the 
marketplace. Are there particular programs that the Administration 
considers high priority or essential for the overall investment to 
achieve its goals?
    Answer. One key objective of the Administration's proposed 
investment is to achieve a ``cohesive approach to research, 
development, and deployment'' in advanced manufacturing, as stated in 
the recently released Strategic Plan for Advanced Manufacturing. 
Accordingly, we seek to take a portfolio perspective that balances 
investments across technologies and stages of the innovation process, 
including demonstration and improvements of technologies in use. The 
Advanced Manufacturing National Program Office, which is hosted at the 
National Institute of Standards and Technology (NIST) and is supported 
by key agencies from across the Federal Government involved in advanced 
manufacturing, has the responsibility of assessing this portfolio in 
light of both agency missions and national needs. In addition, the 
President has proposed that the Federal Government co-invest with 
industry, educational institutions, and the states to create a National 
Network for Manufacturing Innovation (NNMI). This Network would fill a 
critical gap in the current portfolio by accelerating innovation in 
industrially relevant manufacturing technologies with broad 
applications.

    Question 2. On OSTP's budget: OSTP's budget was hit significantly 
when the Fiscal Year funding of $6.7 million was reduced to an 
appropriation of $4.5 million in Fiscal Year 2. The President has 
requested $5.9 million for Fiscal Year 3. Dr. Holdren, how is the 
Fiscal Year funding level impacting OSTP's operations, and will the 
$5.9 million requested, if enacted, be enough to fully operate an 
organization tasked with coordinating science and technology policy 
across the entire government?
    Answer. We are doing all we can to adjust to our diminished budget, 
but the impacts are substantial. OSTP has frozen all hiring, a move 
that will result in an almost 20 percent reduction in personnel. Travel 
was reduced by two thirds. All equipment and software replacements and 
upgrades have been canceled or postponed. The Fiscal Year appropriation 
leaves OSTP with no ``surge'' capability and no flexibility to hire 
personnel with the expertise that may be required. While we are doing 
the best we can to cover our myriad responsibilities, some of these 
responsibilities will necessarily suffer as staff are pulled away to 
address urgent topics. OSTP will remain focused on those areas most 
relevant to creating jobs, improving our competitiveness, and expanding 
our economy.
    The requested budget increase for 2013 would put OSTP back on a 
healthy financial footing after the substantial reduction in 2012. 
Restoring OSTP's budget is critical to OSTP's continued ability to work 
with Congress, the agencies, and the President and his senior advisors 
to ensure that the Nation's science and technology investments are 
appropriately sized, targeted, and coordinated. The first priority for 
restored funding would be to ensure that OSTP has the proper mix of 
scientific and technical expertise on board to address the Nation's 
science and technology challenges.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Bill Nelson to 
                          Dr. John P. Holdren
    Question 1. I am pleased to see the proposed 2.4 percent increase 
in funding for the Department of Energy's Office of Science, consistent 
with the continued efforts to double the funding for key science 
research agencies.

  <bullet> Given the overall increase what led to the decision to cut 
        funding in several key areas, including nuclear physics and 
        high energy physics?

  <bullet> With the decrease proposed for these programs, in particular 
        for high energy physics, how does DOE propose to support 
        ongoing research aimed at meeting the Grand Challenges related 
        to these fields?

    Answer. I appreciate your support for the Department of Energy's 
Office of Science in the 2013 Budget. I believe strongly that the 2013 
Budget sustains the legacy of American leadership in fundamental 
research. As I noted in my testimony, within a budget proposal that 
holds discretionary spending flat for the second year in a row, as 
agreed to by Congress and the President last year in the Budget Control 
Act, the Administration has prioritized continuing increases in Federal 
support for key science-research agencies. Even within difficult 
funding constraints, the President's Budget has prioritized R&D, and 
DOE's Office of Science would receive, as you note, a 2.4 percent 
increase to $5.0 billion in the 2013 Budget proposal. The 2013 Budget 
proposes to direct these additional resources to Administration 
priorities through fundamental research on energy, support of leading-
edge advanced computing research, and through fundamental research to 
address critical biological and environmental challenges. The need to 
address these critical national needs in a constrained budget 
environment necessitated some difficult choices. Some of the decreases 
proposed for other DOE Office of Science programs are due to planned 
transitions in facilities, such as the end of Tevatron operations after 
a long and productive lifespan and a shutdown of the Fermilab 
accelerator complex for half of Fiscal Year 2013 while the accelerator 
upgrades for the NuMI OffAxis Neutrino Appearance (NOvA) project are 
completed. During and after these transitions, DOE will continue to 
support research at the frontiers of discovery.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. Mark Pryor to 
                          Dr. John P. Holdren
    Question 1. The National Nanotechnology Initiative is entering its 
12th year as a Federal Government R&D program. Cumulative Federal 
funding is almost $18 billion counting the Fiscal Year budget request 
of $1.8 billion. When will we see commercial products based on these 
breakthrough nano-technologies and what will some of these products 
look like?
    Answer. We already see commercial products based on nano-
technologies resulting from National Nanotechnology Initiative (NNI) 
investments. The Woodrow Wilson Center's Project on Emerging 
Nanotechnologies does an excellent job of inventorying nanotechnology-
enabled products from U.S. companies. The purpose of NNI was to build 
R&D infrastructure and foster innovation in this area, and these types 
of products are the fruits of that endeavor. The Center's continually 
updated inventory is available at http://www.nanotechproject.org/
inventories/consumer/.
    The NNI National Coordination Office (NCO), which OSTP oversees, 
has a similarly excellent inventory of existing products and products 
just over the horizon. These products already include higher-efficiency 
appliances, clean-energy materials, medical devices, and advanced 
batteries, to give just a few examples. The continually updated 
inventory is available at http://www.nano.gov/you/nanotechnology-
benefits.

    Question 2. Section 101 of the America COMPETES Reauthorization Act 
requires ``the teaching of innovation and entrepreneurship as part of 
STEM education.'' Many colleges and universities have started 
entrepreneurship programs in conjunction with their science courses. 
The reason for this provision in the Act is to make STEM education 
relevant to these students. What is the Federal Government doing to 
encourage entrepreneurship as part of STEM education?
    Answer. The Administration is taking steps to encourage 
entrepreneurship education. In my testimony I described the 
Administration's year-old Startup America initiative, a Federal-private 
partnership to inspire and accelerate high-growth entrepreneurship 
throughout the Nation. This effort includes student and other young 
entrepreneurs in its activities. For example,

        --The Startup America partnership connects young entrepreneurs 
        with mentors and other resources to help them start and grow 
        their businesses.

        --The National Science Foundation (NSF) launched a $10 million 
        National Center for Teaching Innovation and Entrepreneurship in 
        Engineering to reach engineering students in 350 engineering 
        schools around the Nation.

        --The Department of Energy (DOE) recently awarded $2 Million in 
        the National University Clean Energy Business Challenge to 
        create and administer a network of student-focused business 
        creation competitions and inspire young entrepreneurs to found 
        innovative, clean energy companies.

        --In October 2011, President Obama announced new executive 
        actions to make it easier for Americans to manage student loan 
        debt, including a proposal to let upcoming graduates cap their 
        monthly Federal loan payments at 10 percent of their income, 
        with any remaining debt balance forgiven after 20 years. This 
        improved ``Pay As You Earn'' plan is great news for the 
        estimated 1.6 million borrowers who could benefit from reduced 
        or more flexible student loan payments, especially would-be 
        entrepreneurs who will have increased flexibility to try an 
        entrepreneurial path.

        --And the Departments of Education and Labor are teaming up to 
        advance a youth entrepreneurship agenda that infuses 
        entrepreneurship education into a range of existing education 
        programs. I am enclosing an Education-Labor fact sheet on this 
        effort, which can be found at http://www.ed.gov/sites/default/
        files/ed-labor-fact-sheet-entrepreneurship.doc.

    Question 3. Regional Innovation. Regional innovation involves the 
cooperation among academic institutions, manufacturers and the supply 
chain. I have long been a proponent of science parks and technology 
incubators as a location for performing applied and translational 
research and development. The Fiscal Year budget requests $25 million 
for this program through the Economic Development Administration (EDA) 
including $7 million to be used for science park loan guarantees.

  <bullet> How do you think the regional innovation ecosystem needs to 
        develop in the United States? Are there models from other 
        countries that the U.S. should be following?

  <bullet> Is this the right amount of funding for such an important 
        initiative?

  <bullet> What regional innovation clusters have been recently 
        established, how has the private sector invested in their 
        creation, and what competitive benefits have been realized by 
        clustering?

    Answer. The Department of Commerce's Economic Development 
Administration (EDA) has been the lead Federal agency in supporting 
regional innovation programs, including providing support for regional 
innovation clusters and science parks, as authorized in COMPETES. The 
2013 Budget supports these ongoing EDA efforts, and I understand that 
EDA is actively working to develop the other new authorities granted in 
COMPETES, including the innovative manufacturing loan guarantees and 
science parks loan guarantees. EDA is not alone in supporting these 
efforts. Other Federal agencies are supporting regional innovation 
efforts also. I am excited that one of DOE's Energy Innovation Hubs, 
the Energy-Efficient Buildings System Design Hub in Pennsylvania, is 
the core of the Greater Philadelphia Innovation Cluster (GPIC) for 
Energy-Efficient Buildings, a collaboration among DOE, the Department 
of Labor, NSF, EDA, the National Institute of Standards and Technology 
(NIST), and the Small Business Administration (SBA) to create jointly a 
regional innovation cluster in greater Philadelphia centered around 
energy efficiency with co-investments from academic institutions and 
community colleges, private-sector industry partners, and regional 
economic-development agencies.. By bringing together cutting-edge R&D, 
local economic-development resources, firms, and educational 
institutions in one place, this and other regional innovation clusters 
improve the odds of innovations from Federal research transitioning 
from the laboratory to the marketplace and resulting in job creation.
                                 ______
                                 
     Response to Written Questions Submitted by Hon Mark Pryor to 
                      Patrick D. Gallagher, Ph.D.
    Question 1. Last month the Executive Office of the President issued 
the report ``A National Strategic Plan for Advanced Manufacturing'' as 
required by the America COMPETES Reauthorization Act. The 
Administration has already initiated several of the recommendations in 
the report. For example, the Advanced Manufacturing Partnership and the 
Department of Commerce Advanced Manufacturing Program Office have been 
established. What program elements of the National Strategic Plan and 
the President's budget request for Advanced Manufacturing do you 
believe need to be authorized by Congress?
    Answer. NIST is able to conduct all the manufacturing initiatives 
proposed in its 2013 Budget using existing authorities, with the 
exception of the proposal to provide $1 billion in mandatory, one-time 
funding to catalyze the creation of a National Network for 
Manufacturing Innovation. We look forward to working with the Congress 
on NNMI authorizing legislation

    Question 2. The President's Fiscal Year 2013 budget proposes a 
substantial $2.2 billion investment spread across seven agencies to 
enhance the competitiveness of the U.S. manufacturing sector. Some 
public-private partnerships, such as SEMATECH, have been successful in 
helping companies perform pre-competitive research and development. 
Most have not been successful. How can the Federal Government get 
better proposals for public-private partnerships?
    Answer. High-quality proposals are essential for establishing 
effective public-private partnerships to enhance the competitiveness of 
the U.S. manufacturing sector. Four aspects of the proposal 
solicitation process drive the quality of proposals: evaluation 
criteria, stakeholder engagement, stakeholder investment, and 
solicitation timeframe. First, the evaluation criteria must help 
proposal developers to establish a credible plan aligned with the goal 
of the partnership. Such a plan should include a progression of 
measureable milestones that identify elements of technical and business 
risks to define a clear pathway to partnership success. Second, the 
stakeholder engagement must effectively communicate the evaluation 
criteria and the programmatic goals of the proposal solicitations to a 
broad audience to coalesce and catalyze partnership participation from 
stakeholders with the greatest potential for success. Third, 
stakeholder investment must demonstrate a compelling level of 
investment from partnership participants to ensure firm commitment to 
the success of the partnership. Fourth, the time-frame of the 
solicitation must allow sufficient time for stakeholder partnerships to 
be formed and for a high quality proposal to be developed.

    Question 3. Should the proposals be tied to Federal agency mission 
needs?
    Answer. Yes. The responsibility for effectively establishing these 
ties is shared by the agencies and the proposal developers. The 
agencies must define how the proposal solicitations connect to specific 
legal authorities and corresponding mission needs through the funding 
opportunity scope, requirements, and evaluation criteria. In turn, the 
proposal developers must show how their proposed activities satisfy the 
funding opportunity and therefore connect to agency legal authorities 
and mission needs.

    Question 4. Do you believe public-private partnerships between 
education institutions, businesses, and the government is an effective 
mechanism to address our country's growing shortage of skilled workers, 
particularly in the advanced manufacturing sector?
    Answer. Yes. Partnerships have been demonstrated to be an effective 
mechanism for addressing advanced manufacturing workforce needs through 
several programs identified in Appendix D of the NSTC Report ``A 
National Strategic Plan for Advanced Manufacturing.'' These programs 
include the Manufacturing Skills Certification System supported by the 
NIST Manufacturing Extension Partnership, The Department of Education's 
National Career Clusters Framework, the Department of Labor's 
Registered Apprenticeship and Workforce Investment Act programs, and 
the National Science Foundation's Advanced Technological Education 
program.

    Question 5. The Administration Fiscal Year 2013 budget requests $1 
billion to create a new National Network of Manufacturing Innovation 
Centers. What are the goals for this Network?
    Answer. The Network aims to help to make our manufacturers more 
competitive and encourage investment in the United States. As an 
interconnected, collaborative whole, the network of Institutes will 
generate national and regional benefits in addition to serving their 
primary roles of bridging the gap between laboratories and markets, 
solving cross-cutting manufacturing challenges, and supporting the 
translation and scaling of innovative manufacturing technologies in the 
U.S., including:

  <bullet> Identifying and diffusing best practices among the 
        institutes in the network for building and running 
        partnerships, including cooperative arrangements, intellectual-
        property management, etc;

  <bullet> Facilitating sharing of workforce training successes among 
        the institutes in the network that address industry needs for 
        skilled manufacturing workers;

  <bullet> Serving as a focal point across the network to cross-
        fertilize technical ideas and technical career opportunities; 
        and

  <bullet> Supporting complementary and synergistic regional 
        development of shared assets of value to many businesses.

    Question 6. What are the purposes of the Centers and how would they 
operate?
    Answer. The purpose of each Institute will be to integrate 
capabilities and facilities required to address cross-cutting 
manufacturing challenges that have the potential to retain or expand 
industrial production in the United States on an economically viable 
basis. The Institutes will each have a well-defined technology focus to 
address industrially relevant manufacturing challenges on a large scale 
and to provide the capabilities and facilities required to reduce the 
cost and risk of commercializing new technologies. The Institutes 
provide a collaborative, precompetitive environment for enhanced 
technology development and transfer, and will be a magnet for companies 
that are looking to build long-term assets--knowledge, skills, and 
technology.
    Activities of the Institutes to fulfill this purpose will include:

  <bullet> applied research and demonstration projects that reduce the 
        cost and risk of commercializing new technologies or solve 
        generic industrial problems,

  <bullet> education and training,

  <bullet> development of innovative methodologies and practices for 
        supply chain integration, and

  <bullet> engagement with small and medium-sized manufacturing 
        enterprises (SMEs).

    The Administration's proposal envisions that in order to operate, 
each Institute will:

  <bullet> Be self-managed, with activities and priorities driven by 
        industry and the flexibility to meet the needs of its 
        associated communities;

  <bullet> Be hosted by a strong research-oriented entity, such as a 
        U.S. university, not-for-profit research center, or Federal 
        research facility;

  <bullet> Mobilize industry, states and other partners to co-invest 
        with Federal agencies, including active sponsorship from large 
        manufacturers and strong participation from small and medium-
        sized manufacturers;

  <bullet> Engage extensively with local, state, and regional economic 
        development authorities, industry associations, labor unions, 
        and other stakeholders; and

  <bullet> Aggressively seize opportunities that can lead to major 
        advances in industrial production capabilities that are too 
        risky for companies to tackle on their own

    Question 7. How many years would each Center be funded?
    Answer. The budget proposes creation of a mandatory account that 
would make available $1 billion in Fiscal Year 2013 in a one-time 
investment. A portion of the Federal investment in each center would 
fund startup capital expenses. Subsequent Federal support will be 
contingent on demonstrating co-investment and progress to sustainable 
operations. The Institutes will be required to become financially self-
sustaining in a period of no less than 7 years.

    Question 8. Will the Centers be geographically dispersed so that 
states in the middle of the country, such as Arkansas, have an 
opportunity to compete?
    Answer. Stakeholders in all states, regardless of geographic 
location, will have an equal opportunity to host and participate in 
Institutes, leverage regional strengths in manufacturing, and compete 
for Institute awards based upon peer review of submitted proposals. The 
proposal evaluation criteria will include factors affecting the 
likelihood of success of the proposed Institute, which would include 
the ability of stakeholders in the state and the region to effectively 
engage and leverage Institute activities.
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Olympia J. Snowe to 
                      Patrick D. Gallagher, Ph.D.
    Question 1. The Hollings Manufacturing Extension Partnership (MEP) 
is a successful Department of Commerce program that assists small-and 
medium-sized manufacturers with technical assistance projects, 
training, and long-term strategic support. Regrettably, this program 
has an unnecessarily restrictive cost-share requirement, as the MEP is 
the only initiative out of the 80 programs funded by the Department of 
Commerce that is subject to a statutory cost share exceeding 50 
percent.
    While it has always been a difficult burden in the past for MEP 
centers to satisfy the high cost share requirements, it is even more 
difficult now in this trying economy. State governments, facing 
shortfalls, are reducing the amount they provide to these centers, and 
private entities are as well. As a result, MEP centers must spend an 
increasing amount of time fundraising and less time focused on 
providing services to America's small manufacturers.
    In the National Institute of Standards and Technology (NIST), MEP 
July 2010 report titled ``Renewing the U.S. Commitment to a Strong 
Manufacturing Base,'' one of the ways listed to ``leverage and maximize 
the Federal investment'' in the program is reducing the cost-share 
requirement. Furthermore, legislation in the last year encourages NIST 
to restructure the program's cost-share requirement--and provides the 
authority to do so. Why has NIST not taken this simple, cost-neutral 
and yet critically timely action to provide relief to these centers 
that have a significant impact in aiding thousands of small and medium 
sized manufacturers nationwide?
    Answer. We are completing our analysis of this issue and will 
update the Committee once it is concluded. We share the Committee's 
goal of making sure that MEP continues to be an effective, sustainable 
program.

    Question 2. As a longtime MEP supporter, I am pleased to see this 
vital program receive a significant increase in funding over the last 4 
years, including the President's recent request of $128 million for 
Fiscal Year (FY) 2013. Specifically, the program's funding has 
increased from $89 million in Fiscal Year 2008 to $128 million in 
Fiscal Year 2012. Can you provide further details on how the MEP's 
increase of nearly $40 million over the last 4 years is being 
allocated? How much of this funding increase is going directly to the 
centers that provide the services to America's manufacturers?
    Answer. Historically, MEP program funding has been on average 
around $106 million (with the exception of an anomaly in Fiscal Year 
2008). The $22 million increase over historic funding levels has 
enabled MEP centers to focus on development of new tools, services and 
related staff training, as well as for ``next generation'' innovation 
strategies for their client firms. These growth strategies include 
workforce development, technology acceleration, sustainability, supply 
chain development, and continuous improvement.
    In Fiscal Year 2012, the NIST MEP program appropriation was $128.4 
million and of that total amount $114 million (89 percent) was 
allocated to centers to provide services to America's manufacturers. 
Roughly $90 million was provided to MEP centers for base operations. 
Another $7 million was provided as a result of competitive awards to 
Centers, groups of Centers and non-profit organizations to develop 
Center services in the five targeted growth areas. And $17 million was 
provided as centralized support to centers--professional development of 
center staff, development of tools/services and the associated training 
of center staff to be able to provide all these services to their 
clients. The remaining appropriated funds were used to support 
cooperative agreement management, center reporting and evaluation, and 
to conduct the congressionally mandated peer reviews of the MEP 
centers.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. John Boozman to 
                      Patrick D. Gallagher, Ph.D.
    Question 1. In your National Strategic Plan for Advanced 
Manufacturing, you mention accelerating investment by small and medium 
sized enterprises as a key objective. In addition, there is the 
President's Advanced Manufacturing Partnership (AMP) that was announced 
in June 2011. What alternative funding mechanisms have you explored for 
pursuing and encouraging advanced manufacturing?
    Answer. Funding mechanisms for pursuing and encouraging advanced 
manufacturing include investments by both the private sector and the 
public sector. Private sector investments are a vital strategic 
component that is broadly influenced by a broad range of government 
policies, including but not limited to tax, trade, science, and 
technology policies. The Administration's position on tax and trade 
policies is covered in other reports. The Administration's position on 
science and technology policy is covered in the National Strategic Plan 
for Advanced Manufacturing and calls for a focus on innovation policy.
    The National Strategic Plan for Advanced Manufacturing covers the 
full range of public-sector investment mechanisms, including the role 
of the government as a major purchaser of goods and the role of the 
government as a major investor in research, development, and deployment 
(RD&D).

    Question 2. Why do you think they will not work?
    Answer. When applied appropriately, each funding mechanism can 
work. The challenge lies in identifying which mechanism is most 
appropriate for which need.

    Question 3. Also, how can we insure that we do not pick ``winners 
or losers'' in the administration's proposed programs?
    Answer. The Administration's focus on innovation policy for 
advanced manufacturing specifically avoids picking ``winners or 
losers'' by identifying challenges in technology infrastructure that 
cut across multiple industry sectors and technology applications. As 
such, pursuit of innovation policy benefits from successes in 
individual sectors and applications without depending on any one of 
them.

    Question 4. What specific metrics are you using to judge the 
success or failure of this program?
    Answer. The National Strategic Plan for Advanced Manufacturing 
identifies long term metrics for success through a variety of economic, 
employment, and tax statistics that are actively tracked by the Federal 
Government together with more specific short term metrics that will be 
used to judge progress toward long term success.

    Question 5. Please provide specific details?
    Answer. As an example, the number of participants in advanced 
manufacturing job training programs that successfully enter the 
advanced manufacturing workforce provides a short term metric toward 
long term success in ensuring that the available workforce meets the 
needs of domestic production facilities.
                                 ______
                                 
Response to Written Questions Submitted by Hon. John D. Rockefeller IV 
                          to Dr. Subra Suresh
    Question 1. The National Science Foundation supports two different 
research grants for graduate students: the Graduate Research 
Fellowships and the Integrative Graduate Education and Research 
Traineeship (IGERT) program. The Graduate Research Fellowships are 
awarded to individual graduate students and transferable to any 
university in the country; the IGERT fellowships are awarded to 
universities and can be used as a recruiting tool to bring in the top 
students to do cutting edge, interdisciplinary research at that 
university. The America COMPETES Reauthorization mandated equal 
treatment for both fellowship programs such that funding increases or 
decreases at the same rate. Yet, NSF has proposed an increase of over 
10 percent for the Graduate Research Fellowships to support a stipend 
increase and a new class of 2,000 fellows with no corresponding 
increase for IGERT. What is the justification for increasing funding 
for Graduate Research Fellowships, but not the IGERT fellowships?
    Answer. NSF is deeply committed to strategically advancing its 
multifaceted portfolio by supporting science, technology, engineering, 
and mathematics (STEM) education through its workforce programs. There 
are three reasons for the proposed funding increase for the Graduate 
Research Fellowship (GRF) program:

        (1) An increase in the amount of ongoing commitments due to an 
        increase in the total number of GRF fellows resulting from the 
        doubling of new fellowship awards from 1,000 to 2,000 beginning 
        in Fiscal Year 2010;

        (2) An increase, in Fiscal Year 2012, in the cost-of-education 
        allowance from $10,500 to $12,000; and

        (3) An increase in the dollar amount of the GRF stipend, which 
        has not been raised since Fiscal Year 2004, from $30,000 to 
        $32,000. The stipend increase will be implemented in Fiscal 
        Year 2013.

    The Graduate Research Fellowship program is one important mechanism 
for developing the future workforce in STEM research and education. NSF 
also invests in traineeships, another important mechanism, through the 
Integrative Graduate Education and Research Traineeship (IGERT) program 
and other directorate-specific programs (e.g., NSF centers such as the 
Science and Technology Centers and Engineering Research Centers).
    In considering the spirit of the America COMPETES Reauthorization 
Act of 2010, NSF's Division of Graduate Education (DGE) is focusing 
NSF-wide attention on the various modes in which the Foundation 
supports graduate students including traineeships, fellowships, and 
research assistantships. DGE is exploring the best ways to ensure that 
graduate students' experiences prepare them well for careers in higher 
education, fundamental and applied research, or other sectors of the 
advanced research workforce. In 2013, NSF will review the IGERT program 
and do so in the context of the full range of opportunities for 
graduate student support to determine the most productive directions 
going forward.

    Question 2. Scientific collections, held in hundreds of museums and 
universities throughout the country as well as around the world, are an 
integral part of the Nation's scientific infrastructure and an 
essential research resource. While OSTP is directing agency efforts 
across the Federal Government to preserve and maintain government 
science collections, the Administration's Fiscal Year 2013 budget 
proposal places funding for support of non-governmental biological 
collections at risk. The budget request for the National Science 
Foundation proposes to change the competition for support under the 
Collections in Support of Biological Research (CSBR) program from 
annual to biennial, effectively cutting funding for the program in 
half.
    What alternatives does NSF see for continued support of these 
collections if this budgets cut comes to pass? What types of critical 
science research may be lost if the collections are unable to be 
maintained?
    Answer. NSF funds several programs that support biological 
collections and biodiversity research: these are the Dimensions of 
Biodiversity (DoB) and the Advancing Digitization of Biological 
Collections (ADBC) programs, supported through the Directorate for 
Biological Sciences (BIO) at an annual level of nearly $30 million 
combined.
    Over the past few years, two reports were issued based on results 
of surveys of federally supported collections: first, the 2008 National 
Science and Technology Council (NSTC) Interagency Working Group on 
Scientific Collections (for federally held collections) report; and 
second, the 2009 NSF Scientific Collections Survey (for non-Federal 
collections supported by Federal funds). In response, the collections 
community developed a strategic plan to establish a network of 
integrated biocollections which was issued in July 2010.
    In response to this strategic plan, NSF issued a solicitation for 
the ADBC program to establish the central coordinating body of a 
national resource and to begin to fund projects that will digitize 
collections based on grand research problems in biology. A year later, 
in 2011, NSF's Geosciences (GEO) directorate joined the effort to begin 
to integrate the paleontological collections online.
    Challenging financial times often translate into hard decisions for 
funding priorities. BIO strives to sustain support for disciplinary 
programs, since they are the foundation of the biological sciences and 
the source of some of its most innovative and transformative 
discoveries; however, they have also chosen to support important new 
priorities such as DoB and ADBC. To accomplish this, BIO has staggered 
and/or reduced some non-core research competitions, such as Collections 
in Support of Biological Research (CSBR). BIO is optimistic that in the 
long run, support via ADBC will secure essential knowledge from 
biological collections while at the same time providing broader access 
via data portals. It will also expand access for learning activities 
for K-12 through college classes. Creative management of BIO's 
resources will help insure that the biological research supported by 
the NSF remains strong, vibrant, and always at the leading edge.

    Question 3. The National Radio Astronomy Observatory (NRAO) runs 
domestic facilities, such as the Green Bank Telescope in West Virginia, 
that serve all of the U.S. astronomy community. In conjunction with the 
National Science Foundation, NRAO is also building the ground-breaking 
international Atacama Large Millimeter Array (ALMA) in Chile with 
international partners. By operating ALMA and domestic facilities in an 
integrated fashion, NRAO ensures that ALMA and these facilities 
maximize their scientific return for American researchers. How are you 
ensuring that these investments both leverage and contribute to our 
critical domestic science facilities?
    Answer. Valuable synergies exist among ALMA and the domestic radio 
astronomy facilities operated by Associated Universities, Incorporated 
(AUI/NRAO), especially in the areas of critical personnel expertise, 
shared user and technical support and software tool development. For 
example, the Karl G. Jansky Very Large Array (JVLA) and ALMA use the 
same archive system for data storage as well as the same suite of 
software for data processing and analysis by users and for data quality 
assessment. The engineers and technicians responsible for designing and 
manufacturing the ALMA receivers are also responsible for fabrication 
and support of the JVLA receivers. Both sets of receivers have been 
designed and produced at the shared development laboratory at NRAO.
    The National Science Board is also interested in this topic and is 
urging that the next competition for the management and operation of 
the North America contributions to ALMA be separated from that for the 
domestic NRAO facilities. NSF will complete the next cooperative 
agreement(s) for NRAO and ALMA through an open, merit-based review 
process. In preparation for the competition, NSF is assessing the merit 
and cost of the Board's suggested approach.

    Question 4. Many currently operating NSF astronomical facilities 
are proposed to have funding cuts in Fiscal Year 2013. NRAO domestic 
facilities in West Virginia, New Mexico, and Virginia are proposed to 
be cut by 5 percent, resulting in the need to lay off 25 full time 
employees and potentially scale back scientific services at one of the 
telescopes so that it would no longer operate as a general use facility 
for the benefit of the whole U.S. astronomical community. How will 
these cuts impact researchers' access to critical infrastructure and 
the retention of core U.S. scientific capabilities?
    Answer. The NSF Division of Astronomical Sciences (AST) in the 
Directorate for Mathematical and Physical Sciences continually assesses 
the balance of funding among new and operating facilities and research 
and education grants to maximize the scientific return on investment. A 
key element of this assessment is AST's Portfolio Review process. 
Scheduled for release in the fall of 2012, this review will recommend 
the balance of funding across all elements of AST's investment 
portfolio in the context of science priorities articulated in the 
Astronomy and Astrophysics Decadal Survey, issued in 2010 (www.nap.edu/
catalog.php?record_id=12951). In advance of these recommendations, 
NSF's Fiscal Year 2013 request for astronomical facilities will 
maintain critical infrastructure and scientific capabilities while 
sustaining grant support for the U.S. research community.
    In response to the proposed budget in Fiscal Year 2013, Associated 
Universities, Incorporated (AUI/NRAO), the managing entity of NRAO, has 
prioritized the transformative capabilities of ALMA and the Karl G. 
Jansky Very Large Array (VLA) and has targeted reductions for the Green 
Bank Telescope (GBT) and the Very Long Baseline Array (VLBA). NSF has 
encouraged AUI/NRAO to consult with the community on delivering the 
greatest scientific return from these facilities within current budget 
scenarios. With NSF's encouragement, AUI/NRAO is also actively 
searching for outside funding and partnerships to support GBT and VLBA 
operations.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. John Boozman to 
                            Dr. Subra Suresh
    Question 1. Regarding the EPSCoR program, do you have any current 
plans to change the scope or mission of the program? What are the 
principle economic benefits of the EPSCoR program to the entire nation? 
Do you think supporting the EPSCoR program is in the best interests of 
our nation?
    Answer. The Experimental Program to Stimulate Competitive Research 
(EPSCoR) assists the National Science Foundation (NSF) in its statutory 
mandate ``to strengthen research and education in science and 
engineering throughout the United States and to avoid undue 
concentration of such research and education.'' Supporting the EPSCoR 
program promotes the development of each eligible jurisdiction's 
science and technology resources through partnerships involving 
universities, industry, local government, and Federal research and 
development agencies. There are no current plans to change the mission 
of the NSF EPSCoR program. NSF is seeking, however, input through the 
following two program evaluations:

  <bullet> The Science and Technology Policy Institute (STPI) is 
        performing an in-depth, life-of program assessment of NSF 
        EPSCoR activities and their outputs and outcomes. Based on this 
        assessment, STPI will provide recommendations for better 
        targeting funds to those jurisdictions for which the EPSCoR 
        investment can result in the largest incremental benefit to 
        their research capacity. This evaluation focuses on progress in 
        research competitiveness, infrastructure development, 
        broadening participation in science and engineering, and 
        science, technology, engineering, and mathematics (STEM) 
        workforce development within EPSCoR jurisdictions. The 
        anticipated completion date of the report is December 2013.

  <bullet> The National Academy of Sciences is performing a study of 
        EPSCoR and EPSCoR-like programs as directed in Section 517 of 
        P.L. 111-358: the America COMPETES Reauthorization Act of 2010. 
        Agencies with active programs are the Department of Energy, the 
        Environmental Protection Agency, the National Aeronautics and 
        Space Administration, the National Institutes of Health, NSF, 
        and the United States Department of Agriculture. The output for 
        this evaluation will provide recommendations that may have 
        policy implications for Federal agencies that have EPSCoR and 
        EPSCoR-like programs. The expected completion date for this 
        evaluation is August 2013.

    Economic benefits to the Nation are as varied as the EPSCoR 
jurisdictions themselves. The EPSCoR program provides key resources to 
strengthen the physical, human, and cyber infrastructure needed to 
ensure the sustained development of such a workforce. EPSCoR 
investments also provide pathways for diverse underrepresented groups 
in STEM to more fully participate in the Nation's science and 
technology enterprise. For example, Arkansas' EPSCoR project 
strengthens research in areas with major economic development 
potential. Integral parts of the project are entrepreneurial training, 
support for commercialization, and an educational outreach program that 
targets the technology workforce. A patent application has been 
submitted based on research stemming from Arkansas' project that 
centers on plant derivatives with potential applications to human pain 
mitigation, Parkinson's disease, and certain cancers. When results such 
as this are compiled for all of the 29 EPSCoR jurisdictions, 
individually and collectively, the EPSCoR jurisdictions contribute 
significantly to key national priorities in energy, rural health, 
nanotechnology, homeland security, sustainability, computational 
science, and knowledge-based economic development.

    Question 2. In order to stimulate more innovative scientific 
research, we need to make sure that we sustain future investigator 
workforce. For example, it is my understanding that the National 
Institutes of Health is emphasizing grants to new investigators and 
putting more scrutiny to existing investigators with more than $1.5 
Million in grant support. It is my understanding that the NSF is also 
doing something similar. What specific plans do you have in place to 
implement such a policy? How effective is this plan?
    Answer. It is an important part of NSF's mission to stimulate and 
support a workforce of future scientists and engineers. New and early 
career investigators are supported both through grants from NSF's 
CAREER program (Faculty Early Career Development program) and through 
grants from NSF's broad portfolio of research programs. All NSF program 
officers strive to fund a balanced portfolio that includes awards to 
new investigators. The number of new investigators funded by NSF is 
tracked regularly and reported annually in the Merit Review Report. 
While the funding rates of both ``new PIs'' (individuals who have not 
served as the PI or co-PI on an NSF award -with the exception of 
doctoral dissertation awards, graduate or postdoctoral fellowships, 
research planning grants, conferences, symposia, and workshops) and 
``Prior PIs'' (individual that have served as a PI or Co-PI on an NSF 
award) have decreased over the past decade, the ratio has remained 
relatively stable. In Fiscal Year 2011, the funding rate for new 
investigators was 15 percent, and for prior investigators it was 25 
percent.
    Although NSF always carefully scrutinizes the budgets proposed by 
investigators, NSF does not impose specific a priori limits on the 
number of awards or the amount of funding a researcher may receive. 
Such limits could impede the Foundation's ability to fund creative 
ideas for bold, complex research, including research that involves 
interdisciplinary teams. It is important to note that relatively few 
awardees receive large amounts of NSF research funding. In Fiscal Year 
2011, less than 1.5 percent of NSF-funded principal investigators (PIs) 
had over $1.0 million in active research award funding. Only 4.4 
percent of PIs had more than two active research awards.
                                 ______
                                 
     Response to Written Question Submitted by Hon. Mark Pryor to 
                             Dr. Mason Peck
Experimental Program to Stimulate Competitive Research (EPSCoR)
    Question. NASA's budget request for EPSCoR barely keeps the doors 
open. Even more troubling is NASA's request for only $24M for the Space 
Grant program.
    Just last month both Dr. Holdren and Dr. Suresh attended a workshop 
in this room on the EPSCoR program. Several years ago DoD ended their 
EPSCoR program. I am very concerned that the Federal Government is 
headed in the wrong direction with respect to funding EPSCoR.

  <bullet> Is NASA's Education Program committed to funding EPSCoR and 
        the Space Grant Program?

  <bullet> What does the Congress need to do to make EPSCoR a higher 
        priority for Federal research agencies such as NASA?

    Answer. The Fiscal Year 2013 President's Budget, and notional out-
year budgets through Fiscal Year 2017, request $33M for the Aerospace 
Research and Career Development (ARCD) program, which consists of the 
National Space Grant College and Fellowship Program (Space Grant) and 
the Experimental Program to Stimulate Competitive Research (EPSCoR). 
The Office of Education proposes to allocate 33 percent of its funding 
in support of these programs.
    The Aerospace Research and Career Development program strengthens 
the research capabilities of the Nation's colleges and universities and 
provides opportunities that attract and prepare increasing numbers of 
students for NASA-related careers. The student programs serve as a 
major link in the pipeline for addressing NASA's human capital 
strategies. The programs build, sustain, and effectively deploy the 
skilled, knowledgeable, diverse, and high-performing workforce needed 
to meet the current and emerging needs of NASA and the Nation. The 
research conducted contributes to the research needs of NASA's Mission 
Directorates and the Office of the Chief Technologist, and advances the 
Nation's scientific and technology innovation agendas.
    Though the Office of Educations funding is being reduced to focus 
limited funds, NASA remains committed to advancing high quality STEM 
education using NASA's unique capabilities, and to leveraging our 
contributions with Federal and other partners as they tackle the STEM 
challenges we face. NASA will align the activities conducted by each of 
these programs with the priorities identified in the 5-year STEM 
strategic plan issued by the National Science and Technology Council's 
Committee on STEM Education and with the NASA Strategic Plan. The 
Agency will coordinate the education activities within NASA's Office of 
Education, Mission Directorates, the Office of the Chief Technologist, 
and Centers, to ensure that the educational activities are synergistic 
with the programs proposed to be funded in this account.

                                  <all>

</pre></body></html>
